<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
Public Witnesses for Indian Programs.............................    1
  Additional Testimony...........................................  348

                              <snowflake>
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
47-445 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director












DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                                           Thursday, March 5, 1998.
                              ----------                              

             BUREAU OF INDIAN AFFAIRS TRIBAL BISON PROJECT

                                WITNESS

MIKE FOX, PRESIDENT, INTERTRIBAL BISON COOPERATIVE

    Mr. Regula. I call the committee to order.
    Our first witness today will be InterTribal Bison 
Cooperative. Mike Fox. Just summarize for us because five 
minutes is not very long.
    Mr. Fox. Right. Thank you.
    Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Fox. My name is Mike Fox, president of the InterTribal 
Bison Cooperative and manager of the Fort Belknap Buffalo 
Project.
    With me this morning I have Fred DuBray from Cheyenne River 
Sioux Tribe; Carl Tsosie from Picuris Pueblo; Mark Heckert, our 
executive director.
    Mr. Regula. Is this a group that bands together to deal 
with the bison problems?
    Mr. Fox. Right.
    Mr. Regula. And do you market products--meat and so on? I 
remember from last year, I thought that is what you did.
    Mr. Fox. Right. That is a part of our plan.
    Mr. Regula. Right.
    Mr. Fox. Thank you, this morning, for the opportunity to 
present testimony before the House Subcommittee on Interior 
Affairs. The ITBC requests $10 million for fiscal year 1999.
    The ITBC is comprised of 45 Native American Indian Tribes 
located in 16 States, who are dedicated to bringing the buffalo 
back into the daily lives of Indian people for the economic 
development----
    Mr. Regula. Are the herds expanding?
    Mr. Fox. Yes. Since we started in 1991, the herds went from 
about seven Indian tribes, with about 1,500 buffalo, to 38 
tribes raising over--close to 15,000 buffalo right now.
    Mr. Regula. Do you have a problem at all with disease?
    Mr. Fox. No disease. The only disease problem we have, and 
we will be speaking about that a little bit later, is the 
Yellowstone, and----
    Mr. Regula. Yes, I know that.
    Mr. Fox. Every herd that is managed by Indian tribes is 
disease-free.
    Our current funding level is at $638,000. That would have 
been funding for the last two or three years at that level, but 
our tribes have increased. Every year we get new tribes with 
new buffalo initiatives.
    Mr. Regula. And each pay some into your InterTribal 
Council?
    Mr. Fox. Right.
    Mr. Regula. Each tribe supports a portion of it?
    Mr. Fox. Yes.
    Mr. Regula. Okay.
    Mr. Tsosie. Yes, sir, Mr. Regula, I was here about three 
years ago, and the vice president of the InterTribal Bison 
Cooperative. We are now 46 tribes in 17 States and in New 
Mexico alone we have been doing the buffalo dance, time 
immemorial, without the buffalo around, since they were all 
killed off. So we are the answers to the prayers now, and it 
has really caught fire with a lot of our people.
    We are actually not just dancing, we are raising them, and 
it is enhancing agriculture, and the old ditches are coming 
back. The restoration is all coming back and it is really moved 
by our spirituality, and we are here representing the tribes 
and the medicine people, and this is a return of the buffalo 
which, with your help, we are trying to accomplish it.
    With the little monies that we get, we are hoping to--well, 
we do have success stories. At my pueblo in New Mexico, we 
started with one bull and another gift from our tribal member 
from Taos, who gave us a--their medicine people gave us another 
female. Now we have gone through 35 animals since you gave us 
the first $638,000, and now we are able to start maintaining 
our own and it is starting to pay off. We hope to become self-
sufficient in these areas, and like I told you, it is coming 
back.
    Mr. Regula. Okay. I wanted each of you to have a comment.
    Mr. Fox. I thank you for the opportunity. I would just like 
to stress the fact that I am from Cheyenne River Sioux Tribe in 
South Dakota and I think, you know, we have had a modest amount 
of success, I might say, in raising buffalo. We have got about 
1,000 head up there now and we started with 80 head when we 
first started this cooperative.
    Mr. Regula. I assume you do not fence them. They just roam?
    Mr. Fox. Well, we fence them, but I always like to say we 
fence everything else out because they kind of go through when 
we want to go.
    Mr. Regula. I raise cattle. I live on a farm in Ohio, so I 
know all about fences, but I think buffalo are tougher than my 
cattle on fences.
    Mr. Fox. Yes, they are, and that is one of the things I 
wanted to touch on, is that this is a sustainable development 
project. These buffalo have been there for thousands of years. 
They have been our economy in the past, and we had a very self-
sufficient economy based on the buffalo. That was destroyed. 
Now we are trying to bring that back and there are a lot of 
reasons for it, not just for economics, but our culture as 
well.
    It is a sustainable thing, and with all of the budget cuts 
coming in Congress--we understand that there is a big push for 
self-sufficiency and that is exactly what this project is all 
about.
    Mr. Regula. Okay. You have about one minute yet. Anybody 
else want to make a comment?
    Mr. Heckert. Yes. Mr. Congressman, I am Mark Heckert. I 
just wanted to say that we have been trying for about five 
years to get the slaughter of buffalo in Yellowstone National 
Park stopped.
    It is being delayed by both the State of Montana and 
Federal Government agencies who cannot come to an agreement to 
get those animals saved, and out alive.
    Mr. Fox just told you that there are 10,000 buffalo on 
Indian reservations. They have killed 3,000 buffalo in 
Yellowstone in the last five years.
    Those buffalo, like Mr. Tsosie said, would be the answer to 
the prayers of the Indian people.
    Mr. Regula. They migrate in from the reservations?
    Mr. Heckert. No; no. They migrate out from Yellowstone 
National Park.
    Mr. Regula. Yes, but they are killed before they get out, 
in effect.
    Mr. Heckert. Yes. We proposed a plan, which is delineated 
in our testimony, which would remove those animals alive. After 
a period of testing and quarantine, which I am sure you are 
familiar with, they would be sent out, alive, to Indian 
reservations for the use of the people, and as well as other 
public lands.
    Mr. Regula. I think they would want to keep some because 
the visitors love to see them.
    Mr. Heckert. Oh, absolutely. We are not talking about de-
populating the park. But we have agreements with other national 
parks for the surplus animals that come out.
    Mr. Regula. Okay. Thank you very much; very interesting. 
And I think even for visitors, they would enjoy seeing buffalos 
on the range. You know, in a sense, it is part of the national 
culture of the United States.
    Mr. Heckert. Absolutely, and it is a shame on everybody 
that we are killing these buffalo.
    Mr. Regula. Yes.
    Mr. Fox. Come to my reservation and see how we raise them.
    Mr. Regula. Okay. Thank you.
    [The statement of Mike Fox follows:]
    Offset Folios 8 to 13 Insert here


[Pages 4 - 9--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

PEARL CAPOEMAN-BALLER, PRESIDENT, QUINAULT INDIAN NATION
DAVID MARTIN, VICE PRESIDENT

    Mr. Regula. Quinault Indian Nation. Good morning.
    Ms. Capoeman-Baller. Good morning, Chairman.
    Mr. Regula. Good morning.
    Ms. Capoeman-Baller. My name is Pearl Capoeman-Baller. I'm 
president of the Quinault Indian Nation. I have with me this 
morning David Martin who is vice president of the Quinault 
Indian Nation.
    You have been provided a copy of my written testimony.
    Mr. Regula. Right. It will be a part of the record.
    Ms. Capoeman-Baller. This morning I would like to focus on 
three issues that I think are critical to the Quinault Indian 
Nation people.
    First of all, I would like to comment on a cultural center 
that we would like built for our tribal members.
    We have, throughout the past, identified the need to 
preserve part of our history and our culture, and right now, a 
lot of the culture is preserved basically in people's homes and 
personal storage, in attics, and a lot of the history is in the 
minds of our elders.
    We feel like unless we get a facility to house these items, 
to document what our culture is about, we need a facility to 
preserve that for the past and for the future.
    So what I am asking for this morning is an earmark from the 
National Park Service Historic Preservation Fund, the Save 
America's Treasures Project, in the amount of $300,000 to build 
a facility.
    Mr. Regula. Yes, well, we will not directly have any 
jurisdiction. We have the appropriation, but I am not sure yet 
who will make the decision on which activities will fit in with 
this Save America's Treasures Project.
    But once that gets established, you will probably want to 
make an application there.
    Ms. Capoeman-Baller. We will do so.
    Mr. Regula. Yes; okay.
    Ms. Capoeman-Baller. The second thing that I would like to 
bring to your attention is the need for an elders assisted-
living facility. We have two communities, small villages, on 
the reservation. We really have no place to care for our 
elders.
    Mr. Regula. A senior center is what you are talking about.
    Ms. Capoeman-Baller. A senior center. It is an assisted-
living facility. Because right now, we are such a distance from 
any facilities.
    Mr. Regula. How many members do you have in the tribe?
    Ms. Capoeman-Baller. We have about 2,800 tribal members on 
the reservation. So this morning, I am requesting an earmark of 
$250,000 in initial, and $150,000 on a recurrent basis out of 
the IHS-Community Health Program, and that would help us staff 
it, equip it, and build the center. That is the second item 
that is critical to us.
    The last item that I wanted to bring to your attention is 
dealing with the lands. I want to put on record our strong 
support for the Bureau's proposed land consolidation project.
    I come from a reservation that is a nightmare to manage, it 
is fractionated, and we see this pilot project as a program 
that will help alleviate the nightmares that we face in trying 
to manage this land, the resources, and it will also eliminate 
a lot of hassles that the Bureau of Indian Affairs currently--
--
    Mr. Regula. Would you buy additional land, or how do you 
consolidate it?
    Ms. Capoeman-Baller. Yes. We would buy individual 
allotments and try and buy some of the property back from major 
companies that logged there, years ago.
    We want to preserve the rivers and----
    Mr. Regula. This is forest land you are talking about.
    Ms. Capoeman-Baller. Yes.
    Mr. Martin. Forest land. We have approximately 2,300 
original allotments on our reservation. A major portion of 
those were bought by individual companies, private companies, 
et cetera, individual owners, that we are trying to acquire 
back from.
    Mr. Regula. Are they logging on it right now?
    Mr. Martin. Currently, we have one active company, a local 
company, that is actively logging on our reservation; yes.
    Mr. Regula. But on the lands that you would like to buy, 
are they being logged?
    Ms. Capoeman-Baller. Some of them could be, and some of 
them are just lands that we want to protect, along the rivers 
and the lakes.
    Mr. Regula. Are they lands that are contiguous to what is 
already tribal land?
    Mr. Martin. Because of the fact that the reservation was 
allotted, we did not have a contiguous manageable land base, 
other than what we received in 1988 from the U.S. Government 
due to a surveying error, which we call the north boundary 
area, and that is the ultimate goal of the Quinault Indian 
Nation, is to have a contiguous manageable land base, and 
acquiring those lands is a number one goal of the Quinault 
Nation.
    Mr. Regula. Okay. We understand.
    Ms. Capoeman-Baller. On a final note, I want to support any 
increase in funds over the amount requested by IHS, and also 
support the Northwest Portland area Indian Health Board budget, 
and the Northwest Indian Fish Commission budget.
    Mr. Regula. Okay. Thank you for your testimony.
    Mr. Regula. Thank you.
    [The statement of Pearl Capoeman-Baller follows:]


[Pages 12 - 15--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

VICTOR R. PRESTON, CHAIRMAN, SUSANVILLE INDIAN RANCHERIA

    Mr. Regula. Next we have the Susanville Rancheria.
    Will you, please, give your name so that our recorder has 
it for the record.
    Mr. Preston. Thank you, Chairman Regula.
    My name is Victor Preston. I am the tribal chairman for the 
Susanville Indian Rancheria in Lassen County, California. On 
behalf of our tribal membership, I and our fellow board members 
are very pleased to be here to provide this testimony.
    I would like to introduce to you our vice chairman, Mr. Leo 
Guiterez, and board member Stacy Dixon, and Hank Sanchez, and 
our clinic director, Ms. Lea Exedine.
    We are all here to address some needs and concerns we have 
with regard to the 1999 proposed fiscal budget process, as they 
relate to tribes and to certain programs that we have in effect 
right now, and the impact that these budget cuts will have upon 
our facilities.
    Of critical importance to us right now is a Youth Treatment 
Center. The Youth Treatment Center is part of a network that we 
have established with two other tribes in the State of 
California.
    The two other tribes, are the Southern California Inhel 
Council and the Toyabe Indian Health Project. We are providing 
these very much needed services to youth. In the past, we have 
never had such aprogram for our youth in Northern California.
    In the past, we have had to send our youth out of State. So 
this is significant to us. An additional significance also has 
to do with how we acquired the facilities for our YRTC program. 
You may not know this, but we are the first tribe to actually 
gain land through the Base Realignment and Closure process, 
known as BRAC. This occurred two years ago, and this was 
significant that we were the first, but also it was 
significant, in that we also were able to obtain existing 
facilities that the Army transferred over to us.
    Mr. Regula. Which base did you get?
    Mr. Preston. This is the Herlong Army Base, which was 
primarily a ammunition supply depot. So we are in the process 
not only of acquiring that, but obtaining additional parcels of 
that Army base.
    Mr. Regula. Do you have a problem with waste disposal sites 
on the base?
    Mr. Preston. We have been able to effectively deal with 
that with the U.S. Army. It has been a fully cooperative effort 
between all the parties involved, and we want to continue the 
pace and the process of what we are doing right now.
    Right now, we are concerned that the pending budget cuts 
for 1999 will affect us, severely, and so we have some 
important requests that we want to get----
    Mr. Regula. Are these cuts in the President's proposal?
    Mr. Preston. Proposal; yes. And we have some bullets here, 
and since there is so much to present, I just want to, first of 
all, state that for our YRTC, the main point that we want to 
request is that for this facility we project a need for an 
additional $1.4 million for operational costs, and 
approximately $1 million for renovating the facilities.
    Even though the facilities did come from the Army, they 
still are in need of renovation in order to meet the needs of 
these youth. We plan on opening this facility as early as April 
of this year, and so it is imperative that we have, are able to 
plan ahead, and know where our funding is going to come from.
    So for the 1999 IHS and BIA fiscal year budget, we are 
asking for, in regard to Indian Health Service, a request for 
the subcommittee to restore the reduction of $10 million to 
maintain the current health services, without any further 
reductions.
    Mr. Regula. You have about one minute left.
    Mr. Preston. Okay. For two, we request the committee to 
provide for the projected inflationary cost increases to 
maintain at least the fiscal year 1998 level of services at 
$53.6 million, and we also request the subcommittee to provide 
the resources required for pay raises to the Indian Health 
Services at $36 million.
    And we also request an increase of $37.4 million for the 
population growth that has occurred throughout the Nation in 
our Indian population, and we also request----
    Mr. Regula. What is the population of your tribe?
    Mr. Preston. Our population right now is three hundred, but 
we also have letters and resolutions from 50 other tribes who 
support our facility because they intend to eventually refer 
their clientele to us. And we request a program increase of $21 
million for operational costs to provide for Youth Regional 
Treatment Centers nationwide.
    Mr. Regula. Okay. Well, you are out of time, but your 
statement will be in the record. We will take a good look at 
it. Thank you very much.
    Mr. Preston. All right, and of course we would have 
addressed BIA, but we will--hopefully other tribes will address 
those issues also.
    Mr. Regula. I can understand. Okay.
    Mr. Preston. Thank you very much for your time.
    Mr. Regula. You are welcome.
    [The statement of Victor Preston follows:]

[Pages 18 - 24--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

BENNIE J. ARMSTRONG, TRIBAL CHAIRMAN, SUQUAMISH TRIBE AND KEVIN GEORGE, 
    COUNCILMAN

    Mr. Regula. Suquamish Tribe. Bennie Armstrong.
    Mr. Armstrong. Mr. Chairman, my name is Bennie Armstrong. 
This is my associate, Kevin George. I am the chairman of the 
tribe. He is councilman. We are from Northwest Washington, 
located on the Puget Sound, in the northeast of Kitsap County, 
established by a treaty of Point Elliott, January 1855. We are 
right across from the city of Seattle, 10 miles across Puget 
Sound.
    We have three priorities that we are working on today. The 
first one is $200,000 for higher and adult education added to 
the Tribal Priority Allocation Account.
    Mr. Regula. Do you have your own schools, or do you use 
public schools?
    Mr. Armstrong. Public schools, and BIA-funded secondary 
schools like Haskell or Fort Lewis in Durango.
    Anyway, the need for educational services of all types has 
dramatically increased on the reservation, and we are working 
with a local group called Northwest Indian College, that 
provides off-campus facilities at the local schools and tribal 
centers to work on higher education and GEDs.
    The number of students requesting higher education 
assistance has nearly doubled in the last 18 months, and the 
BIA Higher Education Fund is--right now, if you added it all 
up, it equals about $1,100 per student, and the need for each 
student for higher education is like $5,000 each.
    So what we are requesting is like $175,000 for fiscal year 
1999 to provide the additional funds for all types of training 
for adults, and the tribe continues to support higher education 
programs, and meet the needs of all the tribal members, whether 
it be vocational training or college.
    The second part of our request is $150,000 Tribal 
Government, Tribal Courts, and Public Safety, and Justice, from 
the BIA/TPA account, and we are in a area that is vastly 
growing. It is a mixed checkerboard reservation where we have 
Indians and non-Indians alike, and we work with the local law 
enforcement agencies, and the caseloads have increased, 
incredibly. A 150 in 1996 to 315 in 1997, an increase of about 
110 percent.
    So working within our own system, handling our own people, 
and helping the Annoninees deliver their people, and work with 
them, it is just like the costs of it have doubled.
    So we are training our officers. Our officers are already 
equivalent to any of the county officers, or whatever, and 
could be cross-deputized. They know not only tribal laws, but 
Federal, State, and county laws.
    So anyway, with this, our incarceration is subcontracted to 
other jurisdictions, and sometimes it takes about an hour and a 
half to the closest place where there is a facility to hold one 
of our people. So what we are thinking about doing is maybe 
building a jail and getting it a little closerto home. We do 
not know what kind of facility we are looking at there. That would be 
part of that.
    And the funds received from BIA are no longer adequate to 
provide the minimum services needed to insure community safety.
    So that law enforcement, court systems, jails, all that, is 
part of that package.
    The last one is to reacquire our ancestral home on Old Man 
House, and this would be out of the BIA, Wildlife, and Parks 
Budget. And this is a piece of land where, historically, our 
tribe owned. It was called Old Man House. It is like a 600-foot 
long cooperative wood longhouse, and the way that--it was taken 
a long time ago for the United States War Department to protect 
the naval base in Bremerton. When they were done with it, they 
were supposed to return it to us.
    Instead, it got piecemealed out and sold to non-Indians, 
and part of our request is $700,000 in 1999 to purchase that 
piece.
    Mr. Regula. That would be several parcels you would have to 
buy.
    Mr. Armstrong. Right. Just the part where the Old Man House 
was located; $700,000 in 1999, $400,000 in 2000, and $700,000 
in 2001. And just to reclaim the home of the Suquamish people. 
And then the rest of the regional requests would be, of course, 
$1.95 million for the 20 Western Washington Tribes for 
Northwest Indian Fisheries Commission, shellfish management.
    Mr. Regula. Thank you very much.
    Mr. Armstrong. And of course some contract support. Thank 
you.
    [The statement of Bennie J. Armstrong follows:]

[Pages 27 - 30--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

W. RON ALLEN, TRIBAL CHAIRMAN AND EXECUTIVE DIRECTOR, JAMESTOWN 
    S'KLALLAM TRIBE

    Mr. Regula. Jamestown S'Klallam Tribe. Good morning.
    Mr. Allen. Good morning, Mr. Chairman.
    It is good to be here in front of you again this year to 
talk about appropriation issues. You have my testimony and the 
details of it.
    Mr. Regula. It will be part of the record.
    Mr. Allen. I also want to alert you that, as the president 
of the National Congress of American Indians, we also will be 
submitting to you some testimony regarding the concerns we have 
with regard to the overall budgets, the BIA/IHS, and also, as 
the tribal commissioner in the U.S.-Canada Fishery Commission 
arena, we will be submitting to you some testimony with regard 
to that arena as well.
    Mr. Regula. All right.
    Mr. Allen. With our specific tribal issues, we are a small 
tribe in Western Washington, a tribe of about 400 people, and 
we have been coming to you for the last number of years as a 
self-governance tribe, and self-governance has continued to be 
successful for us.
    We are very enamored with the flexibility that it has 
provided for us, both on the BIA side and IHS side.
    Our first two requests really are oriented around 
adjustments, regarding the diminishment of the dollars that has 
occurred to us from fiscal year 1996 to today, including, on 
the BIA side, the TPA process that we were instructed to impose 
on tribes from last year's appropriation directly. The TPA 
process resulted in a reduction of 50 percent to the Portland 
area, which, for the Jamestown tribe, reduced our allocation by 
$73,000.
    So these numbers are oriented around that. The IHS side is 
relative to the tribe. Our tribe is one of two tribes doing a 
3-year pilot study to engage in a new managed system for health 
care services, and that one is very important for us.
    We are being successful, partially because there is a 
health care program in Washington State that we are able to 
access, and buy reduced services, reduced cost services to 
provide fuller services for our tribal members.
    The third item that is a priority for us is, historically, 
we have never received any land assistance for the tribe. 
Adjacent to our 3-acre reservation is a 10-acre tract that we 
have been trying to purchase for some time, but lack of funds 
simply has not allowed us to do it.
    The $600,000 is targeted at that objective, which we are 
trying to achieve simply for expansion purposes.
    We know the actual facilities, and all that, will be really 
relative to the tribe's capacity to secure those resources.
    On a regional basis, we have a couple of areas. In the 
Northwest, as you are well aware, because of treaty rights, 
shellfish has become a major issue for us and we join the other 
tribes in asking for the $2 million to help the 20 tribes that 
have shellfish rights to be able to expand our shellfish 
operations.
    We literally manage thousands and thousands of tideland 
areas, and it is really a very cumbersome process that we have 
to deal with.
    Another area we are supportive of with the Northwest Fish 
Commission is a technical adjustment. Because of some 
bureaucratic snafus, if you will, they lost $185,000, and which 
they are trying to restore for their programs, and we are being 
very supportive of that.
    We are also being supportive of the $3 million request that 
BIA has made with regard to the Job in the Woods program, and 
the Wildstock Restoration Initiative. We are supportive of the 
BIA request for the $1 million for the Endangered Species Act, 
which, as you are well aware in the Northwest, has really 
become a major problem for us.
    Mr. Regula. Yes.
    Mr. Allen. It is just causing us all kinds of heartburn. We 
have to deal with those responsibilities.
    As President Capoeman-Baller mentioned, we are very 
supportive of Affiliated Tribes of Northwest Indians, and the 
Northwest Portland Area Indian Health Board, and theNorthwest 
Fisheries Commission requests. There are a number of things that we 
each equally enjoy.
    On the national arena, we are concerned about a number of 
things, and we would urge you to seriously consider the 
$900,000 request for self-governance with regard to restoration 
of the planning grant. A lot of tribes want to come on board, 
but they are really being bottlenecked now because of their 
capacity of planning, and then they have another component. 
They have asked for $500,000 just to increase their FTEs.
    That program, that small little office, now, is managing a 
large number of the tribes, now, and a large number of the 
monies, and they basically need assistance in order to do their 
job, if we are going to downside the BIA and modestly increase 
that program, so that it is managing more efficiently.
    We are supportive of the request for $300,000, 150 from 
BIA, 150 from IHS for Self-Governance Communication. Self-
governance is still an initiative that needs to be 
communicated, so we want that to move forward, and we have 
asked for a consideration of $23 million, just because of the 
inflationary cost. That is a ``big deal'' to us.
    Mr. Regula. Okay.
    Mr. Allen. The last item, really, is IHS has identified a 
$120 million shortfall simply because of loss of the mandatory 
inflationary and population growth increase impacts.
    So there is a lot more to it, and I know you will read the 
details of all these many requests.
    Mr. Regula. Okay. Thank you very much.
    Mr. Allen. Thank you, Mr. Chairman.
    [The statement of W. Ron Allen follows:]

[Pages 33 - 36--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

HENRY CAGEY, CHAIRMAN, LUMMI INDIAN NATION

    Mr. Regula. Lummi Indian Nation.
    Mr. Cagey. Thank you, Mr. Chairman.
    My name is Henry Cagey, chairman of the Lummi Nation, and 
also president of Affiliated Tribes and Northwest Indians.
    I will talk mainly on the tribal specific issues, and once 
again, we are back here requesting from the committee for a new 
facility for the Lummi Nation, a new educational facility. For 
the last 8 years----
    Mr. Regula. You are talking about the school?
    Mr. Cagey. The new school.
    Mr. Regula. Yes.
    Mr. Cagey. Back in 1989-1990, our tribal school facility 
blew up, and we have been on the list, waiting, patiently, for 
dollars to replace that facility. So far----
    Mr. Regula. What are you using if the old one blew up?
    Mr. Cagey. We are using temporary modular facilities, which 
I have got some pictures here to show you the conditions of the 
facilities that our kids have to live in. Right now, we just 
had these pictures taken just two days ago, and our kids are 
having to live under these conditions.
    Mr. Regula. Are these boarding schools?
    Mr. Cagey. These are modulars. These are modulars that were 
replaced by the emergency conditions declared in 1990 by the 
BIA. But in 1990, they lost our application, and we had support 
letters from our delegation supporting putting Lummi back on 
the list, and so far--in 1992, I think they stopped the new 
construction. But the tribe is still needing to get the school 
replaced, and we know that there is additional monies 
available, but we are not asking to be placed on a new facility 
list which the Bureau is working on.
    We want the Bureau to deal with the problem in replacing 
the facility, and in our testimony you will see the 
recommendations that we are making from the committee to the 
Bureau.
    And also there are some alternative solutions that we think 
might also be feasible, to look at alternative financing for a 
new facility.
    The second issue, Mr. Chairman, is the water agreements, 
and this stems over the conflict that the Lummi Nation had in 
1995 in the appropriations rider that we see in Section 115. We 
resolved that. What we have now is an agreement in principle to 
resolve a long-standing situation on groundwater on the Lummi 
reservation. What is needed to carry out that agreement is 
additional dollars to look for off-reservation resources to 
fulfill the need for Indians and non-Indians, and it is going 
to take money, it is going to take support to do that.
    The last one we have on our appropriations is the shellfish 
hatchery. The Lummi Nation has a hatchery that assists the 
other tribes in the Puget Sound to supply needed--seedlings, I 
guess they call them, to enhance the beaches, and it has been 
supported by the Northwest Indian Fish Commission, and also 
supported by other tribes.
    Mr. Regula. Okay.
    Mr. Cagey. Okay. And then the other thing, we echo, you 
know, a lot of support for the Northwest Indian Fish 
Commission, and getting those dollars increases and the 
technical support amendment, I guess they are calling it, or 
correction, in doing that.
    The biggest support I think we need, Mr. Chairman, is the 
contract support issue, and you will probably hear that 
throughout the day, and getting IHS to really look at 
fulfilling the need in contract support, and it is a big issue, 
it affects us all, and we do need your support on it.
    Mr. Regula. Okay. Thank you.
    Mr. Cagey. Thank you, Mr. Chairman.
    [The statement of Henry Cagey follows:]

[Pages 39 - 42--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                         INDIAN HEALTH SERVICE

                                WITNESS

DR. MURRAY D. SYKES, CHAIRMAN, AMERICAN DENTAL ASSOCIATION, COUNCIL ON 
    FEDERAL AND STATE GOVERNMENT AFFAIRS AND FEDERAL DENTAL SERVICES

    Mr. Regula. We will skip to the American Dental 
Association. Good morning.
    Dr. Sykes. How are you?
    Mr. Regula. Good.
    Dr. Sykes. Mr. Chairman, Members of the subcommittee, I 
would like to thank you for the opportunity to testify on 
behalf of the American Dental Association concerning the fiscal 
year 1999 appropriations for the Indian Health Service.
    My name is Dr. Murray Sykes, and I am chairman of the ADA's 
Council on Government Affairs.
    I also have been practicing the last 30 years in Silver 
Spring, Maryland, as a general dentist.
    Before I begin my testimony I would like to thank the 
Chairman of the subcommittee for last year's help in funding 
three periodontal diabetes clinics and increased funding for 
the modular dental clinics.
    Mr. Chairman, last summer, I had the honor of joining five 
other ADA members from my council, and visiting Navajo area 
dental facilities in New Mexico and in Arizona.
    All of you would have been proud, as I was, of the obvious 
dedication, enthusiasm, and competency of all the health 
professionals we encountered.
    Despite overwhelming obstacles caused by insufficient 
funding, there remained one common theme--the patient comes 
first.
    Unfortunately, due to insufficient funding, the amount of 
treated native Americans has gone down from a high of 34 
percent in fiscal year 1993 to a low of under 25 percent now.
    Mr. Regula. You are talking about 34 percent of those that 
need treatment or 34 percent----
    Dr. Sykes. Who are treated; who are treated. They were able 
to treat 34 percent that came in. They had the people and the 
facilities to treat 34 percent of the----
    Mr. Regula. So you are really saying it is 66 percent that 
went untreated----
    Dr. Sykes. Yes; yes.
    Mr. Regula [continuing]. Because of lack of facilities, 
lack of personnel?
    Dr. Sykes. And access. There were not enough mobile clinics 
far enough away to get to them.
    Mr. Regula. Okay.
    Dr. Sykes. Compare this to 60 percent of normal Americans 
that are treated and I think you see a big difference. On our 
trip, we went to an area called Tohatchi where I met a young 
female dentist who had just graduated from Ohio State.
    She was happy and enthusiastic but explained to me that she 
was overwhelmed by the children, 2 to 4 years old, with rampant 
decay.
    It seems in Indian culture there is a matter of where the 
mother chews the food first, and then gives it to the child. 
This is the way they pass their soul down to their children. 
Unfortunately, they are also passing down bacteria called 
streptococcus mutans which causes decay.
    These young dentists are not trained to handle this 
overwhelming problem. We need more specialists like 
periodontists to go down there and treat the children and help 
the dentists that are treating the children.
    Mr. Regula. Would these be permanent teeth of the child?
    Dr. Sykes. These are baby teeth, but the baby teeth are 
needed for speech, eating, and other functions.
    The IHS puts a great deal of emphasis on health promotion 
and disease prevention but their fluoride water systems are not 
working due to a lack of trained personnel to run the systems.
    Fluoridation is the number one efficient and safe way to 
control dental decay. The ADA requests $800,000 to get these 
systems functional again.
    They need people to go down there and teach them how to 
work the floride water systems.
    Next, we went to remote, desolate, Kayenta, Arizona, and I 
met another young lady dentist who had been there six months. 
She loved her patients, they loved her, but she was leaving 
because she could not tolerate the housing and living 
conditions.
    We have to improve both these conditions in order to 
recruit and retain dentists. We probably could even get 
volunteers to go there if we could improve the housing.
    The ADA played a large role in getting pay raises to help 
recruit and retain these young dentists.
    The problem is it has not been funded and the Indian Health 
Service has a large monetary shortfall. There needs to be $8 
million for this.
    The periodontal diabetes disease project shows great 
promise and needs $1 million to expand it. The ADA was very 
disappointed with the administration's fiscal 1999 budget of 
$65.5 million for this dental program.
    The ADA recommends a budget increase of $12.8 million for 
the dental program, and an additional $10 million for the 
contracted care.
    We saw great success in our visit to the Sage Memorial 
Hospital, which is a contracted facility.
    Finally, in closing, the ADA would like to take this 
opportunity to tell the committee that because of our concern 
for the overall health of all native Americans, the ADA has 
formed a coalition with 20 other national health groups called 
The Friends of the Indian Health Service.
    This coalition strongly supports the request of the 
National Indian Health Board for funding of $2.4 billion for 
fiscal 1999.
    Thank you for inviting me to appear before the subcommittee 
and I will answer any questions, if you have any.
    Mr. Regula. Thank you. As you know, we are on a pretty 
tight leash as far as funds being available.
    Dr. Sykes. I understand.
    Mr. Regula. I think it is unlikely that we will have any 
more than we had last year, so we are going to have to deal 
with the facts of life when it comes to allocating the 
resources.
    Dr. Sykes. I understand. If we could even just get the 
funding for the pay raises, I think that would give the 
infrastructure a great help.
    Mr. Regula. Okay. Thank you.
    Dr. Sykes. Thank you.
    [The statement of Dr. Murray Sykes follows:]

[Pages 46 - 49--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

MARY PAVEL, PROGRAM ADMINISTRATOR, NORTHWEST INTERTRIBAL COURT SYSTEM

    Mr. Regula. OK. Northwest Intertribal Court System.
    Ms. Pavel. Mr. Chairman, my name is Mary Pavel, I am a 
member of the Suquamish Tribe of Washington State and I am a 
practicing attorney in the Washington, DC office of Sonosky 
Chambers Sachse and Endreson.
    I am pleased to be here today to present testimony on 
behalf of the Northwest Intertribal Court System, an 
organization that my mother helped found in 1979, concerning 
the administration's budget for the proposal of the BIA.
    The tribes in the Northwest are very proud of the 
contribution that NICS has made over the past 19 years in 
improving the efficiency, fairness, and effectiveness of tribal 
court systems in the Northwest.
    However, much work remains to be done. There have been 
extraordinary reductions in Federal Indian programs since 1996, 
to the point where a virtual state of emergency exists 
throughout Indian country.
    Almost one-third of Indian people now live below poverty. 
Coupled with the increased poverty has come an explosion in 
illegal drug use and gang activity, resulting in an alarming 
escalation of serious and violent crimes.
    Current law enforcement personnel and judicial services are 
inadequate to meet the growing need. We urge the subcommittee 
to work with tribal governments to reverse the downward 
budgetary trend.
    NICS is requesting a modest increase in its base budget to 
cover its current annual shortfall, cost of living increases 
for its staff, and restoration of two of the seven positions 
which were lost as a result of the 1996 budget cuts.
    Mr. Chairman, as I am sure you are aware, in order to 
provide essential judicial services to the member tribes, it is 
critical that two of the seven staff positions that were 
eliminated in 1996 be retained.
    In particular, the court is very concerned with the lack of 
public defenders.
    Mr. Regula. How many tribes are served by this intertribal 
system?
    Ms. Pavel. There are nine member tribes; small tribes.
    Mr. Regula. What would that represent in total population?
    Ms. Pavel. For Northwest?
    Mr. Regula. For the nine tribes, totally.
    Ms. Pavel. There are about 9,000.
    Mr. Regula. So you have a common court system that serves 
all the tribes?
    Ms. Pavel. Yes, and it is a roving court system. My mother 
was in fact one of the first tribal judges, ever, in the 
country.
    Mr. Regula. The system moves around to the tribal 
locations?
    Ms. Pavel. Yes.
    Mr. Regula. Where do you go for incarceration? Do you 
contract with a facility?
    Ms. Pavel. Well, it is a Public Law 280 in the State of 
Washington, so a number of the things we do contract for, 
certain violations. Some tribes do not have a criminal code. 
For instance, my tribe does not necessarily have a criminal 
code. We leave it still to the State because it is a Public Law 
280 jurisdiction.
    Some tribes are exercising their co-equal jurisdiction with 
the State of Washington in that regard.
    Mr. Regula. Good morning, Jim.
    Ms. Pavel. Good morning, Congressman.
    Mr. Moran. Good morning.
    Ms. Pavel. Nice to see you.
    Mr. Moran. Good morning, Mr. Chairman.
    Mr. Regula. Morning.
    Ms. Pavel. The court has detailed written testimony and I 
would urge you to review it.
    Mr. Regula. Your testimony will be a part of the record as 
you know.
    Ms. Pavel. I just want to assure the committee--you see all 
of the tribal leaders who are here today. They carry the 
burdens of their people. I want you to know that I am a product 
of what this committee does. I was born and raised on my 
reservation. My mother was tribal chairwoman. My brother was 
chairperson. My sister sits on the council. I got through 
school because of the JOM programs that you fund. My education 
at Dartmouth was funded because of the scholarship monies that 
you provide.
    I sit here because of you, and if you wonder who this 
helps, it helps me, and these tribal leaders, they carry that 
burden, they carry my life in their hand, and so I want to 
thank you for that.
    Mr. Regula. Now you are a member of a Washington law firm.
    Ms. Pavel. Now I am a member of a law firm that I am very 
proud of.
    Mr. Regula. In Washington, DC? [Laughter.]
    Ms. Pavel. Yes.
    Mr. Regula. Very well. Where did you go to law school?
    Ms. Pavel. University of Washington in Seattle.
    Mr. Regula. Oh, okay.
    Ms. Pavel. Yes. I went home.
    Mr. Regula. Questions, Jim?
    Mr. Moran. As I know you feel, Mr. Chairman, this is the 
most compelling type of testimony, to see somebody who has made 
it, who might not have, had there not been a sense of justice 
and some compassion from the committee. That is what it is all 
about. The most compelling argument we have made on the 
National Endowment for the Arts was through Denyse Graves who 
said, you know, this is what turned her on to the opera.
    Seeing you as the personification of what these programs 
are all about makes a world of difference.
    Is Marvin Sonosky the head of the--is that the same----
    Ms. Pavel. It is the same firm; yes. He passed away this 
last July. We lost him.
    Mr. Moran. Yes. He was a good friend. Thank you very much, 
Mary.
    Mr. Regula. Thank you.
    Ms. Pavel. Thank you.
    [The statement of Mary Pavel follows:]

[Pages 53 - 56--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

JOE MOSES, CHAIRMAN, THE CONFEDERATED TRIBES OF THE WARM SPRINGS

    Mr. Regula. Confederated Tribes of the Warm Springs.
    Mr. Moses. Good morning, Mr. Chairman. I am Joe Moses. I am 
the tribal council chairman of the Warm Springs Tribe of 
Oregon.
    Thank you for the opportunity. I have four requests.
    Mr. Regula. Okay.
    Mr. Moses. The first is to adopt a $250,000 BIA request for 
Columbia River fishing site management, and direct that all 
these funds be used for law enforcement under tribal 
contracting.
    To fulfill a pledge made by the U.S. when it built 
Bonneville Dam, the Corps of Engineers is finally developing 
additional treaty fish and access sites along the Columbia 
River. The first of these new sites is completed and being 
turned over to BIA to be held in trust for our fishing 
activities.
    The $250,000 request by BIA is needed for these sites, and 
it should all be used for law enforcement, which is the most 
pressing need. The sites are a long way from our reservation 
and have a lot of people living on them, year around. BIA has 
never really patrolled them, so the tribes, using funds from 
the Bonneville Power Administration, has set up our own 
enforcement arm that is effective and cost-efficient.
    It principally protects the treaty fishing and related 
activities, but also generally patrols the sites. Now, as the 
new sites are being turned over, BPA funding is being cut, the 
$250,000 is very much needed to insure law and order on these 
sites.
    Second. The Interior Department is responsible for 
protecting tribal land and water interests in more than 50 
hydroelectric projects coming up for FERC relicensing over the 
next several years.
    The license for the Pelton hydro project, which is partly 
on our land, expires in 2001. Because Pelton is one of our 
single most valuable resources, and critical to our 
Governmental revenue, we are developing an application to 
compete for the license.
    The total cost will exceed $4 million. While we can cover 
about two-thirds of that cost, BIA assistance is needed to 
develop a credible application, and for ourselves and others, 
these are important and expensive undertakings.
    To provide for their adequate funding, we request the 
committee to support BIA's request of a $1 million increase for 
FERC-related activities and ask that it be increased by at 
least $2 million more.
    And third, we urge you to reject any rider amendments that 
would make substantial changes to Federal Indian law or policy, 
because our Indian tribes, we are Governments as such, and 
particularly as small Governments, with a uniquelyclose 
relationship with the United States, we believe that the United States 
should provide full and fair deliberations to changes in laws and 
policies affecting us.
    And finally, we wish to thank the committee for restricting 
the special trustee from any efforts to develop a separate bank 
or similar entity. In our opinion, the special trustee has 
never engaged in meaningful consultation, and his plans have 
caused us great concern. So we appreciate your intervention.
    While the special trustee appears to have given up on 
banking plans, we ask you to check, and if needed again, impose 
a similar restriction for 1999.
    Mr. Regula. Okay. Thank you very much.
    Mr. Moses. Thank you.
    [The statement of Joe Moses follows:]

[Pages 59 - 62--The official Committee record contains additional material here.]


    Mr. Regula. Confederated Tribes of the Grand Ronde 
Community of Oregon. Jim, any time you want to join, why----
    Mr. Moran. Thanks, Mr. Chairman. Has the Dental Association 
testified?
    Mr. Regula. Yes. They have been here.
    Mr. Moran. Oh, they were here. Okay; all right; fine.
    Mr. Regula. We are on such a tight time schedule.
    Mr. Moran. Sure. I understand.
    Mr. Regula. Good morning.
                              ----------                              

                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

KATHRYN HARRISON, CHAIRPERSON, THE CONFEDERATED TRIBES OF THE GRAND 
    RONDE COMMUNITY OF OREGON

    Ms. Harrison. Good morning.
    Mr. Chairman, and Members of the committee, my name is 
Kathryn Harrison. I am the chairperson of the Confederated 
Tribes of the Grand Ronde Community of Oregon. I am here to 
testify on the budgets of the Bureau of Indian Affairs and the 
Indian Health Service for fiscal year 1999.
    Today my testimony will focus on these four issues, some of 
which you have heard already this morning. Adding funds to the 
Tribal Priority Allocations to meet tribal needs for community 
services, education, natural resources, and tribal court 
services.
    Two, adding funds to the IHS budgets for mandatory 
inflation and population growth increases, and for Contract 
Health Services.
    Three, providing BIA and IHS increases for contract support 
costs.
    Four, removing restrictions on how self-determination funds 
can be invested.
    In submitting the testimony, I would just like to add that 
the Confederated Tribes of Grand Ronde have been a terminated 
tribe. We were terminated for 29 years. So our request is very 
urgent. We are trying to rebuild our community, our programs, 
and to regain the health of our people.
    So with some of the program cuts that have come through the 
years, it has been, a really hard struggle, and I want you to 
know that I appreciate coming here before you.
    I come not only as a chairperson, but as a mother, a 
sister, a grandmother, a great-grandmother, and an elder for my 
tribe. So I just wanted to add that emphasis, that these are 
very important to me. I have seen many changes through the 
years, and I would like to see some help for my people.
    Mr. Regula. Okay. Thank you very much.
    [The statement of Kathryn Harrison follows:]

[Pages 64 - 67--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        TRIBAL SCHOOL FACILITIES

                                WITNESS

TOM MILLER, SCHOOL ADMINISTRATOR, HANNAHVILLE INDIAN SCHOOL

    Mr. Regula. Minneapolis Area Community Tribal Schools.
    Mr. Miller. Mr. Chairman, Congressman, my name is Tom 
Miller, and I am the school administrator at the Hannahville 
Indian School in Michigan. It is located on the Hannahville 
Potawatomi Reservation. I am here representing the 12 areas 
schools in Minneapolis of which there are 2,500 students. Our 
concern is that in the recent years, we have sought technical 
assistance and services from the Bureau of Indian----
    Mr. Regula. This is a system that serves several tribes?
    Mr. Miller. Yes; it does.
    Mr. Regula. And it is operated by the tribes. It is a 
public school?
    Mr. Miller. It is a system operated with individual 
schools, with an organization which is the Minneapolis Area 
Community Tribal Schools, made up under the direction of the 
school administrators and/or board members, our members of that 
organization.
    Mr. Regula. From the tribe?
    Mr. Miller. Yes; from the tribe. And the technical 
assistance and services that we have been lacking from the 
Bureau of Indian Affairs is one of the great concerns in our 
area.
    Mr. Regula. Do you get any help from the public schools?
    Mr. Miller. No, we do not. None that I am aware of.
    Mr. Regula. Can you use the public schools special 
programs, say, for handicapped children, or anything like that?
    Mr. Miller. I believe in some of the organizations, or some 
of the schools, there are some cooperative agreements with the 
individual States, and we are talking the four State area of 
Iowa, Wisconsin, Michigan and Minnesota.
    Mr. Regula. This is a residential school, then?
    Mr. Miller. Yes; it is. Day school.
    Mr. Regula. It is in Minneapolis, or nearby?
    Mr. Miller. No. What we are talking about is the--there are 
12 individual schools located in the four State area.
    Mr. Regula. I see.
    Mr. Miller. Those schools have formed an organization.
    Mr. Regula. I get it. You are speaking on behalf of all of 
them.
    Mr. Miller. Yes. I am.
    Mr. Regula. Got it.
    Mr. Miller. And what we are trying to do here is to start a 
demonstration project. We look at the area and we see that we 
have approximately $50 million worth of buildings, educational 
facilities, and that runs the gamut from the very good to the 
very poor.
    Mr. Regula. Okay.
    Mr. Miller. The kids are educated in those, regardless, and 
what we are trying to do here is we understand that the United 
States Government has a cycle of replacement and repair. We are 
attempting to develop services and technical assistance which 
will allow us to extend the life of the buildings and maintain 
what is there, now, at the present level.
    And what we have come up with is a method that the 
Minneapolis Area Community Travel Schools--MACTS I can call it 
from here on out--has developed, and we are looking at a 
demonstration project which would be 1 to 3 years, depending on 
the speed with which the final product is produced, that would 
provide a adequate and accurate facility inventory update. That 
is one of the key factors when you have a school because that 
generates operation and maintenance monies within the Bureau 
system.
    That has to be accurate or you are losing money. The second 
thing is what I call the PPMS. That is a Planned Preventive 
Maintenance Schedule. As school administrators--and I have been 
at Hannahville for 18 years, so I have been through a lot of 
this--is that we see that we put up brand new structures, and 
then, for reasons of lack of training, lack of services, lack 
of money, the facilities are not maintained at the level they 
should be, which shortens the life of the building and makes 
that replacement cycle become more costly to everyone involved.
    So we are looking at developing and are in the process of 
developing site specific PPMS schedules.
    Mr. Regula. Preventative maintenance.
    Mr. Miller. Yes. It is one of the plus things I picked up 
when I was in the military.
    Mr. Regula. Yes; right.
    Mr. Miller. Anyway, what we are looking at is if we could 
ask for $250,000 for a year. We may be back in year--depending 
on the amount of the project that we can get done, when you are 
talking a four State area, and we are working with 12 schools, 
and we are trying to be site specific, there is a lot of 
factors that come in, that we cannot control.
    But we feel that this could be a very good demonstration 
project for the 185 schools that are in the BIA-funded system, 
and our request is that if we fund this project, we think it 
will be a positive and timely answer to maintaining buildings, 
which makes everything cost-effective, I believe.
    Mr. Regula. Okay. Thank you very much.
    Mr. Miller. Thank you very much for your time.
    [The statement of Tom Miller follows:]

[Pages 70 - 71--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

JAIME PINKHAM, PRESIDENT, THE INTERTRIBAL TIMBER COUNCIL

    Mr. Regula. Intertribal Timber Council.
    Mr. Pinkham. Thank you, Mr. Chairman, and thank you, again, 
for this opportunity to testify before the subcommittee. My 
name is Jaime Pinkham. I am president of the Intertribal Timber 
Council which is a consortium of over 70 timber-owning tribes 
in Alaska, and native corporations.
    Mr. Chairman, the volume of tribal timber lands that have 
current management plans have been on a decline over the past 
few years. Among the larger Category I type forests on Indian 
lands, one-third of them no longer have a current NIPA 
assessment. On a smaller Category II forest, which also 
provides essential commercial and subsistence needs for Indian 
people, we see about two-thirds of those without current 
assessments.
    Our forests are increasingly struggling to stay within the 
compliance requirements of the different management and 
environmental laws that are out there, because the forestry 
planning funds have remained unchanged since 1991, while we see 
the planning requirements upon our forest lands becoming more 
complex and more costly.
    Also, we have noticed a decline in the number of staff in 
both the area office and the central office forestry program.
    Mr. Regula. You are talking about Forest Service staff?
    Mr. Pinkham. Bureau of Indian Affairs forestry.
    Mr. Regula. Bureau of Indian Affairs. Do you doanything 
with the Forest Service or is it all done through the BIA?
    Mr. Pinkham. There are some cooperative agreements with the 
Forest Service on things like pest management and fire control, 
but mostly on-the-ground funding is accomplished through 
funding from the BIA.
    Mr. Regula. So you sell standing timber?
    Mr. Pinkham. Yes, we do.
    Mr. Regula. Do you do any processing in the tribal 
programs, or are the purchasers non-Indians?
    Mr. Pinkham. It varies from tribe to tribe, Mr. Chairman. 
Some are industrialized, they do their own processing; some 
sell to local mills. It varies.
    Mr. Regula. Do you have sustained yield in your forests?
    Mr. Pinkham. As a course of Federal law, we must manage 
under sustained yield, but by the principles of Indian 
management we usually exceed the requirements of sustained 
yield, and set aside some of our forest lands for the future, 
without them being touched at all.
    Mr. Regula. Okay.
    Mr. Pinkham. And we find, Mr. Chairman, that the continuing 
decline of funding and professional staff has made it even more 
difficult for the smaller tribes, who then lack any capability 
at all to prepare the management plans or to comply with the 
various environmental laws.
    So what we would like to request is $300,000 to increase 
the Area Office staffs, and $150,000 to help with the Central 
Office foresters, and we recognize this falls short of what is 
needed, but we hope that it will help slow the decline.
    Mr. Regula. Do you get any help from the Forest Service? 
What I am talking about are scientists, or disease prevention 
programs.
    Mr. Pinkham. On the disease preventions, yes, pest 
management funds are funnelled through the Forest Service, then 
on to the tribes.
    We would also like to request that forest management 
inventory and planning be increased by about $1 million, again, 
to cover the increasingly complex nature of developing new 
management plans with the environmental burdens that are being 
placed upon our lands.
    For Woodlands Management, we would like an additional 
$500,000, really would double its current budget, but we see 
that woodlands are really vital, particularly for subsistence 
to many tribes. But the current funding under the Woodlands 
Program only provides for three personnel to cover 9.5 million 
acres. So that really falls woefully short of what is needed to 
protect and manage woodlands.
    We would also like to see--the latest in resource 
management is integrated resource management planning, and that 
has become a basic planning tool for a lot of the private and 
Federal land managers.
    We would like to see the tribes have access to such 
planning needs as that. Especially when we see our tribe live 
so intimately connected to the land, it is important that we do 
holistic management planning. So we are requesting $3 million 
to help the Bureau of Indian Affairs initiate integrated 
resource management planning on our reservations.
    And finally, Mr. Chairman, we have noticed an increase in 
forest land base for the Indian tribes through land 
acquisition, congressional designations, and sometimes BIA land 
reclassification. Unfortunately, the budgets, as the land base 
increases the budget has not been increasing, so we are also 
requesting that under BIA/TPA, that we see an increase of about 
$2 million, which is equivalent to 7.5 percent of the budget, 
you know, and tied to 7.5 percent of the land base, be 
distributed accordingly, to help us respond to the increase in 
management responsibility upon those acres.
    Mr. Chairman, that concludes my remarks and I would be 
happy to answer any further questions.
    Mr. Regula. Okay. Your members market quite a bit of 
timber, do they?
    Mr. Pinkham. Quite a few of our members do marketing, not 
just nationally, but some have been trying to get into the 
international market as well.
    Mr. Regula. Mostly hardwoods?
    Mr. Pinkham. It varies across the country. Some are 
hardwoods; some softwoods out in the Great Lakes area.
    Mr. Regula. Okay. Thank you.
    Mr. Pinkham. Thank you.
    [The statement of Jaime Pinkham follows:]

[Pages 74 - 78--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

ANTONE C. MINTHORN, CHAIRMAN, CONFEDERATED TRIBES OF THE UMATILLA 
    INDIAN RESERVATION AND ALFONSE HALFMOON, VICE CHAIRMAN, BOARD OF 
    TRUSTEES

    Mr. Regula. Confederated Tribes of the Umatilla Indian 
Reservation.
    Mr. Minthorn. Good morning, Mr. Chairman.
    I am Antone Minthorn, chairman of the board of trustees of 
The Confederated Tribes of Umatilla Indian Reservation in 
Northeast Oregon.
    With me is Mr. Alfonse Halfmoon who is the vice chairman of 
the board of trustees. Mr. Halfmoon is also the chair of the 
Columbia River Intertribal Fish Commissioner, and Mr. Halfmoon 
is also a World War II veteran.
    Mr. Chairman, we thank you for the opportunity to comment 
on the fiscal year 1999 President's budget.
    Before I get into some specific budget issues, I will 
comment on an important issue that affects the budget debate on 
Indian programs. That is Indian gaming.
    One of the purposes of the Indian Gaming Regulatory Act of 
1988 was economic development. In this respect our tribe has a 
modest and successful gaming operation.
    The indicators of success include unemployment that has 
been reduced from 37 percent to less than 20 percent.
    Mr. Regula. Now you have several tribes. It says 
Confederated Tribes. Is that right?
    Mr. Minthorn. Three tribes, sir.
    Mr. Regula. Do they each have gaming?
    Mr. Minthorn. No. It is a confederation, and we haveone 
gaming operation on the reservation.
    Out of 370 people employed, 60 percent are Indian, 40 
percent are non-Indian. Gaming revenues have also made it 
possible to expand our economic base beyond the gaming 
facility. That is a hotel, golf course, RV park, and cultural 
institute. This expansion employs another 100 people.
    The Indian Gaming and Regulatory Act of 1988 has succeeded, 
as Congress envisioned, on our reservation. We are building an 
economy to help our people. I think it is important for 
Congress to understand some progress has been made through 
Indian country.
    Mr. Chairman, the Umatilla Tribe supports the President's 
budget, with some important comments. These include the fact 
tribal priority allocations remain below the 1995 budget 
levels. Also that inflation continues to erode purchasing power 
of programs.
    There needs to be consideration of tribal input in regard 
to joint law enforcement initiatives between the Departments of 
Interior and Justice.
    We support increased funding for water rights 
quantification and negotiation to avoid costly litigation.
    We support the inclusion of 250,000 in the budget for the 
In-Lieu fishing sites on the Columbia River. These funds need 
to be appropriated and not eliminated as they were in the last 
year's budget to insure that these sites can be maintained for 
use by our tribal fishermen. We support the establishment of a 
pilot program on the Umatilla reservation to address 
fractionated land ownership problems caused by the Allotment 
Act.
    Regarding the IHS budget, we have these comments. We 
support a needed increase in the catastrophic health care fund. 
We support an increase in contract support funds.
    And our final comments. Do not constrain self-determination 
funds investments such as was done in 1998. Do not use the 
appropriation bill as a vehicle to try and make major changes 
in Federal Indian policy by the addition of Indian riders.
    Mr. Chairman, that concludes our comments. Thank you for 
your time.
    Mr. Regula. Thank you.
    [The statement of Antone Minthorn follows:]

[Pages 81 - 84--The official Committee record contains additional material here.]


    Mr. Regula. Our next witness is the Blackfeet Tribal 
Business Council.
    Mr. Skeen [presiding]. We have a little seat switching 
going on here, and we will get down to business real quick.

                              ----------                              

                                           Thursday, March 5, 1998.

              TRIBAL NATURAL RESOURCE FUNDING INITIATIVES

                                WITNESS

IRA NEWBREAST, DIRECTOR, BLACKFEET FISH AND WILDLIFE DEPARTMENT, 
    BLACKFEET TRIBE, BLACKFEET INDIAN RESERVATION

    Mr. Skeen. Are you Ira?
    Mr. Newbreast. Yes, sir.
    Mr. Skeen. Welcome.
    Mr. Newbreast. Thank you, sir. I am glad to be here.
    Mr. Skeen. Begin your testimony.
    Mr. Newbreast. Your Honor, what I have come here today is 
for the Blackfeet Tribe's initiative to try and acquire funding 
allocations for the establishment of a hatchery.
    The Blackfeet reservation is 1.5 million acres, and it has 
15,000 members on the reservation. We are next to Glacier 
National Park and have a system of glaciated pothole lakes 
which totals 20,000 acres. Our recreational fisheries, of which 
we have come to be dependent upon, quite extensively, are our 
economic base for many of our natural resource initiatives, and 
those go into other areas of law enforcement, conservation 
management.
    Our interest is to try and secure our own stocking rates 
for our reservation, and by the establishing of a new hatchery. 
We have worked cooperatively with the U.S. Fish and Wildlife 
Service and the Bureau of Reclamation in trying to get the 
parameters set up to establish the fish hatchery and assure 
items such as biological control, baseline information, et 
cetera.
    Our hatchery facility would be built in a three phase 
program in which we would do the planning and design forwhich 
most of the parameters have been established and identified.
    The second phase would be the construction. The third phase 
would be the OMB type operational.
    The Blackfeet Tribe is a Great Plains regional tribe, and 
we are largely identified with the buffalo, but as it has 
turned out throughout--well, with the onset of Western society, 
that the tribe has to--and for subsistence issues--orient 
themselves toward fisheries and a lot more aggressive use of 
the fisheries, and as such they have entered into our society 
as really a culturally important entity.
    And the fisheries, as we have experienced them--as the U.S. 
Fish and Wildlife Service has experienced their various budget 
cuts or concerns, we have experienced a decrease in our 
stocking rates as the trust responsibility that U.S. Fish and 
Wildlife provides for us.
    And what we would like to see is a regain of our original 
stocking rates, and secure those and be run by the tribe 
through a self-determination effort.
    Mr. Skeen. What type fish are we talking about?
    Mr. Newbreast. We are talking about rainbow trout.
    Mr. Skeen. Rainbow trout.
    Mr. Newbreast. And this hatchery would be used exclusively 
to sustain our closed pothole lake systems. We have----
    Mr. Skeen. That is your biggest resource, then?
    Mr. Newbreast. That is a very extensive resource. We also 
have a number of--because we are located near Glacier Park, and 
Canada, we have every large game animal there is, with the 
exception of caribou and polar bears. Outside of that--and 
brown bears--we have every species there is. We have a number 
of threatened, endangered species for which we are also asking 
an addendum, funding for, that we address.
    We have one of the longest standing grizzly bear programs 
in the U.S., Lower 48, that has been successful.
    We have the only established computer model of the 
cumulative effects for NEPA processes.
    We are also looking for an addendum for our existing fish 
and wildlife contract. We have 15,000 members. We have four 
game wardens in which to deal with it. We are looking for an 
addendum to increase that.
    We appreciate the funding. In the past it has allowed us to 
move in areas where the tribe has gained great gains in their 
resources, particularly in wildlife populations.
    We experienced wildlife populations that were minimal 
numbers before the funding. As we have established our code and 
our game warden conservation management, we have populations 
now in the thousands. It is very successful and it needs to 
grow, and that also includes our initiative here to be funded 
for.
    Mr. Skeen. You have buffalo?
    Mr. Newbreast. Yes, sir. We do. We have 120 head on our 
reservation.
    Mr. Skeen. If you run out, Ted Turner has plenty in New 
Mexico.
    Mr. Newbreast. We knock on his door, frequently. 
[Laughter.]
    Mr. Skeen. Thank you very much for being here.
    Mr. Newbreast. Thank you, Your Honor.
    Mr. Skeen. Did that conclude your statement?
    Mr. Newbreast. Yes, sir.
    Mr. Skeen. We appreciate that and I appreciate what you are 
trying to do. Thank you for your testimony.
    Mr. Newbreast. Thank you.
    [The statement of Ira Newbreast follows:]

[Pages 87 - 90--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                NATIVE AMERICAN HEALTH/EDUCATION ISSUES

                                WITNESS

MARIA CACKUSE, COUNCIL MEMBER, THE TULALIP TRIBES AND KAREN FRYBERG, 
    CLINIC MANAGER; ON BEHALF OF STANLEY G. JONES, CHAIRMAN

    Mr. Skeen. Tulalip Tribes, Stanley G. Jones.
    Ms. Cackuse. Thank you, Mr. Chairman.
    Mr. Skeen. Identify yourselves for the record.
    Ms. Cackuse. On behalf of Stanley G. Jones, chairman, my 
name is Maria Cackuse, and I am council member for the Tulalip 
Tribes. To my left is Karen Fryberg. She is the clinic manager 
for our tribe.
    I would like to thank you for this opportunity to provide 
testimony supporting the mandatory increases in the 
appropriation cycle for fiscal year 1999. The Tulalip Tribes is 
a 638 contract under PL93-638, serving 3,459 members in 
Snahomish County in Washington State, and one of our first 
issues, and a very important issue, is the new facilities 
construction.
    Over the past 15 years, IHS has spent five times the amount 
on hospitals as it has on outpatient clinics. This does not 
elevate our health status. We can only benefit if expanded 
outpatient facilities are constructed and we have been 
operating out of a 20 year old modular unit.
    So we would kindly ask your assistance in that area.
    And number two is on population growth and Karen is going 
to speak on that issue.
    Mr. Skeen. Thank you. Karen.
    Ms. Fryberg. Hi. I am Karen Fryberg and I have worked 17 
years in our health programs at Tulalip, and when we originally 
contracted with IHS for our contract health services and which 
we rely solely on to provide health care for our members, we 
contracted for 1,900 members, and for the years 1988, 1989, and 
1990, we did not receive those monies until 1993, and we have 
received no monies for population growth.
    And we are currently serving 4,553 people in Snahomish 
County, all the Indians that live in and around Snahomish 
County, and we have not received any extra funds to provide 
that care since we negotiated with IHS at that time.
    And so it is really hard to provide care, adequate care for 
our members at that level, and so, you know, we feel like, you 
know, the result of that is poor health status for our members, 
when we are not able to provide the care that they need, they 
crucially need.
    Mr. Skeen. So you have outgrown it once again.
    Ms. Fryberg. Yes.
    Mr. Skeen. I want to thank you for being here. Mr. Stanley 
must understand if you want a job done right, well, get the 
ladies to do it.
    Ms. Cackuse. That is right. [Laughter.]
    Ms. Cackuse. We had one more issue and number three is on 
education.
    Mr. Skeen. I just wanted to comment, too, that men always 
get the last word, and that is yes, ma'am. [Laughter.]
    Ms. Cackuse. Oh, okay.
    Mr. Chairman, we would like the option of creating our own 
school district. In 1959, we sold land for one dollar to the 
Marysville School District to build an elementary school on our 
reservation so that we could create good education for our 
children and for the past 40 years, the test scores for this 
school has been the lowest in the school district. We believe 
that our tribe, in creating our own school district, we could 
receive more funds to reduce the classroom sizes and add 
special remedial programs for our children.
    Also, they could be more successful as they grow older in 
providing good education in the early, primary years, so that 
they can read before they get into the secondary level.
    We would just like your assistance and to be able to create 
our own school district, and we thank you for your time and 
consideration for these important issues for our tribe.
    Mr. Skeen. How many children do you have in your school 
system?
    Ms. Cackuse. We have 800 tribal members.
    Mr. Skeen. 800 tribal members?
    Ms. Cackuse. Yes.
    Mr. Skeen. Do you take any non-tribal members in the 
school, or----
    Ms. Cackuse. Yes.
    Mr. Skeen. Those who live in the proximity----
    Ms. Cackuse. It is a public school.
    Mr. Skeen. I see.
    Ms. Cackuse. Yes.
    Mr. Skeen. And you have a real problem.
    Ms. Cackuse. Yes. We do.
    Mr. Skeen. We thank you for your testimony.
    Ms. Cackuse. Thank you.
    [The statement of Stanley G. Jones, Sr. follows:]

[Pages 93 - 96--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                            TRIBAL PROGRAMS

                                WITNESS

BOBBY WHITEFEATHER, CHAIRMAN, RED LAKE NATION OF CHIPPEWA INDIANS AND 
    LAWRENCE DUDLEY, COUNCILMAN

    Mr. Skeen. The Red Lake Nation. Bobby Whitefeather. 
Welcome.
    [Mr. Whitefeather speaks in Chippewa language.]
    Mr. Skeen. I can answer you in Zuni or Navajo.
    Welcome.
    Mr. Whitefeather. Mr. Chairman, good morning.
    My name is Bobby Whitefeather. I am the tribal chairman of 
the Red Lake Band of Chippewa Indians, and to my left is 
councilman Lawrence Dudley.
    Mr. Skeen. Welcome to both of you.
    Mr. Whitefeather. And on behalf of the 9,300 plus members 
of the Red Lake Nation, we would like to acknowledge and 
express our appreciation for the opportunity to testify before 
the committee this morning.
    Just a little bit of background on the Red Lake Nation. We 
are a very large tribe with a large population base as well as 
a large land and water base, and like a lot of other rural 
areas, we are being more and more affected by changes in 
society.
    Situations such as an increase in crime, violence, drugs. 
We still have high rates of poverty, high incidences of 
alcoholism, high unemployment, poor health status, inadequate 
housing, and also inadequate protection for our natural 
resources.
    Now, the Red Lake Tribe is very progressive in meeting 
these challenges, to try to be a very progressive tribe in 
self-governance. In fact we started self-governance in 1997.
    Some of the results of that is there is extensive community 
cohesiveness. However, to accomplish all that we need to 
accomplish more funding needs to be addressed, not only to 
regulate, but also to all tribes in law enforcement and tribal 
courts, and the arena of social services.
    Since self-governance, we have made some research and 
examined what our needs are in Red Lake, and our immediate need 
right now is--unmet need is about $2.6 million to adequately 
fund the programs.
    And while the Red Lake Nation is very appreciative of the 
increase that was put into the budget last year, however, 
whenever the residual amount of $23.6 million was distributed, 
Red Lake's share was less than 1 percent. We are grateful for 
that; however, I think it demonstrates that there is still a 
lot of need out there.
    Our immediate desperate need is for a law enforcement and 
detention facility.
    Mr. Skeen. That is your primary problem?
    Mr. Whitefeather. That is a primary problem at this point; 
our immediate problem. The current facility is a converted 
forestry garage, and so what happened was the Bureau remodeled 
the facility and made it into a jail.
    Now the facility itself is not conducive to monitoring of 
the prisoners, certain prisoners that are prone to suicide and 
violence, and so over the years we have had numerous suicide 
attempts.
    And within the last 18 months two young men took their 
lives by their own hand in the facility.
    Mr. Skeen. In the facility?
    Mr. Whitefeather. Yes.
    Mr. Skeen. By hanging, or something, or----
    Mr. Whitefeather. Yes; by hanging. But as a positive to 
this, Mr. Chairman, the Red Lake Nation has prepared a design 
of a facility that is projected to be in the area of $12 
million, and I think what--the committee that we have 
established on the reservation, through all agencies, is that 
we want to commend and support the joint effort between 
Department of the Interior and Department of Justice, of trying 
to get more monies out to the Indian tribes, and we certainly 
support that joint effort.
    Other desperate needs, Mr. Chairman, are the uncertainty of 
what is going to happen when welfare reform truly affects our 
Nation. At this point in time we have about one-third of our 
population on AFDC, and another 500 unemployed single adults.
    Mr. Skeen. What is your total population?
    Mr. Whitefeather. The total population on the reservation 
is about 6,500.
    Mr. Skeen. Six thousand.
    Mr. Whitefeather. Yes. And to complicate the matter is that 
we do not have economic development to any great extent. We do 
have some tribal industries; however, being where we are 
located, we are very marginal.
    One of the key areas where we are going to be greatly 
affected is our commercial fishery shut down last year. I would 
like to remind the committee that I did speak with the Bureau 
of Indian Affairs regarding this because it is a federally 
regulated fishery, and relayed our concern that the 
responsibility rested with the Bureau of Indian Affairs of the 
regulation of the fishing industry.
    Mr. Skeen. Well, who is responsible for shutting it down?
    Mr. Whitefeather. The association.
    Mr. Skeen. The association?
    Mr. Whitefeather. The association is a separate body from 
the tribal council.
    Mr. Skeen. From the tribal council.
    Mr. Whitefeather. Yes.
    Mr. Skeen. You still have Federal participation in that 
facility?
    Mr. Whitefeather. Not to a great degree.
    Mr. Skeen. Not now; it is gone.
    Mr. Whitefeather. No; no.
    Mr. Skeen. By the way, I would like to point out to the 
staff here, there is money that is requested now at the 
Department of Justice for building jails.
    Mr. Whitefeather. Yes.
    Mr. Skeen. And including a set-aside for a jail.
    Mr. Whitefeather. Yes, we are aware of that.
    Mr. Skeen. Have you made an application?
    Mr. Whitefeather. We have not made a formal application. We 
are still in the design process.
    Mr. Skeen. I see. At any rate, you have started the 
process.
    Mr. Whitefeather. Yes; yes. I think we are in Phase II.
    Mr. Skeen. Thank you.
    Mr. Whitefeather. Mr. Chairman, another area is health 
care. The Red Lake Nation operates their own hospital, and we 
are examining the possibility of assuming responsibility under 
either 638 or self-governance. However, even if we do attempt 
to contract for the health care, a recent study that we 
performed indicates that only 49 percent of the health needs 
are being addressed at this point.
    And we support any increase that the committee would 
recommend, or the President. I think our effort, jointly, as a 
community, in 1995, we declared war on diabetes by instituting 
what we call a MMAD program--a million miles against diabetes--
where we are going to walk, as a Nation----
    Mr. Skeen. A persistent problem in Indian country.
    Mr. Whitefeather. Yes; yes; it is.
    Mr. Skeen. Diabetes?
    Mr. Whitefeather. Yes.
    So it is going to take Larry and me at least 20 years 
before we get to a million miles for our entire tribe.
    Mr. Skeen. Well, he looks like he is running on a pretty 
good speedometer. [Laughter.]
    Mr. Whitefeather. We are about 60,000 miles at this point. 
So we have got a good start on it.
    Another area is of course lack of housing and we are not 
sure what welfare reform is going to affect on housing because 
there seems to be some tendency that there are thoughts out 
there, that people that--our members who live in urban areas 
will come to come home.
    And the last thing, Mr. Chairman, I think it has been 
talked about, that the natural resources of Indian Nations has 
to be protected, and that the same is true in Red Lake.
    We have a large land area, we have a large water area, and 
I believe that the Department has the trust responsibility to 
safeguard the natural resources of the tribe, and our situation 
is similar to the gentleman that testified from Blackfeet, is 
that we do not have adequate funding to adequately manage our 
resources.
    Mr. Chairman, I want to say ``meegwich'' to you, and there 
is detailed written testimony that we are providing, and as 
tradition in our homeland, we would like to invite you and any 
Members of the committee that would come to the home of the Red 
Lake Nation, whenever your schedule permits. Meegwich.
    Mr. Skeen. Thank you. We appreciate it.
    Do you have any recreational income from tourism, or 
anything of that kind? You have that lake there. Is it a resort 
type operation or----
    Mr. Whitefeather. That is an interesting question, Mr. 
Chairman. The Red Lake Nation is what is termed a closed 
reservation, where all our land is held in common.
    We have had some internal discussions amongst the council 
members and some elders and some youth, and at this point there 
is reluctance to open the reservation for resorts and that 
type----
    Mr. Skeen. You do not have any gambling?
    Mr. Whitefeather. We are a gaming tribe. Yes, we do have 
gaming, but given that we are in northern Minnesota where there 
are not many people, our gaming essentially is a jobs program.
    Mr. Skeen. I see. I thought maybe with that cold weather up 
there, that gambling would be pretty good because you stay 
inside and you just keep pulling on those handles.
    Mr. Whitefeather. Yes. Well, we thought so, too, but snow--
not this year.
    Mr. Skeen. Not this year.
    Mr. Whitefeather. Snowmobilers were very disappointed this 
year.
    Mr. Skeen. Well, thank you very much for your testimony.
    Mr. Whitefeather. Thank you, Mr. Chairman.
    Mr. Skeen. We appreciate the information and we will do the 
best we can.
    Mr. Whitefeather. Thank you.
    Mr. Skeen. We either offer you help, or direct you to where 
you can get help. Thank you.
    Mr. Whitefeather. I have got to do my commercial here. Here 
is my----
    Mr. Skeen. Oh, you have got your commercial. We appreciate 
that. Does that give us a free evening at the gaming tables? 
[Laughter.]
    Thank you.
    [The statement of Bobby Whitefeather follows:]

[Pages 101 - 105--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

TOM MAULSON, CHAIRMAN, LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA 
    INDIANS AND
LARRY J. WAWRONOWICZ, NATURAL RESOURCES DIRECTOR, LAC DU FLAMBEAU BAND 
    OF LAKE SUPERIOR CHIPPEWA INDIANS

    Mr. Skeen. Lac du Flambeau. Good to see you again.
    Mr. Maulson. Mr. Chairman, I would just like to say that my 
colleague, one of my directors of the natural resource program, 
I hope to give him a little bit of time.
    But for the record, my name is Tom Maulson. I am the 
president of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians in northern Wisconsin. I also carry the cap of Great 
Lakes Intertribal Council chairperson, and I am also the 
chairman of the Great Lakes Fish and Wildlife Commission, which 
you will hear from one of our deputies later on.
    But I think it is really important. You all can read, I 
know that, because we did get a little bit of help in the last 
year and we appreciate that, but like I said, it is just a 
little bit. And I think we need to work harder to really fit, 
you know, the pot that is needed for Indian country out there, 
and that is to make sure that the fiduciary responsibility 
obligations to Indian people are going to be met someplace down 
the road.
    Hopefully this little bit, that increase that we get from 
the President, and the little increase that you all take time 
to study on our needs back home, we appreciate that. And you 
heard my colleague Bobby say ``megwich,'' and that means 
``thank you,'' thank you in our language. But we too have a lot 
of major problems in the health area. I dohave, and hopefully 
as the Great Lakes Intertribal chairman, that I could submit this after 
we leave as part of the testimony----
    Mr. Skeen. Certainly.
    Mr. Maulson [continuing]. For the tribes in Wisconsin in 
reference to health care. We definitely are in dire need in 
those particular areas. That $10 million cut for hospitals and 
clinics has a major impact, not only on my tribe but a lot of 
tribes in Wisconsin.
    So we are looking forward hopefully that you will take a 
look at all the other needs that you heard this morning in 
reference to the things that Indian country needs across the 
country. I do have one of the health directors, sitting in the 
audience hoping that I am going to say the right thing here 
today to, click and say, well, let's get some more like Band-
Aids or whatever.
    Mr. Skeen. Well, it sounds like you are picking on the 
right thing.
    Mr. Maulson. Right. And education is really important to 
our people as a priority, as all Indian Nations, to make sure 
that not only are we educated but that you people start to get 
more educated. And I think my colleague said, once again, come 
to our reserves and really see the hurts and needs of our 
people back home. And I think we could get probably a better 
snapshot than 5 minutes or 5 seconds of what we are trying to 
do for you.
    Law enforcement is another issue back home I think is 
really important to our people. We are trying to make the non-
Indian people or the white people in America see that we are 
sovereign governments, we are nations, and that we have got 
people like Gordon up there in the State of Washington wanting 
to take away sovereignty.
    Mr. Skeen. You don't mean that Senators do things like 
that?
    Mr. Maulson. I really mean that. I wish he would come to my 
reservation.
    Mr. Skeen. I am blushing.
    Mr. Maulson. He would definitely see what is happening, you 
know, our needs.
    Mr. Skeen. Yes, we understand it.
    Mr. Maulson. I know that, and I hope that we can go forth 
and make a bigger pot for us, because I think it is just--
everybody is just sort of playing catch-up here today because 
our needs are great back home. This is something that my 
elders, my young people, have identified.
    I am going to give a little time, as you guys say, to my 
worker here, and he is a non-Indian person and been with our 
program for almost 20-plus years. So this is the dedication 
that we get from your people.
    So I am hoping that we make some impact here today. Like 
other people sitting here, we appreciate your time. And Larry, 
if you want to just deal with the natural resource programs?
    Mr. Wawronowicz. For the record, my name is Larry 
Wawronowicz. I am the Deputy Administrator for Natural 
Resources.
    Mr. Skeen. Right. Glad to have you here.
    Mr. Wawronowicz. You have to understand, Mr. Chairman, that 
natural resources are very vital to the Lac du Flambeau Band of 
Lake Superior Chippewa Indians. Mother Earth gave us the life-
sustaining ingredients to borrow so we can live. Our role is to 
keep them clean and viable.
    We share the responsibility as, you know, the tribal 
governments and the Federal Government, to protecting and 
enhancing those resources for present and future generations, 
and as the Lac du Flambeau Band calls it, the Seventh 
Generation. We are always looking seven generations ahead.
    We have to be proactive in our management and it is a big 
responsibility that you and I have as leaders of natural 
resources, to make sure that the land and water is protected. 
The land, water and the air, and all the animals and plants 
that live along with us, are the major, major part of us. You 
know, we are what we eat and drink.
    In order to protect, conserve and enhance those resources 
for this generation and for present generation or for future 
generations, we need some dollars to do that. We have some 
specific requests within the testimony dealing with wildlife 
and parks programs for the Lac du Flambeau.
    The Circle of Flight program, which is a sort of a regional 
Great Lakes initiative in terms of enhancing wetlands and the 
waterfowl populations up and down the Mississippi Flyway, I 
believe there is like 61 million acres that all the tribes and 
organizations have that could utilize the dollars to protect 
those resources. You know, the marshlands are very important in 
terms of clean water, and it also is very important in terms of 
the subsistence life style that the tribe has, and of course it 
gives hunting opportunity for a lot of people up and down the 
Mississippi Flyway.
    Our forestry program, you have heard testimony from the 
Timber Council. We have 55,000 acres of forested land that 
gives not only logging opportunities for our members but it 
also gives----
    Mr. Skeen. Do you have a logging plant there, in operation 
on the reservation?
    Mr. Maulson. Not a large one. I think we have got two 
tribal members that do logging within our reservation.
    Mr. Skeen. So it is relatively limited?
    Mr. Maulson. Right. Very limited.
    Mr. Wawronowicz. We have a forestry program consisting of 
one forester and three technicians, but they haven't received 
any increase in funding since 1992, and we are requesting from 
the committee to look favorably upon earmarking $60,000 for our 
forestry program.
    We have a land management program that is responsible for 
managing tribal lands, and we have some needs there. And we 
also want to go on record to support the Great Lakes Indian 
Fish and Wildlife Commission. The Band strongly supports the 
President's $3.5 million funding request, and the Commission 
also is asking for an additional $195,000. The Great Lakes 
Indian Fish and Wildlife Commission are essential for 
implementing the Band's off-reservation hunting, fishing and 
gathering rights in Wisconsin, Minnesota and Michigan.
    We need to deal with the tribal priority allocations. We 
understand there is $34 million that the President is 
increasing, requesting for programs, but these monies are not 
enough and we are requesting this committee to increase it by 
another $50 million.
    Just to give you some little more insight in terms of what 
the natural resources on the reservation are, I would like to 
submit this to you for your review.
    Mr. Skeen. Fine. It will be in the record.
    Mr. Wawronowicz. But the Lac du Flambeau Band has 92,000 
acres and we have, you know, 20,000 surface acres of water and 
15,000 acres of marshland and 34 miles of creeks, rivers and 
streams. So the----
    Mr. Skeen. You have a great resource base.
    Mr. Wawronowicz. Right, and we need to be able to take care 
of that, you know, for the future use and for present use, and 
it is very important in the life style of the Flambeau Band.
    Mr. Maulson. Beautiful water, sir, Mr. Chairman.
    Mr. Wawronowicz. And I do like to again reiterate what the 
tribal chairman said, that, you know, any time any of the 
committee would like to come and visit our beautiful 
reservation, you know, please feel free to come and we will 
give you the grand tour of our wild areas.
    Mr. Skeen. Thank you for the gracious invitation, and if we 
can work it out, we will try to take advantage of it.
    Mr. Wawronowicz. I hope so.
    Mr. Skeen. I want to say, too, that we are a little 
disappointed with the President's budget when it comes to 
health matters and particularly on the Indian country, and we 
hope that maybe we can prevail on him to be a little more 
lenient.
    Mr. Wawronowicz. I always go with the idea that if you have 
a healthy environment, you have a healthy human population.
    Mr. Skeen. Absolutely right. Thank you both, very, very 
much.
    Mr. Maulson. Thank you very much.
    Mr. Skeen. Nice to have you here.
    [The statement of Tom Maulson follows:]

[Pages 110 - 113--The official Committee record contains additional material here.]


                                            Thursday, March 5, 1998

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

FERDINAND MARTINEAU, RESOURCE MANAGEMENT DIRECTOR, FOND DU LAC BAND OF 
    LAKE SUPERIOR CHIPPEWA INDIANS; ACCOMPANIED BY MARY PAVEL

    Mr. Skeen. Fond du Lac Band of Lake Superior Chippewa, Mr. 
Robert Peacock. Welcome.
    Mr. Martineau. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you.
    Mr. Martineau. Mr. Peacock was unable to make it. My name 
is, for the record, is Ferdinand Martineau.
    Mr. Skeen. Martineau?
    Mr. Martineau. Yes. I am the Resource Management Director 
for the Fond du Lac Band.
    Mr. Skeen. He has an able assistant. You tell him you did a 
good job.
    Mr. Martineau. Thank you.
    Mr. Skeen. Up your salary.
    Mr. Martineau. Can I quote you on that?
    Mr. Skeen. Yes, sir, you certainly may. Tell him you are 
worth every dime and more.
    Mr. Martineau. Mr. Chairman, as previous people have 
testified before you and as people are going to be testifying 
in the future, we bring a simple message from the Fond du Lac 
Band of Lake Superior Chippewa. There is a great need in Indian 
country that is currently unmet, and we are asking your 
committee to help us meet that need.
    At Fond du Lac we have needs in several areas, but I am 
going to focus on education, enforcement, and natural resources 
in this testimony.
    The top priority of Fond du Lac Reservation has always been 
education, as most tribes have been. The Band's greatest area 
of concern is that we have a--that our children are asked to 
attend a school that is not safe or conducive to learning, and 
I have some pictures.
    Mr. Skeen. Why don't you have the young lady just go ahead 
and sit down there, so she doesn't have to stand and hold them.
    Mr. Martineau. This is Mary Pavel and she is assisting me 
today.
    As you can see, the school is not a very good school. We 
have operated it since 1980, and----
    Mr. Skeen. Are those portable buildings?
    Mr. Martineau. Yes.
    Mr. Skeen. Go ahead.
    Mr. Martineau. We have operated the school since 1980, Four 
years ago the BIA did a study and they looked at the facility 
and they said that the facility should be replaced immediately, 
and they placed us number 14 on the BIA priority list for 
construction. When we were placed number 14 on the list, we 
became eligible for planning and design money and we received a 
grant from the Bureau of Indian Affairs----
    Mr. Skeen. You did get some money, then?
    Mr. Martineau [continuing]. Two years ago to do a planning 
and design study for new construction.
    Mr. Skeen. Has it been completed?
    Mr. Martineau. It will be completed in April.
    Mr. Skeen. April.
    Mr. Martineau. And will be ready for construction----
    Mr. Skeen. But it will be a permanent facility?
    Mr. Martineau. It will be a permanent facility, yes.
    Ms. Pavel. The planning and design will be complete in 
April. The construction hasn't been funded yet.
    Mr. Skeen. Just the planning and design?
    Mr. Martineau. Yes, the planning and design stage will be 
completed in April.
    Mr. Skeen. Under your budget.
    Mr. Martineau. However, we still rank number 14 on the 
list.
    Mr. Skeen. For what that is worth.
    Mr. Martineau. For what it is worth.
    Mr. Skeen. I hope we get that horse over the line.
    Mr. Martineau. And that is what I am here to ask, is if we 
could get the--
    Mr. Skeen. Get some movement?
    Mr. Martineau [continuing]. Get some movement on the 
construction.
    Mr. Skeen. We will look into it. We appreciate that.
    Mr. Martineau. In 1997 the Minnesota Supreme Court ruled in 
the State of Minnesota v. Stone that certain trafficregulations 
were unenforceable in Minnesota on Indian reservations, where 280 State 
and certain regulations were ruled that you couldn't--the State officer 
couldn't enforce it on Indian reservations in Minnesota. It has left a 
void in the protection of all residents, Indian and non-Indian alike.
    Mr. Skeen. This is in law enforcement?
    Mr. Martineau. Law enforcement, yes.
    Mr. Skeen. Well, you have a big vacuum there because 
neither one of you are responsible for the----
    Mr. Martineau. Yes. We have been working with----
    Mr. Skeen [continuing]. General law enforcement.
    Mr. Martineau. Yes, with local and State enforcement 
agencies to work out agreements where Fond du Lac can provide 
officers to enforce these laws on the reservation. We have had 
limited success, but our problem is that we don't have the 
financial wherewithal to implement a full-blown law enforcement 
program on the reservation.
    And, you know, we appreciate the President's request for an 
additional $25 million to the Bureau for law enforcement, but 
it has been Bureau policy that this law enforcement money 
hasn't been spent in Public Law 280 States, and Minnesota 
happens to be one. So although there is a ruling in the State 
courts that doesn't allow certain laws to be enforced on the 
reservation, the Bureau's policy has been not to spend law 
enforcement money in P.L. 280 States.
    So we are requesting that some of that money be directed 
towards Minnesota, Fond du Lac in specific.
    Mr. Skeen. For your primary needs?
    Mr. Martineau. Yes.
    Mr. Skeen. What else?
    Mr. Martineau. And in 1987 we also had our treaty rights 
upheld in the 1837 area----
    Mr. Skeen. Treaty right?
    Mr. Martineau. Yes. When we signed the Treaty of 1837 with 
the United States Government, we ceded 3 million acres of land 
to the United States Government, and when we ceded that land we 
reserved the right to hunt, fish and gather in that area. And 
like I said, the Eighth Circuit Court of Appeals upheld that 
right, and now with the rights to exercise in that area comes 
the responsibility of managing that land.
    Mr. Skeen. Managing it?
    Mr. Martineau. And for the last decade Fond du Lac has been 
exercising rights in the 1854 ceded territory which is just 
north of the 1837 area, and we have a good management system. 
We have been recognized as responsible managers in that area. 
And we are asking that an additional $200,000 be appropriated 
through the Bureau to assist us in implementing our 1837 treaty 
rights. We are planning on implementing the same type of 
system----
    Mr. Skeen. When you say ``implementing,'' you would take 
the money to do what?
    Mr. Martineau. To provide enforcement and management in 
that area.
    Mr. Skeen. Oh, I see. Okay. For the recreational area, or 
for the area that you----
    Mr. Martineau. For the area that we would be exercising our 
treaty rights.
    Mr. Skeen. Your treaty rights. I understand.
    Mr. Martineau. And we also, as other reservations, have on-
reservation needs. In forestry, we currently have a forestry 
program that operates on the reservation. We have a forester 
and two technicians.
    Fond du Lac Reservation is 110,000 acres of land, and we 
have about 5,000 acres of wild rice lakes and about 60 miles of 
rivers and streams that run through the reservation, about 
20,000 acres of wetlands, associated wetlands, with the lakes. 
And we are looking at implementing a wild rice restoration 
project there and also a forestry project, and we are asking 
for an additional, I think it is $80,000 and--it is about 
$100,000 there, to help us implement DIM programs also.
    Mr. Skeen. What is that?
    Mr. Martineau. And as I stated earlier, you know, I have a 
simple message and I also have a simple request, that Fond du 
Lac and all Indian country needs your help to continue to 
implement these types of programs and to address the needs of 
Indian country.
    Mr. Skeen. We appreciate your message and we take it very 
seriously.
    Mr. Martineau. Thank you.
    Mr. Skeen. Thank you.
    [The statement of Ferdinand Martineau follows:]

[Pages 117 - 120--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

CHARLES W. MURPHY, CHAIRMAN, STANDING ROCK SIOUX TRIBE AND SHARON TWO 
    BEARS, COUNCIL MEMBER, STANDING ROCK SIOUX TRIBE

    Mr. Skeen. How about the Standing Rock Sioux Tribe? Mr. 
Murphy?
    Mr. Murphy. Mr. Chairman.
    Mr. Skeen. How are you, sir?
    Mr. Murphy. Good, good.
    Mr. Skeen. Good morning. Are those your children in that 
batch there?
    Mrs. Two Bears. Grandchildren.
    Mr. Skeen. Grandchildren. Oh, that is the most important 
bunch of people in the world, these grandkids.
    Mrs. Two Bears. That is why I am here today.
    Mr. Skeen. It proves that you didn't go wrong with your own 
children, when you have the grandchildren. They appreciate 
grandma and grandpa.
    Go ahead, sir.
    Mr. Murphy. Mr. Chairman, my name is Charles Murphy and I 
am the chairman of the Standing Rock Sioux Tribe, and to my 
left here is Sharon Two Bears, who is one of the Council 
members on my tribe. Also she is a school board member. And we 
want to thank you for taking this opportunity to testify in 
front of you today, Mr. Chairman.
    Mr. Skeen. It is a pleasure.
    Mr. Murphy. And there are some needs that we need at 
Standing Rock, and----
    Mr. Skeen. That is what we are here for.
    Mr. Murphy. Right now Standing Rock is facing a difficult 
need right now, and at this time, within the last nine months, 
Mr. Chairman, is that we had 45 attempted suicides. Out of 
those 45, Mr. Chairman----
    Mr. Skeen. Are these tribal members?
    Mr. Murphy. Yes, it is.
    Mr. Skeen. Excuse me for interrupting you.
    Mr. Murphy. But, anyway, six of them had succeeded. And we 
are relating this back to many, many things, from families to 
schools and everything else, because the kids were depressed.
    The reason why Mrs. Two Bears is here also, Mr. Chairman, 
is that the school also was closed for one week because of the 
PCB.
    Mr. Skeen. Excuse me, but I have got a vote on. They tell 
me that I wasn't paying any attention. So if you will hold it, 
I will run and vote and get right back.
    Mr. Murphy. Okay.
    Mr. Skeen. I am sorry to do that to you.
    Mr. Murphy. No problem, Mr. Chairman.
    [Recess.]
    Mr. Skeen. Sorry to run off on you like that.
    Mr. Murphy. Oh, no problem.
    Mr. Skeen. I didn't have my beeper turned on.
    Mr. Murphy. Where we left off, Mr. Chairman, was on that--
--
    Mr. Skeen. Thank you for your patience.
    Mr. Murphy. Sure. No problem, Mr. Chairman.
    We had to close the Bureau school for about a week. There 
is a--fluorescent light fixtures, what they call PCB in the 
light fixtures, and what happened is that it was leaking in the 
elementary school, and it leaked in the BIA office and also in 
the high school. And what happened is that they closed the 
school. We have to replace all those fixtures, and we are 
talking a whole lot of dollars of repairing those lights 
throughout the schools.
    Mr. Skeen. Is that very costly?
    Mr. Murphy. Yes, it is, sir. But, anyway, the estimated 
cost to replace all these lights and everything else and the 
repairs that need to go along with this is going be about $11 
million, sir.
    Mr. Skeen. Who built the building? How old is it?
    Mrs. Two Bears. The high school building was--they moved 
into in 1979. They quit manufacturing these lights in 1978.
    Mr. Skeen. Yes, because of the PCBs.
    Mrs. Two Bears. Yes, but the Bureau has never replaced any 
of these lights over the years. You know, I worked in the 
facility for about 12 years, even in the office.
    Mr. Skeen. I see, so it has been a severe problem for you.
    Mrs. Two Bears. So they have probably been leaking all of 
these years, but we just became aware of it, but they are 
Bureau facilities.
    Mr. Skeen. They don't change their bulbs often.
    Mrs. Two Bears. No.
    Mr. Skeen. Excuse me for interrupting.
    Mr. Murphy. No problem, sir. We need to find these things 
out.
    And Senator Kent Conrad was down there also, not during 
this time but prior to this, and just looked at the school 
because we had some other problems with the school at Standing 
Rock. And yesterday I mentioned to him that we were going to be 
meeting with the committee today to testify on our needs, and 
he wished us the best of luck, and we will very hard on trying 
to get those----
    Mr. Skeen. Conrad is a good representative for you.
    Mr. Murphy. Yes, for North Dakota.
    The other thing, sir, is that we have the mental health--we 
are asking for dollars, we are requesting $250,000 for 
additional doctors and so forth at the reservation.
    Mr. Skeen. Personnel, medical personnel?
    Mr. Murphy. Right. We have some people right now, a doctor 
that--some doctors now, but they are only on a contract basis, 
sir.
    Mr. Skeen. What do they do, rotate in and out, or----
    Mr. Murphy. Yes, for whatever dollars that we have got.
    Mr. Skeen. I see. They are just there certain times of the 
week, month, year?
    Mrs. Two Bears. They come one day a week.
    Mr. Skeen. One day a week?
    Mr. Murphy. Right. The other thing is that we are asking 
for $100,000 for alcoholism, also, to help us out in that area. 
And, Mr. Chairman, we had applied for a COPS grant program. We 
got that, and--but we still need additional police officers. 
Our reservation is made up of 2.3 million acres. It is 100 by 
100, so it is--we need police officers badly.
    Mr. Skeen. You have a huge area to take care of.
    Mr. Murphy. Yes. And also we are down to--we currently had 
20 vehicles but we are down to 9 now, because a lot of our 
vehicles have over 100,000 miles on them right now, so----
    Mr. Skeen. Big as that reservation, I am not surprised.
    Mr. Murphy. Yes. Right, sir.
    Mr. Skeen. It takes a lot of driving.
    Mr. Murphy. Yes, it is. But, anyway, Mr. Chairman, I want 
to thank you for taking the time to listen to us.
    Mr. Skeen. We want to thank you for making your 
presentation. I mean, we hope we get, sooner or later get a 
better system working over there, so every year we don't have 
to have this business of there is just not enough money and 
your needs are not met and so forth. It is tough situation, 
especially with the draw-down on budgets and things. That kind 
of tough but we will do our best.
    Yes, ma'am?
    Mrs. Two Bears. I guess in closing, having worked in 
education for 25-plus years, the mental health of our children, 
with these suicides and with about 125--
    Mr. Skeen. I was astounded at the number of suicide 
attempts.
    Mrs. Two Bears. There is about 125 that are being monitored 
now, and these are children that have been--one of our Council 
members was a social worker with IHS, and she said we started 
working with these children when they were young. And all of 
these six that completed their suicides by hanging were all 14, 
15-year-old children.
    Mr. Skeen. That is awful.
    Mrs. Two Bears. They were all males.
    Mr. Skeen. All males?
    Mrs. Two Bears. All males.
    Mr. Skeen. See how much smarter women are?
    Mrs. Two Bears. I don't know. But, you know, our mental 
health for our children----
    Mr. Skeen. Don't say anything. That is a terrible thing. 
You know, I am not making light of it, but kids likethat have 
the whole world in front of them age-wise, and there are resources like 
there are anyplace else----
    Mrs. Two Bears. Resources are very limited. Many of our 
staff are working overtime, just volunteering time to try to 
work with the youth. Many Council members do the same thing, 
you know, have been volunteering time to just try to assist 
because we don't have the dollars and the additional 
professional help.
    Mr. Skeen. It is something to be very alarmed about.
    Mrs. Two Bears. Yes, it is.
    Mr. Skeen. We will see what we can do to help you.
    Mr. Murphy. Mr. Chairman, I just want to thank you for your 
time, and you are sure welcome out to Standing Rock.
    Mr. Skeen. We thank you for your time. Sorry that----
    Mr. Murphy. No problem.
    Mr. Skeen. [continuing]. We can't just immediately take 
care of a problem.
    Mr. Murphy. Right.
    Mr. Skeen. We will do the best we can.
    Mr. Murphy. Okay. Thank you.
    Mr. Skeen. Thank you.
    Mrs. Two Bears. Thank you.
    Mr. Skeen. Thank you.
    [The statement of Charles Murphy follows:]

[Pages 125 - 128--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

JOE PAKOOTAS, CHAIRMAN, COLVILLE BUSINESS COUNCIL, CONFEDERATED TRIBES 
    OF THE COLVILLE RESERVATION

    Mr. Skeen. Colville Confederated Tribe, Mr. Joe Pakootas. 
Is Mr. Nethercutt your Member of Congress?
    Mr. Pakootas. Yes, he is.
    Mr. Skeen. He sends his regards and asks that we take good 
care of you.
    Mr. Pakootas. There you go. I have to thank him.
    Mr. Skeen. When Mr. Nethercutt gives me an order, we are 
going to follow through on it, because he is a very good 
gentleman and a good Member of Congress.
    Mr. Pakootas. We appreciate that very much. Thank you.
    Mr. Skeen. Even if he is a lawyer.
    Mr. Pakootas. Some of them may be good, I guess.
    Mr. Skeen. Oh, they are all good. We give them a bad time.
    Mr. Pakootas. Yes. My name is Joe Pakootas. I am the 
chairman of the Colville Business Council for the Confederated 
Tribes of the Colville Indian Reservation. Our reservation is 
located in north central Washington State, the other 
Washington, or the real Washington, maybe.
    Mr. Skeen. I understand that. I graduated from high school 
in Seattle.
    Mr. Pakootas. Oh, all right.
    Mr. Skeen. So I feel like I am kind of a native of 
Washington. I spent a lot of time around Camas, Washington, and 
Port Angeles, as well. My father couldn't find a steady job, 
so--and he is an engineer.
    Mr. Pakootas. Anyway, our reservation is approximately 1.4 
million acres in size, and we have an enrollment population of 
about 8,500.
    Mr. Skeen. 8,500 children?
    Mr. Pakootas. Tribal members, enrolled tribal members. 
Approximately 50 percent of those enrolled tribal members live 
on or near our reservation.
    The tribes provide a variety of services for members living 
on the reservation and elsewhere, including resource 
management, human services, community development, education, 
employment, and law and order. Our goal for our membership is a 
healthy society, environment and economy which are maintained 
and built upon the unique culture and traditions of our tribal 
people, and we have 12 bands that make up our confederation.
    The programs that I will be mentioning are vital to the 
efforts of the Colville Tribe and what we are hoping to 
accomplish in the future. Those programs are--under the Bureau 
of Indian Affairs would be the tribal priority allocations, 
Paschal Sherman Indian School, Inchelium Public Ferry, tribal 
courts, and detention facilities. These are----
    Mr. Skeen. How about your health facilities?
    Mr. Pakootas. That is also--that will be under the IHS.
    Mr. Skeen. You will cover it? All right. Very well.
    Mr. Pakootas. That part of it, after we have talked a 
little bit about Bureau of Indian Affairs.
    These are kind of our priorities, our immediate needs in 
some of these areas right now. We have needs all across the 
reservation, not only in these particular areas.
    Mr. Skeen. But this is your primary----
    Mr. Pakootas. Yes, they have been needs for many, many 
years and they have been unfunded. We are looking for, like so 
many tribes, for construction dollars for the Indian school and 
detention facilities, tribal courts.
    And one of the education parts of our reservation is what 
we call the Paschal Sherman Indian School. It used to be called 
the St. Mary's Mission quite a few years ago, and it is over 
100 years old at this time. Part of the facilities have been 
condemned. We have them in some temporary modular units that 
were used when we put them in place a number of years ago. Our 
school houses----
    Mr. Skeen. How long ago?
    Mr. Pakootas. I believe it was in right around 1990 when we 
did----
    Mr. Skeen. So they have had quite a bit of concentrated use 
over----
    Mr. Pakootas. Yes. We acquired a couple modular units, I 
believe from one of the base closures.
    Mr. Skeen. Yes.
    Mr. Pakootas. And this school has over 175 students 
throughout the year. We start off, it ranges between 130 to 180 
students for a year, and it is a residential-type school. We 
have dormitories there that house some of the students. But it 
not only houses our Colville students, but other students 
throughout the Northwest area there. They come in and get a 
top-notch education there.
    Mr. Skeen. Do you have non-Indians in the school at all?
    Mr. Pakootas. No.
    Mr. Skeen. You don't take any outsiders?
    Mr. Pakootas. It is--there is probably a few descendants 
that attend the school, locals that live on the reservation. 
Because a number of our parents, like my parents' age and my 
age, a lot of tribal members attended this school and they are 
just kind of passing it on down, I guess, through the 
generations. Some of their children attended school there, 
also.
    But the Paschal Sherman Indian School was ranked in 1982 as 
up to 14th in fiscal year 1982, and the highest ranking that we 
had received was third, and that was in fiscal year 1985. And 
it is nowhere to be seen on the list at this time, and I don't 
really know the exact reasons for that. I have--wasn't 
associated with the tribal government back at that time.
    But we are still in desperate need of an education facility 
to replace a lot of the buildings that we are housing our 
children in, the dormitories. A lot of them have historical 
significance. It used to be an old mission, and it was a school 
back then, too, when they were civilizing the tribal members. 
And the Bureau of Indian Affairs had taken it over, and the 
tribe had contracted that school through the Public Law 638. So 
we are in need of funding.
    We also have an agreement with the local public school, 
which is Omak High School. It is a cooperative agreement where 
we--they utilize, the impact aid funds. They are funding some 
of the services up there through the impact aid funding source. 
That is one of the agreements that really helps out in our 
education efforts up there, in helping out with the staff.
    Another issue is a public ferry service that we have on the 
eastern side of our reservation where I live, and it is called 
the Inchelium Ferry, Inchelium-Gifford Ferry, and it is a free 
ferry service. The tribe had contracted that from the Bureau of 
Indian Affairs a number of years ago, also. It was under 
private contract. BIA contracted with a private individual, and 
then the tribe had contracted that to provide more services.
    What it does for my community is, it reduces travel to a 
major area for hospital services, groceries, and shopping and 
Wal-Mart, by 70 miles.
    Mr. Skeen. This is a ferry service across some body of 
water?
    Mr. Pakootas. Across Lake Roosevelt, yes.
    Mr. Skeen. I see.
    Mr. Pakootas. The body of water behind Grand Coulee Dam. 
And the funding for that has been and is being looked at now by 
other tribes. We are looking at trying to secure funding to 
keep that operation going. There is over 200,000 vehicles that 
utilize that ferry boat every year.
    Mr. Skeen. Do they charge a fee?
    Mr. Pakootas. No, no fee charged. In the past when it was 
under private ownership there was a fee for services, to cross 
on the ferry boat, but since the Bureau of Indian Affairs and 
the tribe has taken over, there is no fee.
    Mr. Skeen. So the support for it and the maintenance and 
all that has to come out of your tribal funds?
    Mr. Pakootas. Yes, it comes out of our maintenance funds 
that go to the Bureau of Indian Affairs. Yes, the roads 
department.
    And when the funding source goes down for the maintenance, 
road maintenance, then we have to lay off or furlough our road 
maintenance crew for the Bureau of Indian Affairs. We have over 
800 miles of BIA roads on the reservation that our crew 
maintains throughout the year, and when the funding goes down 
on the ferry boat or there is additional services needed, then 
we have to furlough our men to save enough dollars to help the 
ferry.
    Another source of problems for us is our tribal courts, the 
underfunding of our tribal courts. Our court system receives 
less than $50 per case, basically, through the budget that is 
allocated for our tribal court. And recently our docket, case 
docket, case load for our tribal court got up to 3,400, and 
this is per year.
    Mr. Skeen. So it is getting critical for you?
    Mr. Pakootas. Yes, and the services through our tribal 
court isn't only for tribal members, it is for all people 
within the bounds of our reservation, our jurisdiction. And our 
tribal court handles criminal prosecutions, to tort claims 
also.
    And they are housed now in inadequate facilities. Most of 
the facilities that the BIA--we contract a lot of these 
programs--is tribal facilities, and they have been inadequate 
to begin with, a lot of them are old warehouses, in some 
situations we are growing and we have to house them someplace, 
so we will throw up a few walls and try to remodel an old 
warehouse to house these facilities.
    Our tribal court is one of those that is in dire need of 
some additional dollars and----
    Mr. Skeen. That kind of goes along with your other request 
for law enforcement?
    Mr. Pakootas. Yes.
    Mr. Skeen. Give me your highlights, then, on the rest of 
it. We are going to have to move.
    Mr. Pakootas. Okay. Thank you.
    Mr. Skeen. Sorry to do that to you.
    Mr. Pakootas. Our detention facility is one that we are 
looking at, too.
    Mr. Skeen. Detention facilities? Along with your law 
enforcement and courts?
    Mr. Pakootas. Yes. To go into a little bit on detention 
facilities, we are housing prisoners, and we contract with the 
local county, and it costs us $40 a day once they get through 
our tribal court system. And we have been on a list, what they 
call--we have been going through the ``pony process'' for 
detention facilities, and we are completing Phase 2 I believe 
at this time, and looking for funding for the actual 
construction. We are in----
    Mr. Skeen. So you have done your planning?
    Mr. Pakootas. Yes.
    Mr. Skeen. Okay.
    Mr. Pakootas. We have Phase 1 done, and that is the 20-
percent phase. Now we are looking into--we are working on the 
40-percent phase, Phase 2, and then the final phase will be for 
construction dollars.
    We have hopes that we are going to get back up in the 
priority area for funding for construction. We understand there 
is new construction dollars that is going to be allocated this 
year, and we are looking forward to that.
    Indian Health Services, mental health and substance abuse 
is a big concern for our tribe also, like the tribe before me 
had spoken about too. The big concern there is the juvenile 
crime rate is escalating on Indian reservations, and basically 
all crime rate for the reservations is escalating in all areas. 
We are looking at the mental health and substance abuse as what 
we are trying to prioritize in the area of reducing those crime 
rates.
    Additional dollars to contract health and Indian Health 
Services would definitely help that area out. The tribes could 
actually get out and do some better work, because it has just 
been basically office work. This is how we have been working, 
because of the inadequate dollars and the support staff that 
are needed for those services.
    Another area for Indian health is contract health. These 
dollars are good to start off the year with. We got plenty of 
dollars and our tribal members can go get needed services. And 
then toward the end of the year, fiscal year, even halfway 
through the fiscal year and beyond, it is hard for our tribal 
members to get needed services. They are put on a priority 
type----
    Mr. Skeen. They spend the money early in the cycle.
    Mr. Pakootas. Yes, and, you know, people are getting needed 
operations, gallstones and that type of thing.
    Mr. Skeen. I understand.
    Mr. Pakootas. Once you get later into the season, then you 
are put on this priority list, and what that does is, it is 
loss of life or limb they fund first. And so a number of our 
tribal members are going without needed services, needed 
operations and----
    Mr. Skeen. But all this is in your list.
    Mr. Pakootas. Yes, a lot of this is in here.
    Mr. Skeen. Okay. Well, we are going to take that list, and 
we appreciate you making your presentation.
    Mr. Pakootas. I appreciate the time, and I thank you.
    Mr. Skeen. Sorry we're going to have to hustle you a little 
bit.
    Mr. Pakootas. Yes. Don't have time for my joke.
    Mr. Skeen. I've got time for the joke.
    Mr. Pakootas. I better not. I got to see George this 
afternoon, too.
    Mr. Skeen. Okay. He gets no joke.
    Mr. Pakootas. Thank you.
    [The statement of Joseph Pakootas follows:]

[Pages 134 - 137--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

ROBERT NIGER, SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS

    Mr. Skeen. Sault Ste. Marie Tribe of Chippewa Indians, 
Bernard Bouschor. Welcome.
    Mr. Niger. Good afternoon, Mr. Chairman. Robert Niger, 
sitting in for Chairman Bouschor.
    Mr. Skeen. Oh, are you? Well, he sent a good 
representative.
    Mr. Niger. Right.
    Mr. Skeen. Sorry to hustle you, but we are going to have to 
hold you to about 5 minutes.
    Mr. Niger. Very good.
    Mr. Skeen. Thank you, sir.
    Mr. Niger. Thank you. On behalf of the Sault Ste. Marie 
Tribe of Chippewa Indians, I want to thank you for this 
opportunity to appear before the committee, and I would also 
like to express our gratitude and thanks for Chairman Yates' 
service to the committee, for the record.
    Mr. Skeen. He has been a grand fellow, hasn't he?
    Mr. Niger. He has been great.
    Mr. Skeen. You bet.
    Mr. Niger. We are one of the last federally recognized 
tribes in Michigan, and we have established many activities 
throughout the years, schools, health centers, court systems 
and that sort of thing. The two issues that we want to address 
today is on Indian Health Service. We have appeared before the 
committee many years emphasizing the shortfall of Indian Health 
Service dollars, and----
    Mr. Skeen. Seems to be indigenous across the board. Every 
respondent that we have had up here today has talked about the 
health problem.
    Mr. Niger. Especially the contract health care.
    Mr. Skeen. I see.
    Mr. Niger. And just like our colleagues in Colville, we 
have a critical shortage of hospital visits. We currently have 
a need of 3,200 hospital days we are only allowed to take care 
of about 700 days.
    Mr. Skeen. I see.
    Mr. Niger. And it is the same type situation, where you run 
out of money during the first half of the year and you are 
prioritized and, you know, it is----
    Mr. Skeen. And there is very little help available for you 
after you run out of your money.
    Mr. Niger. Exactly, right. The other thing I wanted to 
address is the self-governance. We are a self-governance tribe, 
and we built our own health facility, and when the tribes build 
their own health facilities they don't receive staffing for 
those facilities. If the Indian Health Service built the 
facility, they would automatically receive a staff that goes in 
there, and we think this is----
    Mr. Skeen. That is kind of a narrow point of view, isn't 
it?
    Mr. Niger. Right. We should be at least afforded----
    Mr. Skeen. They ought to be happy that you are building it 
for them and then give you the personnel, at least.
    Mr. Niger. Exactly, right. You know, if you waited for 20 
or 30 years for them to build----
    Mr. Skeen. We understand that, too.
    Mr. Niger. Right. The other thing I want to touch upon in 
self-governance is, the Indian Health Service self-governance 
program is up for permanent legislation this year. We 
appreciate your support to make that permanent.
    Mr. Skeen. You got it.
    Mr. Niger. Thank you. The other issue I have is, the tribe 
is exercising the Treaty of 1836 in fishing rights, and we have 
expanded that in 1996 to include inland hunting and fishing 
rights with this treaty, and we have----
    Mr. Skeen. Do you lease hunting out?
    Mr. Niger. Pardon?
    Mr. Skeen. Do you lease hunting rights out to----
    Mr. Niger. Well, we established a tribal code that would 
license inland hunting and fishing for the membership.
    Mr. Skeen. Only for Indians?
    Mr. Niger. Right.
    Mr. Skeen. You don't have other hunters from off the 
reservation?
    Mr. Niger. It is all off the reservation.
    Mr. Skeen. It is off. Okay, I understand.
    Mr. Niger. Beyond the treaty area.
    Mr. Skeen. I see what you are talking about. Thank you.
    Mr. Niger. And what we have done is, we developed a code 
that was developed by the Tribal Council, and we are about to 
exercise this code. And what we are requesting from the 
committee is conservation officers to, help police the code, 
and also for biology, a biology technician, too, to serve as a 
wildlife management for the code.
    Mr. Skeen. Propagation?
    Mr. Niger. Correct.
    Mr. Skeen. Very good.
    Mr. Niger. That is the only thing I have for you today, and 
thank you for appearing.
    Mr. Skeen. Thank you. Sorry to have to rush everybody, but 
everybody is kind of tight. Thank you very much. It will all be 
in writing and we will give it due consideration.
    [The statement of Robert Niger follows:]

[Pages 140 - 143--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                         INDIAN HEALTH SERVICE

                                WITNESS

GARY JORDAN, VICE-CHAIRMAN, ONEIDA TRIBE OF INDIANS OF WISCONSIN; AND 
    DIANA BOWMAN, HEALTH MANAGER

    Mr. Skeen. Debbie Doxtator, welcome.
    Mr. Jordan. Good afternoon, Mr. Chairman.
    This is Diana Bowman. She is the health manager for the 
health center and I am Vice Chairman, Gary Jordan, from the 
Oneida Tribe of Indians from Wisconsin.
    Mr. Skeen. Welcome, to both of you.
    Mr. Jordan. We are here to discuss the Indian Health Care 
Improvement Acts, specifically Section 818.
    Mr. Skeen. 818?
    Mr. Jordan. Right. Because we ventured with a bunch of 
other Tribes, 11 other Tribes to work on getting funding for 
building health facilities.
    In particular, on behalf of the Choctaw of Oklahoma, Ho-
Chunk of Wisconsin--they are here in the room today--Jicarilla 
Apache of New Mexico, Kaw of Oklahoma, Klamath of Oregon, Nez 
Perce of Idaho, and Oneida of Wisconsin, again, St. Croix of 
Wisconsin, Sisseton-Wappeton of South Dakota and North Dakota, 
Stockbridge-Munsee of Wisconsin, three affiliated Tribes of 
Fort Berthold of South Dakota and Tohono O'odham of Arizona, I 
bring you greetings and a message of hope for our members.
    Through the common interests and concern for the health of 
citizens, we have formed a coalition called Tribal Nations 
Joint Venture Coalition for Health Facilities. This coalition 
is committed to working with Congress to make possible the 
construction of health facilities and is optimistic that this 
committee will dedicate itself to meeting us halfway so we can 
improve the situation on the reservations.
    Under the Indian Health Care Improvement Act, Section 818 
authorizes the Indian Health Service to establish joint venture 
demonstration projects under which Indian Tribes acquire or 
construct a health facility and lease it to the IHS at no cost 
for at least 20 years.
    The IHS would not provide planning, design or construction 
money for these facilities, however, it would equip staff and 
maintain them. Although two such projects were funded in the 
past, no funds have been made available for this program since 
Fiscal Year 1993.
    We believe that while new construction modernization has 
been the priority of this committee, a strong case exists for 
the funding of the joint venture demonstration program as well. 
For example, collectively the Tribes participating in this 
coalition have a service need approaching 80,000 citizens.
    The Oneida Nation is working to acquire funds to build a 
new health facility to better meet the health care needs of its 
members. Resources in an amount less than $5 million would 
allow us to serve over 14,000 eligible American Indian and U.S. 
military veteran patients.
    The Tohono O'odham Nation located in Arizona has the second 
largest land base of any Indian Nation in the United States. 
Over 20 years ago, the Indian Health Service identified the 
need for a health care facility for the Western territory of 
their Nation. The Tribe has now made the commitment to build a 
facility themselves but resources will be needed to equip and 
staff the facility.
    The Kaw Nation located in Oklahoma has budgeted for the 
construction of a 7,200 square foot health center, the Kanza 
health clinic and that will provide comprehensive health care 
services to an under-served population presently residing in 
Northern Oklahoma and Southern Kansas.
    Were the Section 818 program reopened they would require 
$1.3 million in Fiscal Year 1999 for equipment purchases and 
staffing needs.
    To provide health care to the 38,000 Native Americans being 
served at their 63-year old health care facility, the Choctaw 
Nation has recently begun work on the construction of a $21 
million outpatient and 37-bed inpatient facility in Taleheena, 
Oklahoma. The Choctaw request that Congress appropriate $6 
million for medical equipment and the necessary funds to 
provide 148 new positions for this facility.
    The St. Croix Tribe intends to request that Congress 
provide $645,840 per year to expand medical care at a new 
facility that the Tribe expects to begin beginning later this 
year. These funds would likewise be used to equip and staff 
their facility.
    The above is representative of some of the coalition 
members' desires. The intent is to develop projects consistent 
with the Indian Health Care Improvement Act which underscores 
one, Federal Health Services to maintain and improve the health 
of Indians and are consistent with and required by the Federal 
Government's trust relationship with the American Indian 
people.
    Number two, a major national goal of the United States is 
to provide the quantity in health quality services to American 
Indians in order to raise the health status among American 
Indians to the highest possible level.
    Number three, Federal Health Services to American Indians 
have resulted in a reduction in prevalence and incidence of 
preventable illnesses among and unnecessary and premature 
deaths of American Indians.
    Number four, the unmet needs of the American Indian people 
are severe and their health status is far below that of the 
general population.
    Mr. Chairman, our written testimony amply shows that the 
existing system is not working. It is an embarrassment to 
Indian Country and to the United States. Our approach would 
move us in the right direction. Each coalition member is 
committed to securing non-Federal funding for construction, 
planning and design phases. With the proposed appropriation of 
Federal dollars for equipment and staffing consistent with 
Section 818, the Tribes can demonstrate the capacity to 
implement this proposal with approximately three new starts 
each year with an additional $15 million per annum.
    Each coalition member is pursuing a plan designed to adjust 
the unique needs of their constituency and their communities. 
While we are jointly advocating for this long-needed approach, 
we will each have individual nuances and capacities for 
development.
    We, therefore, propose that the selection of Tribes for 
inclusion be competitive but with the commitment of funding 
over a minimum of a five-year period be assured. While we know 
that one Congress cannot commit another, we feel strongly that 
should this committee offer its commitment that the success of 
the program will demonstrate its wisdom.
    The benefits are many. Tribal Governments can provide 
construction and development at significant cost over many 
Federal construction programs. Tribes can generate designs and 
facility plans in much less time than current Federal 
processes.
    Tribal-based facilities bring the whole array of health 
related services to often remote communities; vision, dental, 
pharmacy and dietician services can be brought to where theyare 
needed.
    Health facilities will exist in places where they have not 
or where their conditions make them nonfunctional at worst and 
dramatically inefficient at best.
    Doctors and patients will not have to wait for examination 
rooms, patients will not have to sit in waiting rooms where the 
floors sag and they threaten to cave in. Services will be 
provided in less than 35 years.
    In closing, Mr. Chairman, we simply ask that you meet us 
halfway. We ask that you partner with us to make these 
facilities a reality. We ask that you support a plan that moves 
us in the direction of being funded at a level of only one-
third of other Americans.
    Furthermore, we will be providing written testimony on the 
Fiscal Year 1999 IHS budget.
    Thank you for your consideration and Ms. Diana Bowman and 
myself will be happy to take any questions.
    Mr. Skeen. Thank you, both.
    And I am sorry that time is so short. We appreciate both of 
you being here.
    Ms. Bowman. Okay. If there are no questions, that is fine.
    Mr. Skeen. I have no questions.
    Mr. Jordan. Thank you.
    Mr. Skeen. Thank you.
    [The statement of Gary Jordan follows:]

[Pages 147 - 150--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

JAMES H. SCHLENDER, EXECUTIVE ADMINISTRATOR, GREAT LAKES INDIAN FISH 
    AND WILDLIFE COMMISSION

    Mr. Skeen. Great Lakes Indian Fish and Wildlife Commission, 
James Schlender.
    Thank you all for coming.
    Mr. Schlender. Good afternoon.
    Mr. Skeen. Good afternoon, sir.
    Mr. Schlender. My name is James Schlender and I am the 
Executive Administrator of the Great Lakes Indian Fish and 
Wildlife Commission and on behalf of our 11 member Tribes, we 
thank you for this opportunity to give testimony today.
    We are asking for $3.8 million roughly. Most, $3.5 million 
of that is continuing and the President has proposed the 
$32,000 COLA for our employees. We support that because our 
employees are doing a wonderful and exceptional job of managing 
the harvest of natural resources in Wisconsin.
    We are also asking that there be an increase and add-on to 
our funding of $95,000 to fund a Tribal Court and a 
registration station for the Fond du Lac Tribe, who will be 
exercising in the 37th territory of Minnesota which was 
recently reaffirmed by the Eighth Circuit.
    We are also asking for $35,000 to do fish population 
studies in the ceded territories in Minnesota. And we are also 
asking for $100,000 to look at sulfide mining in Wisconsin.
    Mr. Skeen. You say what kind of mining?
    Mr. Schlender. Sulfide mining.
    Mr. Skeen. Sulfide.
    Mr. Schlender. And that is our request and I will not take 
up any more of your time.
    Mr. Skeen. Well, we appreciate it very much and we will 
give it every consideration.
    Thank you.
    Mr. Schlender. One last thing. Today is my birthday and I 
noticed that----
    Mr. Skeen. Happy Birthday.
    Mr. Schlender [continuing]. Mr. Martin and I have an 
opportunity to have a raise and two of my bosses are here. 
[Laughter.]
    Mr. Skeen. I think this is a stellar moment for you. Happy 
Birthday to you and they owe you. So, they better take you to 
lunch.
    Mr. Schlender. They are going to do that.
    Mr. Skeen. Oh, they are going to do that.
    Mr. Skeen. All right. Thank you very much.
    [The statement of James Schlender follows:]

[Pages 152 - 155--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

DONALD MOORE, SR., CHAIRMAN, BAD RIVER BAND LAKE SUPERIOR CHIPPEWA 
    INDIANS
BRUCE HORT, TRIBAL COUNCIL MEMBER

    Mr. Skeen. We will have Donald Moore, Bad River Band Lake 
Superior Chippewa.
    Welcome, gentlemen.
    Mr. Moore. Thank you, Mr. Chairman.
    To my left is Tribal Council Member Bruce Hort.
    Mr. Skeen. Bruce, good to see you.
    Mr. Moore. And the Tribal Chairman of the Bad River Band 
Lake Superior Tribe of the Chippewa Indians.
    Mr. Skeen. You are the Chairman?
    Mr. Moore. Yes.
    Mr. Skeen. Congratulations.
    Mr. Moore. Thank you.
    Mr. Skeen. It is nice to have you here.
    Mr. Moore. As you heard from many of my colleagues in the 
past from different Tribes is----
    Mr. Skeen. There seems to be a recurring pattern.
    Mr. Moore. Right, health care.
    Mr. Skeen. Health care, initial health.
    Mr. Moore. Right, contract health.
    Mr. Skeen. Buildings.
    Mr. Moore. Hospital and clinics.
    Mr. Skeen. Resource development?
    Mr. Moore. Right. Especially contract health. In 1991, we 
had population, a user population of 1,100 and today we have 
about 1,600. So, the decrease in funding is detrimental for 
problems there at Bad River. Also, diabetics is a problem, I 
understand.
    Mr. Skeen. That seems to be a persistent problem.
    Mr. Moore. Right. We have here, statistically, we have 150 
diabetic patients out of a total reservation population of 
1,200 on the reservation.
    Mr. Skeen. That is very high.
    Mr. Moore. So, it is soaring. The same way that the cancer 
rate is growing at an alarming rate also. It has increased 
significantly and hopefully, you know, the Administration did 
increase funding to provide for breast and cervical cancer, at 
the same time we note that other key programs were cut to 
provide this cancer screening.
    So, we are in the same kind of a boat as other Tribes and 
we are here to try to persuade this committee to help us in 
these areas.
    Also, I have another problem that is our law enforcement. 
As we strongly support the President's Indian Country Law 
Enforcement Initiative at Bad River. It is very important like 
in December our Tribal casino was subject to an armed robbery 
and we do not have any----
    Mr. Skeen. That is not a fair way to play the game.
    Mr. Moore. No, that is for sure. They came in, you know, 
those armed robbery----
    Mr. Skeen. The machines will rob you soon enough.
    Mr. Moore. Right. But it was in and out. I mean it happened 
within three or four minutes.
    Mr. Skeen. Very quickly, huh?
    Mr. Moore. And the law enforcement from our Marconi law 
enforcement it took them 10 or 15 minutes to get there and by 
that time it was all over.
    And we do not have any law enforcement on the reservation 
at all.
    Mr. Skeen. None?
    Mr. Moore. No, no presence at all. And that is why we are 
here today to request $125,000 to hire training and equip two 
Tribal police officers.
    We also urge the committee to clarify the funds from Indian 
Country Law Enforcement for Tribal Conservation law 
enforcement. For many Tribes, including Bad River, the effect 
of enforcement on Tribal hunting and fishing and trapping laws 
and environmental laws is essential to protecting the health 
and welfare of Tribal members and community.
    We need an additional, two additional law enforcement 
personnel, two trucks to provide the patrol capabilities at a 
cost of $100,000. This would be an important and worthwhile 
investment.
    Mr. Skeen. You have no law enforcement officers now?
    Mr. Moore. No. We have two Game Wardens.
    Mr. Skeen. I see.
    Mr. Moore. Tribal Game Wardens.
    So, it is a problem. I have talked to the local sheriff and 
he is ready to cooperate with us and get some cross 
deputization, whatever needs to be done.
    Mr. Skeen. Well, at least you are working on a plan.
    Mr. Moore. Right.
    Also, we have land consolidation which, as you know, the 
failed allotment policy under which about 97 percent of our 
reservation lands were allotted, our reservation is so badly 
checkerboarded now that we are trying to get back most of our 
land. We are buying a lot of land back to try to get more, we 
are over 51 percent now, but to protect Tribal members from the 
horrible effects of a lot of different things we are trying to 
increase funding in these areas also.
    We do get a little bit of money through the Bureau of 
Indian Affairs. But not nearly enough because there is lands 
constantly sold on the reservation and we are trying to 
consolidate them into the Tribal network.
    And in education we have a Mashkisibi school at Bad River. 
It means community school and it just started here about three 
years ago. And at the nearby district, we have a high school 
that we have a lot of Indian dropout people, kids that we take 
into that school and we teach them a diverse curriculum 
including language, cultural, and we have graduated quite a few 
young adults from that school in recent years, in the last 
couple of years.
    In fact, I was part of their graduation ceremonies and if 
we did not have that school these kids would be out on the 
street somewhere. But they did go to that school and did attain 
an education.
    So, we urge the committee to provide $82,000 for operation 
of the school and $200,000 to enable us to build a permanent 
school facility. We are doing our best now. We have got a few 
gaming dollars we throw money to the Council, and throw some 
gaming money to support the school initiatives now, but it is 
not nearly enough, because we are, I think, some kids are 
falling through the cracks.
    And child welfare is another one. We need help to limit 
child abuse and neglect and find suitable Indian families where 
Indian children can be protected. But, as other Tribes, we are 
doing innovative things, we are being creative and trying to 
keep the Indian children in within our community and our 
families.
    Mr. Skeen. Well, they are part of their own heritage.
    Mr. Moore. Right, right. And the Indian Child Welfare Act 
works quite well if it is followed correctly.
    Last but not least is our natural resources. It is a key to 
our cultural and economic survival as people, wild rice, deer, 
walleye are central to our life and subsistence use ofthese 
resources is widespread and increasing. Proper management and 
enforcement efforts are more critical than ever to preserve the 
integrity of our treaty rights and resources for the members of the 
Band.
    We need an additional $55,000 to enable us to meet our 
responsibilities under our Tribal/State Conservation Agreement 
on Lake Superior. Also the annual cost of fish and game program 
has risen 5 percent per year but the program had no increase 
for the last four Fiscal Years. Without the increase the Tribe 
could face a shortfall of $60,000 in fish and game funding.
    These funds would help protect our resources for future 
generations.
    With all that said, the health portion of this year's 
testimony is the Great Lakes Inner Tribal Council is submitting 
written testimony today sometime, too, and they have the 
statistics and surveys that back up, I guess, most of these 
within Wisconsin of----
    Mr. Skeen. That tracks with your report, too?
    Mr. Moore. Right, right.
    Mr. Skeen. Well, we will put them both together.
    Mr. Moore. Sure. And we finally note our strong support for 
the full funding for the Circle of Flight program and BIA fish 
hatchery maintenance program.
    I want to thank you on behalf of my Tribe and on behalf of 
myself and Bruce.
    Mr. Skeen. Well, thank you for your presentation and we 
will give it every consideration.
    Mr. Moore. We greatly appreciate that.
    Mr. Skeen. Thank you for being here.
    Mr. Moore. Thank you.
    [The statement of Donald Moore follows:]

[Pages 159 - 162--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

MARGARET PLATERO, PRESIDENT, CANONCITO COMMUNITY SCHOOL BOARD OF 
    EDUCATION, INC.
LORENZO PLATERO, SCHOOL BOARD MEMBER, CANONCITO COMMUNITY SCHOOL BOARD 
    OF EDUCATION, INC.

    Mr. Skeen. At this point, I would like to insert into the 
record the testimony of the To'Hajiileehee Canoncito Band of 
Navajos of New Mexico. Since we are not able to give them a 
spot, we will insert their written statement into the record.
    [The statement of Margaret Platero follows:]

[Pages 164 - 167--The official Committee record contains additional material here.]


    Mr. Skeen. Thank you all very much.
    We are recessed until 1:30 p.m.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

CALEB SHIELDS, EXECUTIVE BOARD MEMBER, ASSINIBOINE AND SIOUX TRIBES OF 
    THE FORT PECK RESERVATION

    Mr. Regula [presiding]. We will now hear from Caleb Shields 
from the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation.
    Mr. Shields. Good afternoon.
    Mr. Regula. If you were not here this morning, I said all 
the statements will be made part of the record. We only have 
five minutes per witness. So, we are going to have to keep 
pushing. Okay, you may proceed.
    Mr. Shields. Thank you, Mr. Chairman.
    Before I start my testimony I would like to express my 
personal thanks to the distinguished ranking member of this 
committee, Congressman Sidney Yates for his unending dedication 
to improving the lives of Indian people. His dedication and 
support of Indian people is a model for all members of Congress 
to follow and on behalf of all the Tribes, we wish Congressman 
Yates all the best in his retirement.
    Mr. Regula. He is a fine person.
    Mr. Shields. So, if you could pass that along.
    Mr. Regula. We will tell him.
    Mr. Shields. Mr. Chairman, on the testimony of the Fort 
Peck Tribes we have, on the last page, an attachment of the 
budget requirements that are needed by the Fort Peck Tribes. 
Fort Peck is a two million acre reservation that is spread out 
to 100 miles long by about 45 miles wide. So, our people are 
spread out over 100 miles.
    Mr. Regula. What State are you in?
    Mr. Shields. Montana.
    Mr. Regula. Yes.
    Mr. Shields. Since we are situated up in Northeast Montana, 
along a 100-mile highway, stretched across the reservation, it 
poses a lot of problems especially with law enforcement and the 
health care needs of the people. The budget that is presented 
to you as--we have it highlighted of Tribal priority 
allocations, the law enforcement needs, and the health needs.
    Mr. Chairman, the last session of Congress and this 
session, as you are aware, we have had a lot of criticism and 
efforts to waive sovereign immunity of Tribes. There is 
criticism of the law enforcement, the Tribal courts, and we are 
talking about public safety and due process.
    As my testimony points out, in the TPA budgets, our law 
enforcement is under-funded by at least $1.3 million, from the 
budget we have now, the Tribal courts are really under-funded. 
So, until we can address those concerns and criticism of law 
enforcement and the courts, we need those monies to improve the 
public safety and due process issues on the reservation.
    We have all those highlighted and we also include our 
concern and increased need for education. Because of 
welfarereform we have more and more clients that are applying for 
higher education and work programs. So, we have an increased need in 
that.
    Also the welfare assistance, in Montana, we have what they 
call the FAIM, Families Achieving Independence in Montana. And 
under the FAIM program the Tribes, especially at Fort Peck, are 
under the State welfare program. But that only serves families 
with children. So, we still need increased welfare assistance 
through the Bureau of Indian Affairs because that program 
serves single people for welfare concerns. We have increased 
needs of welfare assistance.
    We have also some water resources concerns. The Tribal 
courts, we have to improve for providing due process and one of 
our major problems also is the renovation of our detention 
facilities on the reservation. We have our needs outlined in 
our testimony.
    So, Indian Health Service, as you know, there is no 
increase in the Indian Health Service Budget. In Fort Peck we 
have only two clinics. We contract out to the cities, 300 miles 
away, for any serious surgeries and all that. We have a short 
fall of over $1 million in contract health care for surgeries 
of those in need.
    So, we would appreciate the staff of the committee looking 
at the testimony for the Fort Peck and see what can be done.
    Mr. Regula. We sure will. Thank you for coming.
    Mr. Shields. We appreciate your help.
    Thank you.
    [The statement of Caleb Shields follows:]

[Pages 170 - 174--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

BOB WHITENER, EXECUTIVE DIRECTOR, SQUAXIN ISLAND TRIBE

    Mr. Regula. Next is the Squaxin Island Tribe.
    Mr. Whitener. Thank you, Mr. Chairman.
    I am Bob Whitener, and I am standing in for David Whitener, 
our chairman today and I am the Executive Director of the 
Squaxin Island Tribe.
    Mr. Regula. Okay.
    Mr. Whitener. I would like to focus on a couple of things. 
First off, some of the general increases for TPA, IHS, and the 
contract support. The first thing is, that I think as you are 
aware, the Congressional Budget Office came out with a report a 
number of years ago that showed how Tribes had become basically 
quite a bit under-funded compared to other non-Indian sources 
and that unfortunately is continuing.
    We are concerned that on TPA that we are falling behind 
versus keeping up, I think as you are aware of. On IHS and the 
medical stuff we are really concerned that when you compare the 
Indian Health Service's budget and our access to Medicare and 
Medicaid that we are consistently falling behind and that is a 
concern.
    And then, last, it seems like this is sort of my issue. 
Every year I come and I talk about contract support and the 
problems that contract support causes for the Tribes. As an 
administrator for the Tribe, it is amazing that we are asked to 
manage a budget without actually knowing what the budget is 
until probably, last year I think we knew 30 days before the 
end of the Fiscal Year. It is simply not an appropriate way to 
run any Federal contract.
    Mr. Regula. No. I would agree. I agree with you and I would 
like to go to two-year budgets if we could.
    Mr. Whitener. Yes. Anything or something to stabilize out 
on contract support and I think we have been looking, along 
with NCI, at some methods. There are some methodologies that 
could fix that problem versus an estimate and then not finding 
out where you are at until the end of the year.
    We have heard anywhere from 75, 80 percent is all we will 
receive of contract support and it just makes it very difficult 
to manage a Federal program.
    Mr. Regula. I understand that.
    Mr. Whitener. The last thing is we have come before you 
today with really only one specific request for the Squaxin 
Island Tribe and that is in shellfish management. There was a 
shellfish case that is quite controversial in Washington State 
but has now gone through the Ninth Circuit Court of Appeals and 
basically was upheld in the Tribe's favor.
    And that just takes us one step down the road to where we 
are picking up all of the management costs associated with that 
and we have a request in for $97,500 for Squaxin Island Tribe 
but that is combined with all 20 Tribes and reallyrepresents a 
request of $1.950 million. A stand-alone request for the Squaxin Island 
Tribe would not make sense, but in a group that is what that would be 
for.
    That would basically fund a biologist and one enforcement 
officer. I think the rest of the testimony is here. We have a 
lot of national issues and a lot of other concerns.
    Mr. Regula. You are in the State of Washington?
    Mr. Whitener. In the State of Washington.
    Mr. Regula. How many Tribal members do you have?
    Mr. Whitener. We have about 650.
    Mr. Regula. Okay, thank you.
    Mr. Whitener. Great, thank you.
    Mr. Regula. Are you on a river? Is salmon fishing important 
to your Tribe?
    Mr. Whitener. Well, yes, salmon and shellfish. Of our 600 
members we have like 175 shellfishers and fishers.
    Mr. Regula. Oh, is that right?
    Mr. Whitener. Yes.
    Mr. Regula. Is this in a river that you do this?
    Mr. Whitener. No. We are a marine Tribe and the reservation 
was formed on an island. It actually was a prison but it is a 
reservation and since then we have moved back to the inlets 
around the island.
    Mr. Regula. Okay, thank you.
    Mr. Whitener. Thank you.
    [The statement of Dave Whitener follows:]

[Pages 177 - 180--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

GERALD J. JONES, TRIBAL CHAIRMAN, PORT GAMBLE S'KLALLAM TRIBE AND DIANE 
    PURSER, MEMBER

    Mr. Regula. We will now hear from Port Gamble.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Regula. There are a lot of Tribes in the State of 
Washington.
    Mr. Jones. Yes. That is true.
    Mr. Regula. Okay, summarize what you want to tell us.
    Mr. Jones. Okay. Thank you, Mr. Chairman----
    Mr. Regula. Thank you.
    Mr. Jones [continuing]. For the opportunity to----
    Mr. Regula. What is that made out of?
    Mr. Jones. It is made out of ivory.
    Mr. Regula. What animal is it from?
    Mr. Jones. Walrus.
    Mr. Regula. It is what?
    Mr. Jones. It is walrus tusk.
    Mr. Regula. Walrus tusk. Oh, it is different.
    Mr. Jones. Hand carved. I would like to thank you for the 
opportunity to discuss some of the funding needs of the Fort 
Gamble S'Klallam Tribe of Washington State and I would like to 
introduce my co-worker, Diane Purser who is going to go over 
the needs of our Tribe.
    Thank you.
    Mr. Regula. Okay.
    Ms. Purser. Thank you, Mr. Chairman. I am honored to be 
here today. First of all, we are requesting funds for 
additional police officers so that we can have 24-hour 
surveillance on our reservation. Like many Tribes, we are 
battling with the gang element and illegal drugs and have been 
committed to----
    Mr. Regula. Is this within your own people?
    Ms. Purser. Yes, yes. And we are committed to a no-
tolerance attitude in that area as well as working with other 
State and local and Federal agencies to----
    Mr. Regula. Why do you think that those problems, and I 
have heard them before today, why are they greater now than 
they used to be? Is it the influence of what, television or the 
influence of----
    Ms. Purser. Well, our youth are lured in by, I think the 
glamour and, they really do not have serious input in that area 
but it is alluring to them in certain areas and by the time 
that they realize what they get into it is too late. They are 
already actively involved.
    And maybe commit crimes or crimes of violence is what we 
are----
    Mr. Regula. You need more help on your law enforcement 
program?
    Ms. Purser. Definitely. What we are looking at is we would 
like to have 24-hour surveillance that would require six 
officers which we do not have at this point. And also the 
nearest jail facility that we have is nearly two hours away and 
is usually full. And, so, we are in the planning stages and 
would like to request----
    Mr. Regula. Is this a county jail that you use?
    Ms. Purser. It is a Tribal jail.
    Mr. Regula. Okay.
    Ms. Purser. It is an all-Tribal facility. It is quite a 
distance away from our Tribe and when it is full then that 
poses a safety threat to our community as well as our police 
officers.
    So, we are seriously needing to get a jail facility which 
would also bring revenue and employment to the Tribe which we 
would be able to facilitate for six other local Tribes.
    Second, we are requesting, like many Tribes, full funding 
for the BIA and the IHS indirect costs as required by law. Last 
year, we were short 25 percent which posed a very tremendous 
hardship on direct services to our people because we are 
mandated to cut direct services which directly affects our day 
care center, our education for our college students as well as 
senior citizens housing.
    And when it comes to our children and our beloved elders, 
you know, we really seriously would like to request that we be 
allowed to service them as we should be able to, as required by 
law.
    And if our indirect costs are not restored then we will 
also lose our newly established food bank. Under theIndian 
Tribal Justice Act, we would like to request that these funds be 
authorized. They have been authorized but not appropriated at this 
point and we are only receiving $29,000 to conduct our court and we are 
very proud of our court services, but it is very limited and so we 
would like to request your attention in that area.
    Finally, our other area is in shellfish and salmon. We 
recently had two of our species of salmon were put on the 
Endangered Species List and, so, we would like to join the 
efforts in re-enhancement in that area. I am also a geoduck 
diver and we recently established a geoduck harvesting program 
where geoduck divers are managing that program through a 
taxation back into the Tribe of $130,000. However, this just 
meets the bare minimum and with the newly established ruling in 
the Ninth Circuit Appeals Court, establishing our rights to 
harvest shellfish, we would like to meet the requirements for 
management in this area. In addition, this would allow us to 
get two biologists and three technicians and support services 
and equipment needed to carry this out.
    And finally, I would like to voice our support for the 
Northwest Indian Fisheries request for fish and shellfish.
    Mr. Regula. Okay. Thank you very much.
    Ms. Purser. Thank you.
    [The statement of Gerald Jones follows:]

[Pages 183 - 186--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

   BUREAU OF INDIAN AFFAIRS, NATIONAL PARK SERVICE, FISHERIES SERVICE

                                WITNESS

BILLY FRANK, JR., CHAIRMAN, NORTHWEST INDIAN FISHERIES COMMISSION

    Mr. Regula. All right. We will now hear from the Swinomish 
Tribal Community.
    No one is here.
    Okay, Northwest Indian Fisheries Commission.
    Mr. Frank. Thank you, Mr. Chairman.
    Good morning. I am Billy Frank, Chairman of the Northwest 
Indian Fisheries Commission. We are back again another year and 
thank you for being here for us.
    Mr. Regula. We do the best we can.
    Mr. Frank. And Congressman Norm Dicks, as you know, is our 
Representative.
    Mr. Regula. He is a good member.
    Mr. Frank. Oh, yes, he is a long-term member. But today, I 
am just here with Jim Anderson, Executive Director, of the 
Northwest Indian Fisheries Commission; and Jim Harp, one of our 
Commissioners, and----
    Mr. Regula. Do you deal with the problems of fishing, 
generally?
    Mr. Frank. Fish and shellfish.
    Mr. Regula. In the whole area?
    Mr. Frank. Yes. I will end our talk in a little bit talking 
about shellfish.
    Jim, would you?
    Mr. Regula. How do you harvest the shellfish? Is it netted 
or is it really a fish?
    Mr. Frank. We dig shellfish from the beaches, they are 
under the ground. And in the deep water we have geoducks and 
crabs and all other species.
    Mr. Regula. Shellfish is literally in a shell?
    Mr. Frank. Yes. It is in a shell, a hard shell.
    Mr. Regula. I am sure it is very edible. You produce them 
for retail trade or just for yourselves?
    Mr. Frank. We harvest them for commercial and ceremonial 
and subsistence uses. Yes. We manage thousands of miles of 
beaches on the Pacific Coast, as well as in Puget Sound.
    Mr. Regula. So, the shellfish are on the coastal beaches as 
well as the beaches of the Sound.
    Mr. Frank. Inside the Sound, yes.
    Mr. Regula. How about the rivers, anything there?
    Mr. Frank. No.
    Mr. Regula. I am sure there is a good market for them.
    Mr. Frank. Yes, there is a great market for them. And it 
allows us to work with the local governments and cities and 
community ports and to keep the water clean.
    Mr. Regula. Do you drop them in hot water, is that the way 
that they are prepared?
    Mr. Frank. There are different ways that we process them. 
You know, we put them on a fire and hot rocks and then they 
open up and they just bake like that. We cover them with a big 
sacks and different things and let them steam and pretty soon 
they just open up and they are ready to eat. And they have got 
juices in them and everything. We will bring you some. 
[Laughter.]
    Mr. Anderson. Better yet, we would like to have you come 
out to the Northwest.
    Mr. Regula. Okay. We are going to run out of time if we 
keep going here. Tell me quickly what you have in mind.
    Mr. Harp. Quickly, Mr. Chairman, we have a couple of things 
that we would like the committee to consider addressing. One is 
the technical correction to the Western Washington Boldt 
Implementation and the Pacific Salmon Treaty----
    Mr. Regula. The Boldt decision.
    Mr. Harp [continuing]. Funding shortfalls that the 
Northwest Indian Fisheries Commission receives. It is about 
$185,000. Secondly, is the contract support funding. We would 
like to see that we request the committee to be sure that it 
receives 100 percent funding. Previous testifiers have 
commented about the contract support shortfall. For the 
Northwest Indian Fisheries Commission, that is about $250,000 
shortfall.
    Mr. Regula. This commission manages the whole State of 
Washington?
    Mr. Harp. Of Western Washington. There are 20 Tribes that 
is in the Western Washington under the Boldt Decision.
    Mr. Regula. Is that right?
    Mr. Harp. Yes, that is right. So, the Northwest Indian 
Fisheries Commission serves as a coordinating body for all 20 
member Tribes. It was established back in 1974 after the Boldt 
Decision.
    So, those are two budgetary issues that are of concern to 
the Northwest Indian Fisheries Commission and its member 
Tribes.
    Mr. Anderson. Mr. Chairman, I have a couple of quick 
points, with regard to the Endangered Species Act and some of 
the concerns that the Tribes have for restoring and protecting 
the Pacific Salmon. I, as a couple of the speakers previously 
mentioned, there have been several listings under the 
Endangered Species Act for the salmon in the Northwest that 
greatly affect the Tribes and the largest one is the Shinook 
listing, that is the largest----
    Mr. Regula. You are concerned about the impact on their 
environment.
    Mr. Anderson. We are concerned about that as well as a 
desire to see those populations raised to levels that they need 
to be so that harvests can be sustained at a high enough level.
    What we are suggesting is three things towards that end. 
One is a previous funded item, we would like to continue that 
kind of funding that we received from this committee for the 
past several years. It is a wildstock restoration initiative.
    Secondly, we are supporting a new initiative within the 
Bureau of Indian Affairs proposal. It is a $1 million line item 
for Endangered Species Act support for the Indian Tribes, very 
important to us. We would anticipate that we would get a fair 
amount of those monies because of the current problems in the 
Northwest.
    And, finally, we are seeking additional support for a 
monitoring and evaluation effort that would help us help the 
Federal Government fulfill its obligations under the Endangered 
Species Act, the Clean Water Act and several other mandates 
that they have to do monitoring in the context of some of these 
natural resource issues.
    Mr. Regula. Okay.
    Mr. Frank. The final on the shellfish, we are asking for 
$1.95 million on shellfish management and enhancement 
throughout our--you have heard some of our member Tribes 
talking--but Northwest Indian Fisheries Commission, again, 
allows us to speak with one voice as we come in front of you.
    Mr. Regula. I understand.
    Mr. Frank. And we appreciate what you are saying and what 
you are doing.
    Mr. Regula. Thank you.
    Mr. Frank. Thank you.
    [The statement of Billy Frank follows:]

[Pages 190 - 193--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                           NATURAL RESOURCES

                               WITNESSES

PATRICK NORMAN, JR., VICE PRESIDENT OF THE BOARD OF DIRECTORS, CHUGACH 
    REGIONAL RESOURCES COMMISSION
PATTY BROWN-SCHWALENBERG, EXECUTIVE DIRECTOR, CHUGACH REGIONAL 
    RESOURCES COMMISSION

    Mr. Regula. Chugach Regional Resources Commission.
    They must be from the State of Washington.
    Ms. Brown-Schwalenberg. Alaska.
    Mr. Regula. Alaska, where in Alaska?
    Mr. Norman. On the Kenai Peninsula, Port Graham.
    Ms. Brown-Schwalenberg. Prince William Sound. We represent 
seven Native villages in Prince William Sound in Alaska.
    Mr. Regula. Okay. You are interested in natural resources, 
you are Patty Brown, are you?
    Ms. Brown-Schwalenberg. Yes. I am the Executive Director 
and this is Pat Norman, the Vice Chairman.
    Mr. Regula. Okay. What do you want to tell us?
    Mr. Norman. We want to thank you for your past support for 
our hatchery program that we are developing. We had a fire in 
our cannery facility in Port Graham where the hatchery was 
located. And it burnt to the ground in January of this year.
    Mr. Regula. In Alaska? Canned salmon?
    Mr. Norman. Canned salmon. It was in the cannery that we 
can salmon and then the hatchery was in the second floor of the 
building. We are requesting a one-time request of $1.5 million 
to assist the hatchery in rebuilding that program.
    Mr. Regula. The hatchery is operated by the Tribe or by the 
Government of Alaska?
    Ms. Brown-Schwalenberg. It is a Tribal facility.
    Mr. Regula. A Tribal facility.
    Mr. Norman. My village corporation is rebuilding the 
cannery part of the complex which is $5 million. This $1.5 
million will help us to rebuild the hatchery portion of this 
complex.
    That is a one-time request that we are looking at. For this 
coming year, we are looking to get money from the State to 
assist us in our ability to take eggs from the summer's return, 
we will be able to handle those in another building that we 
have. But for the future, we are needing to rebuild what we had 
before.
    We have three other requests. These would be add-ons to our 
base funding. And that is $225,000 for traditional natural 
resources program. We are trying to assist our seven member 
villages in developing natural resources management 
capabilities. We feel the State is over-burdened with doing its 
duties for the whole State. We would like to assist in a co-
management type capability in managing our local area. And this 
money would help in that regard.
    We also have, as a part of our program, a shellfish 
hatchery. It is in Seward, Alaska, and we would like $170,000 
add-on, continuing add-on, for that project. This is to assist 
with the shellfish program. They arecontinuing with the program 
of being able to grow-up clam spat and they have seeded three of our 
villages' beaches already from this program. But they want to expand 
into other projects which will be oyster spat, which currently we are 
having to buy from outside, I think Washington State.
    And they have been able to raise some but we want to 
increase their capability to provide oyster spat for the whole 
seven other villages in our region, plus the other----
    Mr. Regula. Seven hundred villages just in your region?
    Mr. Norman. Seven villages.
    Ms. Brown-Schwalenberg. Right. And then in addition we 
would be selling to the other shellfish farmers in Alaska.
    Mr. Norman. Yes. Currently everybody is buying their oyster 
spat from outside.
    Mr. Regula. A shellfish farmer would have a lagoon or 
something or would they just use the beach?
    Ms. Brown-Schwalenberg. No. They have lantern nets in a 
lagoon.
    Mr. Regula. Okay.
    Mr. Norman. It is in bays, yes.
    Mr. Regula. Okay. Is that covered?
    Mr. Norman. That one there, there is one more regarding the 
hatchery, we would like $205,000 for continuing operations. 
Now, with the fire it is knocked us back to a beginning and we 
need the assistance in getting the program back up on its feet 
for an additional three years.
    Mr. Regula. Okay. Thank you very much.
    [The statement of Patrick Norman follows:]

[Pages 196 - 200--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

LORENA ZAH BAHE, EXECUTIVE DIRECTOR, GREASEWOOD SPRINGS COMMUNITY 
    SCHOOL, INC.

    Mr. Regula. Greasewood Springs Community School, Inc. It 
sounds like a movie set.
    Tell me about Greasewood.
    Ms. Bahe. We are not about fish but we are about education.
    Mr. Regula. Education?
    Ms. Bahe. Education. My name is Lorena Zah Bahe and I am 
the Executive Director at Greasewood Springs, and I have with 
me our School Board Vice President and Greasewood Springs 
Community School Incorporated is a grant school from Arizona, 
the Navajo Nation. We have 309 Navajo students, kindergarten 
through eighth and we are into our second year as a grant 
school, formerly a BIA-operated school.
    First of all, I would like to thank the subcommittee for 
their assistance, their approval of our new gymnasium 
construction at Greasewood. In Fiscal Year 1998 it was $3.14 
million. And next time----
    Mr. Regula. Already done?
    Ms. Bahe. Already done and we are into the construction 
phase right now and the construction will begin this summer. 
So, hopefully next year, when we come, we will show you a 
picture of the new gymnasium. And, so, we are excited about 
that and we appreciate it.
    Mr. Regula. This is an Indian school, it is not a public 
school?
    Ms. Bahe. It is an Indian school, a grant school.
    Several issues I want to bring up this afternoon, Mr. 
Chair. First, is the Indian Student Equalization Program, 
funding for basic education in BIA-funded schools. The budget 
increased the ISEP funding by $14.8 million this year. This 
only meets a lot of the teachers and counselor and staff 
requirements at the local level, including the 3 percent 
increase in the student enrollment.
    The WSU, which is the formula weighted student unit, for 
school year 1999 and 2000 is estimated at $3,128 per WSU. Our 
kids need more programs, they need quality teachers, we need 
more specialists and specialized counselors, and we cannot use 
that money. We just barely meet the requirements as I have 
said. So, we are requesting a $30.13 million increase over the 
current ISEP funding. So that our WSU could go up to $3,394 and 
that would provide a lot of educational opportunities for our 
Navajo students.
    We have two public schools nearby. We are not as pretty as 
a public school because they get lots of funding.
    Mr. Regula. You have good teachers. That is what counts, 
more than the building.
    Ms. Bahe. Yes. One of the major problems that we have had 
in BIA Indian education for a long time has been in the area of 
student transportation. We are just so under-funded in student 
transportation.
    Mr. Regula. You have to move your kids quite a distance?
    Ms. Bahe. Yes. Yes, we are covering a lot of unimproved 
miles out there. A lot of our roads, 80 percent of our roads at 
Greasewood is still dirt roads. And there is a pavement that 
runs through from one city to the next and that is the only 
pavement that we have in the community. So, we have six buses. 
And we put a total of close to 1,000 miles a day to pick up 
students and take them home.
    And since our roads are all dirt roads, that is a lot of 
wear and tear on our buses.
    Mr. Regula. That serves just the Navajo community?
    Ms. Bahe. Yes.
    Mr. Regula. But there is what, 10,000 in your Tribal group, 
or are there far more?
    Ms. Bahe. Students?
    Mr. Regula. No. The total Navajo Tribe.
    Ms. Bahe. The latest figure that we heard was 260,000.
    Mr. Regula. Oh, it is really large.
    Ms. Bahe. Yes.
    Mr. Regula. Are you all in Arizona?
    Ms. Bahe. Yes. Kolbe is representing us in this committee.
    And so, with our buses it is really expensive to buy four-
wheel buses.
    Mr. Regula. Yes. I understand.
    Ms. Bahe. And we only have one that we use to cover all the 
dirt roads, especially when it gets muddy. So, I really----
    Mr. Regula. Does it get muddy in Arizona? You get rain down 
there. [Laughter.]
    Ms. Bahe. That is down South, we are up North. So, we are 
really under-funded in our transportation budget by at least 
$100,000. So, I am requesting the committee to take a look at 
it. The attachments that I have, I have mileage charts, our 
daily transportation expenses and I will attach them to the 
testimony here.
    We have a trading post out there, an old trading post and 
we buy diesel fuel. Diesel fuel from them and it is costly for 
the six buses. And we are in a real remote area. Holbrook, 
Arizona, is the closest town we have which is about 50 miles. 
So, we have to drive that many miles to----
    Mr. Regula. Do you have K-12?
    Ms. Bahe. K-8.
    Mr. Regula. Where do the students go to high school, or do 
they not?
    Ms. Bahe. We are a feeder school to Nadado public school 
and to Holbrook public school. Real good public schools in the 
State of Arizona.
    Mr. Regula. Very good.
    Okay. Anything else?
    Ms. Bahe. The other thing that I have, Mr. Chairman, is the 
health clinic at Greasewood. We have a health clinic there. We 
would like to help Sage Memorial Hospital which is a private 
hospital and they subcontracted that health clinic from IHS and 
the school is really interested in helping them out to extend 
services to our students. We do not have an ambulatory care 
ambulance in that community. We are so remote that we need an 
ambulance out there.
    Last year, one of our teachers had a stroke in the 
classroom and because we are so remote and the closest 
ambulance service is about 50 miles he was gone by the time the 
ambulance got there. Real good traditional teacher, cultural 
teacher.
    So, things like that happen and I think when you are out 
there you are aware and since you are so remote there is a lot 
of services, additional services that need to be provided.
    As the other person that testified on law enforcement, our 
law enforcement in Indian Country is very, very critical. I 
want to also commend the Administration for the increase in law 
enforcement, but a lot of those increases are just to increase 
the Tribal headquarters, Tribal police stations and all of 
that. We would like to have some of those services down at the 
local area, at the grassroots level, so we need to expand the 
security services.
    Mr. Regula. Thank you.
    Ms. Bahe. And that is all I have.
    Thank you.
    Mr. Regula. You have a beautiful broach, I like it.
    Ms. Bahe. Thank you.
    Mr. Regula. It is some of your Native work?
    Ms. Bahe. Yes!
    Mr. Regula. It is very nice, thank you.
    [The statement of Lorena Zah Bahe follows:]

[Pages 204 - 207--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

FAYE BLUEEYES, EXECUTIVE DIRECTOR, SHIPROCK ALTERNATIVE SCHOOLS, INC.; 
    SCOTT HANSINGER, BUSINESS MANAGER; AND ROY TSO, PRESIDENT

    Mr. Regula. We will now hear from Shiprock Alternative 
Schools, Inc. Okay, tell us your story.
    Ms. BlueEyes. Good afternoon, Mr. Chairman, and members of 
the committee, my name is Faye BlueEyes, and I am the Executive 
Director for Shiprock Alternative Schools.
    Mr. Hansinger. Good afternoon, Mr. Chairman, I am Scott 
Hansinger, I am the business manager.
    Mr. Regula. That is for the school or the Tribe?
    Mr. Hansinger. For the school.
    Mr. Regula. Oh, for the school, okay.
    Mr. Tso. I am Roy Tso, Jr., and I am the President of the 
board of directors at Shiprock Alternative Schools.
    Mr. Regula. Well, tell me about Shiprock, is this an Indian 
school?
    Mr. Tso. This is a Navajo Grant school
    Mr. Regula. Navajo, K-12?
    Mr. Tso. K-12.
    Mr. Regula. Okay. What do you mean by alternative school?
    Mr. Tso. Our program is alternative because they offer 
nontraditional programs to serve Navajo Indian youth who have 
dropped out of school and have become pregnant and are in need 
of child care to continue studies or have disciplinary problems 
in other schools.
    Mr. Regula. You have vocational programs, to give them 
skills?
    Ms. BlueEyes. We would offer that but we do not have the 
funding to accommodate those needs.
    Mr. Regula. How many students do you have?
    Ms. BlueEyes. A total of 420.
    Mr. Regula. Are they bussed in?
    Ms. BlueEyes. Yes, they are and we also have a boarding 
program which houses 85 students and 50 students of those who 
attend are high school.
    Mr. Regula. Okay. So, this is a school for at-risk youth 
rather than just the normal curriculum?
    Ms. BlueEyes. Yes.
    Mr. Regula. Okay. And you need more money?
    Mr. Tso. We sure do. [Laughter.]
    Mr. Regula. I am surprised. [Laughter.]
    Mr. Tso. I believe we are competing with other Indian 
leaders here today for the pot of money.
    Mr. Regula. Well, the problem is that you compete not only 
with them but you compete with the parks and the forests and 
the----
    Mr. Tso. I understand.
    Mr. Regula [continuing]. And the BLM, and that is our 
problem. We have all these responsibilities, the Smithsonian, 
the KennedyCenter. Everybody is on our radar screen and we have 
to try to divide it up as best we can.
    Okay. Give me your needs.
    Mr. Tso. Okay. To continue, my prepared remarks here, 
Shiprock Alternative Schools is currently managing----
    Mr. Regula. Just summarize it for me because we do not have 
enough time for you to read it.
    Mr. Tso. All right, I can do that. We have an alternative 
high school as mentioned, an elementary program, a special 
education program that serves severe and profoundly 
disabilities students. Our main concern is our facilities. Our 
buildings are old dormitories converted for educational use 
through the removal of nonsupportive interior walls to create 
classroom space.
    These spaces are fire and safety hazards, as evidenced by 
the 1988 Facility Code of Compliance Survey and the BIA 
Inspection Validation Report and I quote from that report. It 
states that, ``Buildings were originally designed for BIA 
dormitories----''
    Mr. Regula. You do not have to tell me. I am sure that you 
have problems with them. What do you need?
    Mr. Tso. Okay. We come to you today to ask you two things 
which are very imperative to our program as well as other 
programs across Indian Country. We ask that the subcommittee 
fully fund the Administration's Education Construction Budget 
request of $37.4 million, and this is a critical step.
    Mr. Regula. Okay. What else?
    Mr. Tso. Our next in line is over the next two years 22 BIA 
schools will convert to contract grant status and without 
additional funding this will create a shortage in 
administrative cost grants. And we humbly ask you to fund the 
administrative cost at 100 percent.
    Mr. Regula. Okay. Well, we have your testimony and we will 
take a look at it. We understand your problems.
    Thank you very much for coming.
    Mr. Tso. Thank you.
    Mr. Regula. Now, you serve the Najavo Nation?
    Mr. Hansinger. Yes, we do.
    Mr. Regula. Thank you.
    [The statement of Roy Tso follows:]

[Pages 210 - 211--The official Committee record contains additional material here.]


                                         Thursday, March 5, 1998.  

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

VINCENT TOYA, GOVERNOR, PUEBLO OF JEMEZ

    Mr. Regula. Pueblo Jemez.
    You have some visuals with you?
    Mr. Toya. Good afternoon, Mr. Chairman.
    My name is Vincent Toya, and I am the Governor of the 
Pueblo Jemez and thank you for the opportunity to testify 
before you and this committee.
    Mr. Regula. Just summarize your concerns.
    Mr. Toya. Okay. What we have is several. I have got some 
testimonials in front of me.
    Mr. Regula. Yes, we will put your statement in the record.
    Mr. Toya. Yes. And what I would like to do is just cover 
maybe three of the most important.
    Mr. Regula. Okay. Please highligt them.
    Mr. Toya. The first one is an irrigation project that we 
would like to request which is at a phase three level. We have 
some photos here that kind of talk about phase one, phase two 
and phase three.
    Mr. Regula. Is this for agriculture, irrigation for 
agriculture?
    Mr. Toya. Irrigation for the natural resources from the 
Bureau of Indian Affairs. We are requesting roughly about the 
same as on phase one, we have got a previous $1.4 million that 
we never completed the phase three and that is what we are 
requesting this time at about $3 million.
    Mr. Regula. Would this provide for deeper ditches to bring 
in the water?
    Mr. Toya. The ditches and then also some leveling for 
maximum use of the water for the pueblo.
    Mr. Regula. Right.
    Mr. Toya. What we want to do is really complete the last 
phase. We also want to thank and commend the appropriation 
committee for allowing us for the two phases that were 
completed and those are really successful and we want to look 
into the phase three and we want to complete that as well.
    Mr. Regula. What do you grow in the areas that are 
irrigated?
    Mr. Toya. We grow traditional corn, chiles, all the 
vegetables that we can grow that is allowable within the 
season, you know, traditional corn, chiles, wheat, and alfalfa.
    Mr. Regula. I understand. Do you market any of the 
products, or do you just use them for your own consumption?
    Mr. Toya. Well, right now, for our own consumption. 
Commercializing some of these could probably be an opportunity 
that we would like to also look into as well.
    Mr. Regula. If you had more irrigation, you could grow 
excess--
    Mr. Toya. Yes, we have----
    Mr. Regula [continuing]. To take to the market.
    Mr. Toya. We have the land base to do so, and all we need 
to do is to improve our systems to incorporate that.
    Mr. Regula. Do you use tractors, modern machinery?
    Mr. Toya. Now we do because of the fast changing paces of 
times.
    Mr. Regula. Okay.
    Mr. Toya. And then the next one here is the United States 
versus Abousleman, a stream adjudication thing that we are in 
right now, and there is a very good project that we have got 
right now that has done a lot of efforts and progress in this. 
And in order to get to the negotiation table with the non-
Indian ditch associations, three of our tribes--you know, 
Jemez, Zia, and Santana--all have successfully come together to 
work a rotation schedule in the drought stages when the water 
is low. We were able to succeed with that, at least the 
rotation schedule, and sharing the Rio Jemez Basin during the 
drought stages, and this is what we are trying to do in efforts 
of negotiation as the Federal court has recommended for us to 
do instead of going to a litigation mode, which will take, 
obviously, lot of number of years to complete this.
    Negotiation has been going real well, and I think we are 
really improving on that. If we can perhaps increase our 
funding, I think all of us could really sit down again and 
really improve on the rotation schedule, and even the 
principles of agreement to avoid the litigation process, 
perhaps, and negotiate and really get somewhere with this 
adjudication process on the water rights.
    Mr. Regula. Okay. Any other point you want to make? We have 
about a minute left.
    Mr. Toya. Okay. The law enforcement, again, obviously a lot 
of people are mentioning it about Indian country, and it is on 
there. And the last one is the highway bypass that runs to the 
right of Jemez country. We want to do that and move that over 
to the east end, and then the testimony really explains in 
detail for the following reasons why----
    Mr. Regula. How many members are in your tribe?
    Mr. Toya. There is a little over 3,000 right now.
    Mr. Regula. Okay. Thank you very much.
    Mr. Toya. Thank you very much.
    [The statement of Vincent Toya follows:]

[Pages 214 - 217--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

ROBERT BROWN, CHAIRMAN OF THE BOARD, SOUTHERN INDIAN HEALTH COUNCIL, 
    INC.
JOSEPH E. BULFER, EXECUTIVE DIRECTOR, SOUTHERN INDIAN HEALTH COUNCIL, 
    INC.
MICHAEL GARCIA, EWIIAAPAAYP BAND OF MISSION INDIANS
DENNIS TURNER, MANZANITA BAND OF MISSION INDIANS
JAMES HILL, LaPOSTA BAND OF MISSION INDIANS
KENNETH MEZA, JAMUL BAND OF MISSION INDIANS

    Mr. Regula. Next is the Southern Indian Health Council. As 
I understand it, you represent seven tribes. Is that right?
    Mr. Brown. The last time I was here, you were going to come 
out. You couldn't come out, so we brought some of the tribal 
chairmen with us.
    Mr. Regula. I am sorry I was unable to come to visit.
    Mr. Brown. We brought some of the tribal chairmen from our 
area. Do you remember last time when we testified you were 
worried about areas? So I brought some of the tribal chairmen 
up and some of the representatives that we represent in the 
health clinic.
    Mr. Regula. Yes. For the reporter, let's get your----
    Mr. Brown. We will do it right now. Michael?
    Mr. Garcia. My name is Michael Garcia. I am a 
representative from the Ewiiaapaayp Band of Mission Indians, a 
member of the Southern Indian Health Council.
    Mr. Turner. I am Dennis Turner. I am asked by the 
chairperson to be here today, Frances Shaw, who just got out of 
the hospital from an extensive operation, for the Manzanita 
Reservation.
    Mr. Bulfer. Joe Bulfer from the Southern Indian Health 
Council, Executive Director.
    Mr. Hill. James Hill from the La Posta Reservation.
    Mr. Meza. Kenneth Meza, tribal chairman for Jamul Band of 
Mission Indians.
    Mr. Regula. Okay. Tell me why you are banded together. 
There are seven of you.
    Mr. Brown. Okay. We are going to do that right now, 
Congressman.
    Mr. Regula. Okay.
    Mr. Brown. The health clinic serves--this is what we call a 
consortium in our area, and we serve 8,000 Indians, and these 
are all of the different tribes that we serve--8,000 Indians 
that we serve. I am sorry about that. But the last time we were 
here, you wanted--so we brought some with us this time.
    Mr. Regula. How do you serve them?
    Mr. Brown. Okay. At this time I will let you turn that over 
to Joe. Go ahead, Joe.
    Mr. Bulfer. I want to thank you, Chairman Regula for 
letting us make the presentation. As our Chairman Robert Brown 
said, we serve 8,000 people. We serve the health needs of the 
people on seven reservations in the San Diego County area. Of 
course, you just had an introduction of the people that are 
here.
    Mr. Regula. You have a central clinic?
    Mr. Bulfer. Right. We have a clinic that the seven 
reservations banded together to form to operate because not one 
reservation can provide the services, and it is sort of an 
economy of scale.
    Mr. Regula. Are you in Arizona?
    Mr. Bulfer. California, the San Diego area.
    Mr. Regula. San Diego.
    Mr. Bulfer. Yes.
    Mr. Regula. Okay.
    Mr. Bulfer. About 70 miles east of San Diego. In the rural 
area of San Diego.
    Mr. Regula. Right, right. You band together for schools, 
too?
    Mr. Bulfer. No. The individual reservations serve their 
individual needs.
    Mr. Regula. You just do health?
    Mr. Bulfer. We do health. And we are here representing the 
two items. One is the Indian Health Service budget, and the 
second item is a specific Youth Regional Treatment Center. I 
wanted to get into maybe that area, and then we could sort of 
have a couple of the other tribal representatives and chairmen 
speak.
    Mr. Regula. Okay.
    Mr. Bulfer. Basically, what we wanted to do is to--
obviously there are a number of issues that we could talk 
about, but we wanted to get it down to the two most important, 
we felt.
    The most important one overall is the fiscal year 
1999Indian Health Service budget. As you are probably aware, the IHS 
budget has a service and a facilities component. The total budget is 
$2.118 billion that was presented. That is--you know, the testimony is 
being submitted. There are a lot of details in there. But, in essence, 
the problem, it really comes down to almost like a breach and a 
violation of trust. The tribes, throughout the fiscal year last year 
and early this year, have gotten together with Indian Health Services, 
and we were of the understanding that $2.271 billion, a difference of 
$153 million, would have been submitted. And yet it came out to be only 
$2.118 billion.
    What happened, we tried to find out where the differences 
were, and we were not given any explanations whatsoever. When 
we got the budget, we got into it. We tried to figure out what 
they did do. They basically cut out a lot of the mandatory cost 
increases, pay increases and so on and so forth.
    That has been going on for the last 7 years----
    Mr. Regula. That is about the administration in submitting 
their budget in these areas.
    Mr. Bulfer. Yes, yes. And no one knows who did it. We just 
know that it was done.
    What we are very specifically here to request is that the 
$153 million be added back in. I am sure you have had testimony 
from the people about this, and I know that, for example, the 
Susanville group gave a detailed breakdown of the $153 million 
in their testimony.
    Mr. Regula. You think it would be at least at 1998 levels.
    Mr. Bulfer. At least. And what has happened over the last 7 
years is it has been estimated that $1.12 billion has been cut 
out of our budgets, and we have had to absorb in terms of cost 
increases and things.
    The real problem that is a result of all this is our 
mission, we are being able to serve less people. In IHS 
documents and everything, it is very apparent that the budget, 
as of last year, was only able to serve 36 percent of the 
people, 36 percent of the need.
    Mr. Regula. You are talking about generally, not just your 
group.
    Mr. Bulfer. Generally, yes.
    Mr. Regula. Generally, 36. So the tribe has this problem.
    Mr. Bulfer. Yes. Just to give you an idea of the magnitude 
of this, 36 percent, it is also estimated that an Indian person 
receives only $1,382 per year in health services versus $3,261 
a year for a non-Indian. So the point of this is that if there 
is such a difference, discrepancy, why are cuts being made to 
the Indian Health Service budget.
    Mr. Regula. Well, I can't answer that because we didn't 
write it.
    Mr. Bulfer. So what we are asking for is the $153 million 
to be added back in.
    Mr. Regula. We are going to have to ask the administration 
when they appear here as to what their rationale was.
    Mr. Bulfer. It is extremely urgent. It is even different in 
the BIA budget. The BIA budget had cost increases and stuff 
added in there. Why are they hitting the IHS budget?
    Mr. Regula. Well, that is a good question, and I don't have 
an answer.
    Mr. Bulfer. The next item was the Youth Regional Treatment 
Center. I think for the last few years, the last 10 years that 
I can remember, we have been coming back; we have been trying 
to get a Youth Regional Treatment Center started in California. 
In fact, we have been trying to do that all across the country.
    Mr. Regula. You want to get one for your seven members.
    Mr. Bulfer. Right.
    Mr. Brown. It will actually serve all of California.
    Mr. Bulfer. All California.
    Mr. Regula. Oh, to serve all of California. Would this be 
for youth at risk?
    Mr. Bulfer. Any substance abuse treatment. We want an 
inpatient treatment center. There is not one in California, and 
what has happened, there was a breakthrough last year with 
California Indian tribes. An act was passed in 1986 that 
mandated the establishment of Youth Regional Treatment Centers. 
The other 11 areas--there are 12 in the country. The other 11 
areas were able to get one started up.
    California is so big, has over 100 tribes. The territory is 
diverse. We were not able to get it started because the funding 
is woefully short. So what we did is we all got together and 
decided, how can we get two or three programs to get it going? 
We did.
    Mr. Regula. Well, you need more than one for California.
    Mr. Bulfer. We do.
    Mr. Regula. It is too big.
    Mr. Bulfer. We do. So that act was amended, and we got two. 
We wanted one in the north, one in the south. But we were able 
to get two or three different programs initially going.
    The Southern Indian Health Council went out on its own and 
decided we are going to build a facility. One of the problems 
is another program went and, you know, got an Army base. We are 
doing things way above normal to try to get something started. 
The problem is the YRTC funds can only be used for----
    Mr. Regula. Extra time because there are so many of them.
    Mr. Bulfer. Okay. The YRTC funds can only be used for 
operations. We had to build a facility. We went out and 
borrowed money, loans. We have almost a million--we are 
building a million dollar building.
    Mr. Regula. Do any of you have casinos? Do you have a 
casino? Does that help?
    Mr. Brown. With health, no.
    Mr. Bulfer. No casino revenue goes to the health 
consortium.
    Mr. Brown. No casino revenue goes to us.
    Mr. Regula. Where does it go?
    Mr. Brown. It goes back to tribal enterprise. Remember, the 
health organization is a corporation. The tribe--it is not part 
of a tribal line item budget, so they do not help. They donate 
money to the clinics if they want to, but that is not----
    Mr. Regula. It seems to me if you have profits from your 
casino----
    Mr. Brown. We have two----
    Mr. Regula [continuing]. You would want to help them.
    Mr. Brown. We have--another member of our board is Barona. 
They have a casino. They donate a lot of stuff in programs, but 
they do not have--you don't have a moral thing to give us back 
if you are a corporation. It is like outside and inside, even 
if we are Indians. It is just a business enterprise, just like 
outside.
    Mr. Bulfer. I think it goes back to the treaty obligations 
where health is----
    Mr. Regula. Well, I understand that----
    Mr. Bulfer [continuing]. An obligation of the U.S. 
Government and should not be based upon means.
    Mr. Regula. I understand all that, but the reality is it is 
not happening, and it would seem to me that you would be 
concerned to the point that you would want to use some of those 
proceeds to help.
    Mr. Brown. Yes, I know, but as a tribal member from that 
reservation, when we put our budget together, there is not a 
line budget for Southern Indian Health Council in the budget. 
There is everything else the tribe operates. You know, that 
tribe does our own insurance and stuff like that, and that is 
how we meet the tribal needs. The other stuff is done by 
donations outside.
    Mr. Regula. One of the seven has a casino?
    Mr. Brown. Two of us.
    Mr. Regula. Two of you?
    Mr. Brown. Right. And so how that will help the casino, we 
get insurance and we use the casino. Then that becomes third-
party revenue. But that is how we do it, but they don't--and 
when they do the budget, tribal budget, we do nothave a line 
item in the budget for these things.
    Mr. Regula. Okay. What else do you have? We are running out 
of time here.
    Mr. Bulfer. The two requests we are looking for are that 
there is in that budget that is $153 million short, there is an 
increase of $9 million to the substance abuse line item. What 
we would like to see is half a million dollars go to each one 
of the 11 different other areas with $3.5 million going to 
California. The reason for $3.5 million is because we are 
behind the game with everybody else in getting a Youth Regional 
Treatment Center started. If we had that additional money in 
California, we could get something going.
    Mr. Regula. Okay. What else?
    Mr. Bulfer. And the second thing is to get $1.13 million 
allocated to Southern Indian Health Council. We would like to 
have you write or, notify the Director of the Indian Health 
Services to support $1.3 million of that $9 million to go to 
the Southern Indian Health Council.
    Mr. Regula. Okay.
    Mr. Turner. May I have one minute?
    Mr. Regula. Yes, one minute.
    Mr. Turner. On behalf of the tribal chairpersons that are 
not here, they wanted to thank you for especially last year's 
appropriations for the smaller needy tribes, and they very 
greatly appreciate that, especially those tribes that are not 
gaming. As you know, they want to move on to the next step, 
which is program, but, sir, I have seen the letters sent to you 
and the other committee members. We really appreciate that. 
That is going to----
    Mr. Regula. We do the best we can. It is just that we are 
constrained by the amount of money that is allocated to our 
committee, and this is the third day of hearings. Yesterday we 
had the same number of people that wanted energy projects, and 
the day before we had the same number of people that wanted 
parks and forests. You know, it is difficult to spread the 
money around with all the needs.
    Mr. Turner. Certainly. It is a historical issue, though, in 
Indian country because you have changed the Bureau's policy on 
their funding pro rata history.
    Thank you.
    Mr. Regula. We are trying. We are trying.
    Thank you very much. Did you want to say anything?
    Mr. Garcia. I am a member of the Ewiiaapaayp Reservation 
and a member of the Council, and I just think it is an urgent 
concern. The clinic is housed on the reservation, on our 
reservation, and we have a wonderful thing going.
    Mr. Regula. I will congratulate you for working together.
    Mr. Brown. We work together.
    Mr. Regula. At least by working as a team, you are going to 
do far better by your people than if you each went off and 
tried to do your own. That makes a lot of sense to me for you 
to cooperate.
    Mr. Brown. Can we get that in writing? Can we get that 
thing in writing? [Laughter.]
    Mr. Regula. It will be in the record. The young lady is 
taking it all down over here.
    Mr. Brown. Thank you.
    Mr. Regula. Okay.
    Mr. Bulfer. Thank you, Congressman.
    Mr. Regula. You are welcome.
    [The statement of Robert Brown follows:]

[Pages 224 - 228--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

LORRAINE P. EDMO, EXECUTIVE DIRECTOR, NATIONAL INDIAN EDUCATION 
    ASSOCIATION
JOHN CHEEK, LEGISLATIVE ANALYST

    Mr. Regula. National Indian Education Association.
    Ms. Edmo. Good afternoon, Congressman Regula, chairman of 
the committee, and Joel Kaplan, staff member. I want to 
introduce myself. I am Lorraine Edmo. I am the executive 
director of the National Indian Education Association. Our 
president, Yvonne Novack, couldn't be here. She is from 
Minneapolis, Minnesota, and couldn't be here today. But I 
wanted to acknowledge our past president, one of our past 
presidents, Ms. Lorena Zah Bahe, who just testified, who is 
seated right behind me. She was our president from 1995 through 
1996 and did a great job in advocating for the interests of 
Indian people nationwide.
    I also wanted to introduce John Cheek, who is our 
legislative analyst, and he is a member of the Creek Nation. My 
tribe is the Shoshone----
    Mr. Regula. Figure out what we are doing, is that the idea?
    Mr. Cheek. Yes.
    Mr. Regula. You read it. Does it make sense?
    Mr. Cheek. I wrote it. [Laughter.]
    Ms. Edmo. No, what they are doing.
    Mr. Cheek. Oh.
    Mr. Regula. You are the legislative analyst, so I assume 
that means you try to analyze what we are trying to do.
    Mr. Cheek. I try.
    Mr. Regula. Okay.
    Ms. Edmo. Our organization has been in business for over 30 
years, and we represent American Indian and Alaska Native 
educators throughout the United States.
    Mr. Regula. The whole country.
    Ms. Edmo. The whole country. We have over 3,000 members. 
There are program administrators, educators, students. There is 
a whole range of Indian educators that we represent. They are 
dues-paying members, so we are not government funded. But we 
try to advocate for the concerns of Indian educators 
nationwide.
    You have a detailed testimony here of all of the----
    Mr. Regula. It will be part of the record.
    Ms. Edmo. Yes, all of the programs that we are 
recommending. We reviewed the President's budget and we support 
all of his recommendations for education funding, especially 
the school operations funding.
    Mr. Regula. Let me ask you, is the Indian education system 
overall improving?
    Ms. Edmo. Yes, it is.
    Mr. Regula. You are becoming more relevant to the students' 
needs?
    Ms. Edmo. Yes, I believe so. We have--about 12 percent of 
the Indian student population is in the Bureau school system, 
and the other 80--what is it?--88 percent is in the public 
school system.
    Mr. Regula. You only cover the 12 percent with people that 
are part of your organization?
    Ms. Edmo. No. We represent all, the students, too, in the 
public schools.
    Mr. Regula. Okay.
    Ms. Edmo. We work directly with the Office of Indian 
Education, Dave Bolio's office, over at the Department of 
Education, and all of those set-asides that are--like Title I 
and other set-asides for Indian education.
    Mr. Regula. You would represent schools that have public 
students--non-Indian students as well as Indian students; is 
that correct?
    Ms. Edmo. Right. Right.
    Mr. Regula. Okay.
    Ms. Edmo. And there are about an estimated 12,000 of those 
public schools that have Indian students in them.
    Mr. Regula. 12,000?
    Ms. Edmo. 12,000 public--right, John, 12,000?
    Mr. Cheek. Public school, 1,200.
    Ms. Edmo. Oh, sorry. It is 1,200.
    Mr. Regula. Are you getting more students that go on and 
finish 12 years of school?
    Ms. Edmo. Yes.
    Mr. Regula. Are students staying in school longer?
    Ms. Edmo. Well, the dropout rate is still a problem. I 
don't think it is as high as the Hispanic rate. Their rate is 
around 30 percent dropouts. Ours is about, I think, 26 percent. 
But of those that do finish high school, there are, I think, 
about 20 percent--20 to 30 percent of those that finish high 
school go on to college, and then those that do finish college, 
of that 20 to 30 percent, about 7 to 10 percent actually 
complete college.
    Mr. Regula. Are you getting those that go on to college to 
come back and be teachers?
    Ms. Edmo. I think there is an increasing trend in that. But 
I just wanted to say that we do need--just one of the major 
points in my testimony is that we need more money for graduate 
scholarships, and in the Bureau's budget, they only included 
$1.3 million for graduate scholarships. And I used to direct 
that program, and they need more funding for graduate 
education.
    Mr. Regula. Okay.
    Ms. Edmo. And we do support the IHS health professions 
funding as well. And I wanted to also point out the Institute 
of American Indian Arts, we would like to see that funded 
beyond 1999, if at all possible.
    But we do have all of these programs outlined in detail, 
and if you need any more information, we can provide that to 
you.
    Mr. Regula. Okay. You have the community colleges, too.
    Ms. Edmo. Well, we work with the American Indian Higher 
Education Consortium, and we support their funding level. I 
think it is--$5.5 million more is requested for 1999 in the 
Bureau budget.
    Mr. Regula. Okay. Well, thank you very much.
    Ms. Edmo. Thank you.
    [The statement of Lorraine Edmo follows:]

[Pages 232 - 235--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                       NATURAL RESOURCE PROGRAMS

                                WITNESS

SAMUEL N. PENNEY, CHAIRMAN, NEZ PERCE TRIBAL EXECUTIVE COMMITTEE

    Mr. Regula. Next is the Nez Perce Tribal Executive 
Committee.
    Dan.
    Mr. Miller [presiding]. Welcome. Congressman Regula has to 
step outside. I am Congressman Dan Miller. Welcome.
    Mr. Penney. Thank you. Good afternoon. On behalf of the Nez 
Perce Tribe, we appreciate this opportunity to testify here 
today. We have several items.
    First of all, we have a wolf recovery program in which the 
Nez Perce Tribe contracts with the Fish and Wildlife Service to 
implement grey wolf recovery within the State of Idaho, and we 
believe this is the only effort in the Nation in which a tribe 
has taken a lead on the recovery of an endangered species.
    Last year, Senator Kempthorne, among others, helped us get 
$300,000 for our wolf recovery program, but we are in the third 
year of a 5-year cooperative agreement, and there is a need for 
recollaring many of the wolves that have been released. So we 
believe there is an additional need for this coming year, 
upwards to $400,000, to continue the monitoring efforts in the 
recovery program for the grey wolf reintroduction in the State 
of Idaho. It has been a very successful program up to this 
point.
    Also, it has been, compared to other areas, the project is 
badly underfunded, and we need to do the work over an area of 
almost 15 million acres in which we monitor now upwards to 70 
wolves, and some of the offspring need to be collared as well. 
So it is an important project, and we request through the 
Interior to the Fish and Wildlife Service that $400,000 be 
provided for continued effort on the grey wolf reintroduction.
    The second issue is called a cadastral survey. On our 
reservation, because of the way that the reservation is 
checkerboarded, there are many disputes over land ownership. 
What a cadastral survey does is it goes back in and re-
establishes the correct boundaries. There have been some 
disputes both ways. We have found that the tribe, the Nez Perce 
Tribe, has even trespassed onto non-Indians' land on a timber 
sale in which we had to compensate them for that trespass. But 
the whole intent of the cadastral survey is for land management 
purposes, that we know exactly where the lines are so that we 
can effectively manage those resources.
    The BLM has established a cadastral survey station on the 
Nez Perce Reservation, and we have an agreement with them over, 
I believe, 5 years. But at the current rate, it only will meet 
about 10 percent of the need for those re-surveys on those 
areas of concern. So we are going to request that at least an 
additional $200,000 be provided for that effort.
    Also, regarding the Indian Health Service, we are very 
disappointed with the administration's fiscal year 1999 request 
which includes no increases for inflation, population growth, 
or staffing of new facilities. Most of the programs are 
severely underfunded, and I think that many of the reports that 
are available to Congress will show that the Indian Health 
Service budget has never kept pace with inflation as compared 
to other health programs within the Federal system. So we feel 
it is vital to provide the necessary funding to continue those 
vital services for Indian tribes.
    Also, I would like to mention law enforcement. There are 
many new initiatives not only within the Department of Interior 
but the Department of Justice for additional funding for Indian 
tribes. And there is an interesting statement that has been 
developed. It says that while the overall murder rate in the 
Nation has dropped 22 percent between 1992 and 1996, the murder 
rate in Indian country increased by 87 percent during this same 
period.
    In August of 1997, President Clinton issued a memorandum to 
Attorney General Janet Reno and Interior Secretary Bruce 
Babbitt directing them to improve law enforcement and criminal 
justice in Indian country.
    For example, our tribal law enforcement currently only has 
a full-time staff of seven--excuse me, six officers that are 
required to be on 24 hours, 7 days a week, and there is a need 
for probably 12 officers just to meet the basic needswithin our 
reservation. So the initiatives regarding increased law enforcement I 
think are very well founded.
    I would like to also mention about what they call IHS joint 
venture projects in which the tribes would basically construct 
a new facility and IHS would provide the staffing and equipment 
for those facilities. For example, the Nez Perce Tribe, on the 
criteria used for new facility construction under IHS, we have 
found over the years that we will never get on that list. So 
the joint venture project is important to us, if we expend the 
funds for construction, that the funds be available through IHS 
to staff with equipment and so they will be there for many 
years to come.
    I would like to conclude my comments with the Snake River 
Basin adjudication, commenced by the State of Idaho in 1987, 
and it has been 10 years up to this point regarding the 
negotiations. This is--we believe and have been told that this 
is the largest adjudication in the entire country, which covers 
the entire Snake River Basin.
    In years past, we have been funded through the BIA Indian 
Rights Protection account, Water Rights Negotiation and 
Litigation Program for the tribe's work and participation in 
the Snake River Basin adjudication. We feel that in fiscal year 
1999 there is a definite need and a request of about $710,000 
to be made for our full participation in the Snake River Basin 
adjudication.
    The administration has also requested an increase of $3.5 
million for the Water Rights Negotiation and Litigation 
program, and we hope that Congress will approve this increase 
because of the vital nature of the water rights on behalf of 
the tribes.
    I would like to thank you for this opportunity and I would 
be happy to answer any questions.
    [The statement of Samuel N. Penney follows:]

[Pages 238 - 241--The official Committee record contains additional material here.]


    Mr. Miller. Let me just ask one question about the wolf 
recovery program. There is a wolf program in Yellowstone. Is 
this a similar program?
    Mr. Penney. It is a similar program. As I mentioned, I 
think the Nez Perce Tribe covers upwards to 50 million acres 
and I think the effort in Yellowstone is about 3 to 5 million 
acres, so we cover almost twice, almost three times as much 
area with much less funding than the Yellowstone.
    The goal of the program, the goal for delisting would be 
that there be 10 breeding pairs for three consecutive years, 
but in the delisting effort, the Idaho program, which is 
administered by the Nez Perce Tribe, along with the Yellowstone 
program, they will be evaluated overall on their success for 
eventual delisting.
    Mr. Miller. Are you seeing any benefits from the wolf 
reintroduction?
    Mr. Penney. I think there has been. We have made a 
tremendous effort to work with the ranchers and other people in 
the community. Education is part of the effort of the tribe, 
along with the monitoring, so we can tell people that the 
wolves are in their area and that if there are any problems, we 
will come in and try to address those concerns.
    There have been reports that there were statewide 16 
depredations that they attributed to the wolves, but after the 
initial investigation they found that only two were 
attributable to the wolves.
    Mr. Miller. Thank you very much for being here today.
    Mr. Penney. Thank you.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

KENNY MALLORY, CHAIRMAN, WINNEBAGO TRIBE OF NEBRASKA
    Mr. Miller. Next we have Kenny Mallory, chairman of the 
Winnebago Tribe of Nebraska. Welcome.
    Mr. Mallory. Mr. Chairman and Committee, first of all, I 
want to thank you for the opportunity and the occasion to 
address some of the concerns of the Winnebago Tribe. It is with 
some regret that I even seek the Committee's assistance and 
support in some of the funding programs we have needed in the 
past and in the future. I feel that in some ways it really 
diminishes the meaning of sovereignty to Native Americans, but 
the need continues to be there, so the requests continue to 
come.
    There have been occasions where I have found that being 
brief has gotten me my most mileage and impact, and I am going 
to try that today.
    We have written testimony. We have presented nine concerns 
in regards to Winnebago people. I would like to address the 
three most important because without the three most important, 
the other six are really meaningless. Those concerns happen to 
be in the area of our hospital, law enforcement and education 
to Native American people.
    As you may or may not know, we have been waiting 10 years 
to build a hospital in Winnebago. It seems like we get so 
close, only to be denied, for the last six or seven years, 
anyway. Today we are at a point where we have a shortfall of 
$650,000 to complete the first phase of this project. If ithad 
gone on on a regularly scheduled basis, that shortfall probably 
wouldn't even be there.
    We are experiencing the same cost problems when we, and 
should we ever get to the construction part of it, this 
facility at one time was going to cost $20 million. Today, with 
the delays of nine years, we are looking at a $43 million 
facility.
    Our number one concern is that somehow we get over the 
final hurdle and the construction of that hospital begin. Our 
testimony will identify the impact and the need for such a 
facility.
    The other area I would like to--and it is an old facility. 
It was built in the 1930s. It has served its purpose and we 
need to go on from there.
    The other issue, Mr. Chairman, is law enforcement services 
to Native American people. I am sure many people before me 
today have brought up that same concern, so I won't dwell a lot 
on it. We urge the Subcommittee to support the Administration's 
request for $25 million to the BIA law enforcement program. And 
the Winnebago Tribe is seeking an $8 million request to build 
our own detention law enforcement facility in Winnebago.
    The costs that we incur for sending prisoners 100 miles 
away to be incarcerated and the costs we pay for having 
juveniles held in detention facilities is almost prohibitive. 
It really uses up the resources we do have. We feel that there 
is a great need for that on our reservation and we certainly 
request this Committee's support in that type of funding. We 
think, as a tribe, we can do some cost-sharing if that was made 
possible to us.
    The third and final concern that I have is for the 
education of Native American people all over America. I am 
speaking about our college but it affects the 26 of the 30 
Indian colleges that are in existence today. I would request 
that this Committee support a $5.5 million increase in funding 
for Indian colleges throughout the United States. I believe 
that is important.
    Sir, I think that takes me to the end of my report. I just 
hope that the brevity has been enough to impact you to where 
you will take a closer look at the Winnebago Tribe's testimony.
    [The statement of Kenny Mallory follows:]

[Pages 244 - 247--The official Committee record contains additional material here.]


    Mr. Miller. I have a question about your hospital. How 
large a hospital do you have?
    Mr. Mallory. It is probably a 15-bed facility at this 
point. It is old. Many of the services are just not practical 
there anymore.
    Mr. Miller. How many physicians?
    Mr. Mallory. We have three physicians and two practicing 
physicians.
    Mr. Miller. As you know, throughout the country hospitals 
have been closing all over the United States because people 
spend fewer days in a hospital than they used to 10 or 20 years 
ago. Health care is so different.
    Mr. Mallory. Well, our hospital probably serves maybe 
20,000 Native American people in the urban areas of Sioux City 
and Omaha. The Omaha and the Winnebago Tribe, the Santee Tribe 
and many people come from the western part of the state. It is 
really the only Indian Health Service hospital in that area. It 
serves a lot of people. The set-backs that we continue to face 
are really a disappointing situation to those 20,000 people.
    Mr. Miller. Where would the nearest hospital be for those 
20,000 people?
    Mr. Mallory. For Native Americans?
    Mr. Miller. For anybody.
    Mr. Mallory. Well, there is good medical services in Sioux 
City, Iowa.
    Mr. Miller. How far away would that be?
    Mr. Mallory. About 15 miles away, but that is not 
necessarily available to Native American people, who can't pay 
for most of their medical services. If we went to a facility 
that would accommodate our needs and recognize the type of 
money we make, I think we would have to go to Rapid City or 
Pine Ridge, which is 300 or 400 miles away from Winnebago.
    It is the only public health hospital within, I would say, 
a 300-mile radius of the Sioux City area.
    Mr. Miller. Thank you very much for being here today. We 
appreciate your testimony.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

ROBERT CHICKS, CHAIRMAN, STOCKBRIDGE-MUNSEE COMMUNITY BAND OF MOHICAN 
    INDIANS
    Mr. Miller. Next we will have Mr. Bob Chicks, chairman of 
the Stockbridge-Munsee Community Band of Mohican Indians. We'll 
see if I pronounced everything correctly.
    Mr. Chicks. You did.
    Mr. Miller. Thank you. Welcome.
    Mr. Chicks. Good afternoon. My name is Bob Chicks. I am the 
chairman of the Stockbridge-Munsee Band of Mohican Indians and 
I appreciate the opportunity to appear here today to present 
testimony on behalf of my people.
    This will be the third year in a row that we have appeared 
here seeking assistance with two specific projects. One is a 
waste water treatment facility; another is a new health 
facility.
    I want to address the waste water treatment facility first 
because that is really the most serious of the needs in our 
community. In the three years since we have been appearing 
here, we have some good news and some bad news, I guess. The 
good news is that we were able to achieve a joint venture with 
HUD and IHS to help upgrade our lagoon system, which is going 
to help service a small area of homes in one of our housing 
areas. So that is the good news.
    The bad news is that during the course of the three years 
the residential areas that are serviced by individual septic 
systems have grown a lot worse. They are aging systems that are 
now contaminating the water supply and in one area whereour 
tribal offices are located, the water systems have been contaminated to 
the point where they are nonusable, nondrinkable. And IHS is telling us 
that this is going to repeat itself in the adjoining residences.
    So really replacing those individual systems is not an 
option. The only way that we are going to alleviate that 
problem is to construct the master waste-water treatment 
facility, and that is one of the reasons that we are here 
today, is to seek assistance in the building of that.
    And that follows into the second thing that I want to talk 
about, is the development of a new health center. We do have a 
health center currently. It is about 25 years old. However, 
since about 1992 it has been failing the IHS deep look surveys, 
and adding onto it is not an option any longer.
    One of the reasons we don't want to add onto it in its 
present location is that it, too, is located in this corridor 
of groundwater contamination, so it would just continue to add 
to the problem. We want to move it away from that area and 
reconstruct it in an area that we feel will have a better water 
supply, as well as the need to really double its size.
    The Stockbridge Tribe is located on an adjoining border 
with both the Menominee Tribe in Wisconsin and within 15 
minutes of a Hochuck settlement. So we really service three 
pockets of Native Americans in our area, as well as other 
tribal people who live in our reservation, as well as a number 
of local residents who use our facility simply because we are 
in a very rural area and they really have no access to primary 
medical care, either.
    We were successful in obtaining a $300,000 CDBG block grant 
from HUD that would go towards the partial construction of this 
new clinic. However, we still are about $2.8 million short. The 
only way that we will really be able to construct that facility 
is if we are able to get some additional assistance.
    The third and final thing that I want to discuss today is, 
as you have heard from some of the tribes earlier this morning, 
one of the tribes from Wisconsin were here, the Oneidas, and 
talked about the IHS joint venture project. Our tribe, as well, 
wants to pursue that. We have found in the past that joint 
venture projects have worked well for us.
    Obviously building the facility is one thing but staffing 
it, maintaining it and operating it is quite another. I think 
for us, as well as for the tribes that are in this joint 
venture project, it is probably one of the only ways that we 
will be able to maintain and operate our facilities in the 
manner that is going to provide the type of health services to 
our people that is appropriate and needed. Thank you.
    [The statement of Bob Chicks follows:]

[Pages 251 - 254--The official Committee record contains additional material here.]


    Mr. Miller. You don't have a hospital?
    Mr. Chicks. No, we don't. Our people must travel upwards to 
an hour or maybe more to seek the in-patient care. And really 
that is one of the problems with our health centers is that 
they are not large enough to provide all the kinds of services 
like prenatal care. It is particularly difficulty for the 
elderly and in the winter we have to travel these great 
distances. If we were able to construct a larger facility, we 
probably could offer physical therapy, prenatal care, things 
like audiology services, things like that, and that would be of 
great assistance, particularly to our elders. Driving is always 
a hardship but in the winter it really presents another danger.
    Mr. Miller. Regarding your gaming operation, do you run it 
or do you contract that out?
    Mr. Chicks. No, we run that.
    Mr. Miller. Is it on the reservation itself?
    Mr. Chicks. Yes, it is. We do employ a great number of our 
tribal members. The tribe itself is the largest employer in our 
area, so we do employ people in areas like health services, 
housing, tribal administrative services. But really about two-
thirds of the employees are nontribal members.
    Mr. Miller. Thank you very much for being here today.
    Mr. Chicks. Thank you.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

BRUCE WYNNE, CHAIRMAN, SPOKANE TRIBE OF INDIANS
    Mr. Miller. Next we will have Bruce Wynne, who is chairman 
of the Spokane Tribe of Indians. Welcome.
    Mr. Wynne. Thank you, Mr. Chairman. I appreciate the 
opportunity and the honor to come to testify before you today. 
I will keep it as short as I can.
    Actually, we support the $34 million increase in the 
President's budget for the tribal priority allocation. We have, 
at the Spokane Tribe, at this moment a $2.5 million unmet need 
in our tribal priority allocation and specifically about 
$116,000 for tribal courts. And as you know, tribal courts are 
under scrutiny right now and tribal courts do need to be 
upgraded so that they can make sure that people are given due 
process within the laws of the tribe.
    Also, we are asking for $588,000 for the Midnight Mine 
clean-up process so that we can provide oversight from the 
tribal point of view and make sure that that mine is cleaned up 
properly. We have a very strong concern about whether or not 
the federal agencies and the company are going to treat the 
clean-up of Midnight Mine properly, so we need to provide that 
oversight for the tribe.
    Also, we are asking for $1 million from the Rights 
Protection Office in the Bureau of Indian Affairs for the 
governance process that is taking place within the Columbia 
Basin. That process is a process that the tribes, the 13 Basin 
states, the fir states in the Northwest and the federalagencies 
that are concerned with the Columbia Basin are working in conjunction 
to provide a governance mechanism for the Columbia Basin because there 
has never really been a formal mechanism to make sure that that basin 
and the dam system on the basin operate correctly. So we are asking for 
$1 million for the 13 tribes to participate in the process of 
implementing our governance for the whole region.
    We are very concerned about the implementation of the 
strategic plan for the Office of Special Trustee. This is in 
the area of policy. We think that the tribes do have to have 
their input and their input has to be recognized in how that 
office should operate. So we are very concerned about that.
    We also support the $5.5 million increase for tribal 
colleges. Actually we believe that $2 million more would be 
necessary and the reason for that is on a per-student basis, 
tribal colleges are underfunded, under the level of community 
colleges and other agricultural colleges throughout the 
country. It is a very sizable amount that the Indian colleges 
are underfunded in that area. So we would ask for that.
    Also we support the $25 million increase in the Bureau of 
Indian Affairs allocation for law enforcement because, as 
everybody has probably already testified up to now, the law 
enforcement agencies on reservations are very, very unfunded 
and understaffed and they have to cover a very large area, so 
that is necessary.
    We are concerned about the Indian Health Service budget. 
Actually within the last 10 years or maybe longer, Indian 
Health Service budget has been essentially level, but it has 
never met the needs in terms of inflation, in terms of 
population increases and in terms of medical inflation, 
actually. So by staying level, it is $130 million actually 
underfunded because of that lack of increases over the years. 
So health services for Indians has suffered accordingly.
    Representative Nethercutt will be asking the Committee for 
a $500,000 add-on for the purpose of providing modular units 
for the increased capacity for the IHS service unit clinic from 
Indian Health Service, so I would strongly support Mr. 
Nethercutt's efforts.
    I also want to applaud and offer our thanks for Mr. 
Nethercutt's efforts in the area of diabetes prevention, so we 
support that fully. We also want to support the Northwest 
Indian Health Board testimony, which will be coming later, and 
the National Indian Education Association testimony. Thank you 
again for the opportunity. I would like to keep the record open 
so that we can provide more information about the governance 
process in the Columbia Basin. Thank you very much.
    [The statement of Bruce Wynne follows:]

[Pages 257 - 260--The official Committee record contains additional material here.]


    Mr. Miller. First of all, the Administration hasn't 
requested any increase for Indian health, so we have to work on 
that. Mr. Nethercutt is a fine member of this Committee. I am 
sorry he was unable to be here today.
    Would you comment briefly? Are you starting a tribal 
college?
    Mr. Wynne. We have one. We have a tribal college that is a 
branch college from the Saylor Scutine College in Montana, and 
we have a campus on our reservation from that college.
    Mr. Miller. How many students are enrolled?
    Mr. Wynne. About 200 students, I think, primarily part-
time.
    Mr. Miller. And how is that funded?
    Mr. Wynne. The tribal college? It is funded through the 
Bureau. Somebody else might be able to help you with that area.
    Mr. Miller. The state doesn't provide the money?
    Mr. Wynne. No.
    Mr. Miller. Thank you very much for being here today.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

MERVIN WRIGHT, JR., CHAIRMAN, PYRAMID LAKE PAIUTE TRIBE
    Mr. Miller. We have Mervin Wright, chairman of the Pyramid 
Lake Paiute Tribe. Welcome, Mr. Wright.
    Mr. Wright. Good afternoon, Congressman Miller. I want to 
thank the Committee for allowing me to take the time this 
afternoon to address our concerns related to the Interior 
appropriations bill.
    For the record my name is Mervin Wright, Jr. I am the 
tribal Chairman for the Pyramid Lake Paiute Tribe in Northern 
Nevada. We are a fishery tribe. Our traditional name is based 
on a prehistoric indigenous fish that is only found in Pyramid 
Lake and nowhere else in the world, which is called a cui-ui. 
We are known as the Cui-ui Ticutta, which is the cui-ui-eaters.
    So everything we do is linked to the water. All the things 
environmentally, water rights, all the struggles that are going 
on in the river basin are tied to our water. Traditionally 
speaking, we cannot treat that water in a bad way. We cannot 
make fun of it. We cannot speak in anger over it. We cannot do 
these things because that water is what we are.
    When we speak on behalf of a lot of the natural resources, 
our water is the staple of what we believe in.
    Also, just to back up a little bit, I did submit the 
written testimony, so I will be summarizing some of the items 
in there, and more so talking about the principal aspects ofwhy 
we are here in Washington, D.C. to testify before the House Committee.
    We appreciate the Congress appropriating $1.8 million last 
year through the 1998 Interior appropriations bill for our high 
school construction. We are requesting the remaining balance of 
$8.7 million to complete that construction. We have done 
everything by the rules. We have worked with the Bureau of 
Indian Affairs and we have met the obligations that were put 
upon us.
    I want to talk a little bit about the health care social 
services part of this. We do have a serious problem with the 
Indian Health Service on our reservation. A lot of the services 
are not being met. A lot of the funding cuts and the deficits 
that we are facing as a result of the bureaucracy and the high-
paying jobs from the headquarters office in Maryland all the 
way to the area offices in Phoenix.
    I do not appreciate to the least my own children, as well 
as other children, and elderly suffering by the result of 
misdiagnosis and prescribed drugs that do not treat the 
illnesses and diseases that we face on the reservation. 
Especially when prescriptions are brought home and questions 
are asked, ``What is this antibiotic? What is this type of drug 
that is being prescribed?'' and the response we get from the 
IHS doctors is, ``Well, it is a new drug. We are trying it 
out.''
    You know, we, as a people of this nation, should not be 
subjected to any kind of experiment. It is one thing to test it 
on animals and things like that but if they cannot produce the 
science and the research and the studies and the results of 
those studies, then put that in front of us so that we can see 
it.
    When we meet with our area director, IHS area director, 
they make comments like, ``Well, I wish I could put myself in 
your shoes.'' My response to that is, I wish that he could see 
his children suffer, see his people suffer the way we suffer. I 
am not afraid to say it because I am here on behalf of those 
people and a lot of times they cannot speak for themselves and 
that is what I am here to do.
    Mr. Miller. To use experimental drugs they need to disclose 
everything. Isn't that correct?
    Mr. Wright. We don't have that right now. We don't have 
that back-up information showing that these are safe new drugs 
that are----
    Mr. Miller. Are you sure they are testing new drugs?
    Mr. Wright. Well, we get the little sample bottles. That is 
what they tell us. They tell us that they are trying something 
new here and if it works, come back and we'll give you more, or 
whatever. But you cannot treat pneumonia with Dimatab. You 
cannot treat certain diseases with aspirin, and that is what we 
are dealing with.
    And when we have the Phoenix area budget cut to a point 
where our service unit, which more or less would be the agency, 
has to transfer money from our contract health services to buy 
pharmaceuticals, our people in those situations where there are 
emergencies cannot be treated and hospitals are turning them 
away because right now we are still receiving bills, our 
patients on our reservation are still receiving bills from last 
year that the service unit is not paying because IHS in the 
Phoenix area office are too worried about paying these high-
salaried positions, rather than funneling that money to where 
the care is really needed.
    So when we take a look at IHS, and the same principle could 
be applied to the BIA, it is the bureaucracy that absorbs all 
the funding.
    Mr. Miller. How large of an Indian Health Service program 
do you have on your reservation?
    Mr. Wright. We have a budget of about a half of a million 
dollars.
    Mr. Miller. Do you have a physician?
    Mr. Wright. We have commissioned doctors from the service 
unit that come on and provide that service. But a lot of the 
money ends up staying at the area. And when our service unit is 
cut funding, the service unit is more or less forced to make 
those changes within its own budget and the parameters there.
    The last thing I just wanted to talk about was the BIA 
reorganization. I know that Congress has worked on this in the 
past and we have dealt with it in a way of trying to mainstream 
the duties and the responsibilities. A lot of times again that 
money ends up at the agency and those folks--I can speak for 
the Western Nevada agency--they rarely come to the reservation, 
and they are the ones that are supposed to represent us on a 
lot of these issues at times when there are federal team 
meetings but yet they don't tell us anything. They don't talk 
to us before the meetings and they don't tell us what happened 
after the meeting. They don't talk about the issues they are 
deciding on.
    A lot of times they make decisions as a recommendation from 
one other agency that may have more authority or power in that 
room and they leave us holding the bag.
    I just want to say that Pyramid Lake Paiute Tribe will 
object to any anti-Indian riders that will be added to this 
bill. So if the Committee can work through all possible avenues 
to avoid these anti-Indian legislative riders, we would really 
hope that you guys can move in that direction.
    Mr. Miller. Thank you. Thank you for being with us today.
    Mr. Wright. Thank you.
    [The statement of Mervin Wright follows:]

[Pages 264 - 267--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

VERNER DUUS, CONSULTANT, NAVAJO AREA SCHOOL BOARD ASSOCIATION, INC.

    Mr. Miller. We have Verner Duus of the Navajo Area School 
Board Association. Mr. Duus, welcome.
    Mr. Duus. I appreciate the opportunity to be here today. I 
am glad that the Committee has continued these hearings.
    I am representing the Navajo Area School Board Association 
today. They are having a conference out in New Mexico and so 
they gave me the nod to go ahead and present their testimony 
today.
    My name is Verne Duus. From 1974 till about 1988 I was the 
director of that association and these last 10 years I have 
been employed with the Department of the Interior, most of that 
time as a negotiator with the Office of Self-Governance.
    Now I am back in the consulting business, so I will move 
forward with the testimony.
    Generally the Navajo Area School Board Association supports 
the '99 budget as it relates to BIA education. The testimony 
that I will give today points out some of those things but also 
deals with some long-standing and what we see as systemic 
problems that need to be acted on and at some point they are 
going to need creative fixing.
    The first one is school facilities. The school facilities 
budget with regard to school construction and facilities 
improvement and repair, we think is very constructive, very 
positive. It is not a one-year problem. We think that this 
level of effort, which is an increase overprevious years, 
particularly 1998, needs to be sustained for several years. But it is 
certainly a step in the right direction.
    Back 10 years ago when I was real actively involved with 
BIA education matters, I remember the number of $600 million as 
being the backlog for BIA facilities overall. In the 1998 
budget it was reported as $890 million.
    That reminded me of a personal experience of mine when I 
moved back to D.C. I got the bright idea that we should live on 
a boat. So we went ahead and bought an old boat. It was a 1968 
57-foot wooden boat. It had a lot of things wrong with it. I 
worked on weekends. I worked after I came home from work. 
Almost every minute that I had to spare, I spent sanding that 
boat or painting it, doing something like that.
    It reminds me that no matter how hard I work, the boat 
deteriorated faster than I could fix it. And that is what is 
going on generally with BIA school facilities. They are 
deteriorating at a more rapid rate than the appropriations will 
allow fixing.
    And that brings us to the second part of the school 
facilities issue; that is, facilities O&M. The operations and 
maintenance funds are simply not adequate to do the job.
    We have a study that was done out of Navajo--this is a 
Navajo-based study that went back to 1990 and then tracked the 
funding through 1998. In 1990 the need level and the 
appropriation level was about the same. In other words, it was 
adequate at that time or at least somebody at this point in 
time regarded it as adequate back then.
    Following through with the new square footage, the new 
allocation, et cetera, that amount is now regarded as 67 
percent of need. The constrained budget, in other words, is now 
67 percent, a reduction there in buying power of the dollars 
out there of 33 percent. That is hard for a school to deal 
with, that type of reduction.
    I tried to think, well, what is going on here? Why is this 
deficit occurring? Is the BIA not asking for the dollars? Is 
the Congress not appropriating them? I suspect that the answer 
lies that people aren't believing the numbers, perhaps. Maybe 
there is a lack of credibility in the numbers, both on the part 
of the Department and the Congress.
    And one of the things that we are going to do in the Navajo 
Area School Board Association is do an analysis that looks at 
the cost that the BIA is spending on its facilities, operations 
and maintenance and then comparing those costs to the public 
schools that are operating in the same general vicinity. So we 
will look at New Mexico BIA schools, for example, and then New 
Mexico school districts on the public school side and try to 
draw some comparisons from that.
    There are a lot of reasons why those numbers might not be 
comparable. The Bureau of Indian Affairs, for example, the 
janitors and maintenance workers are wage grade employees and 
they are paid on a scale that is mandated by law, and that 
scale happens to be quite a bit higher than the public schools 
pay. But that is a factor that we can build into that analysis 
and explain more fully.
    Mr. Miller. If you could bring it to a conclusion; we are 
getting a little bit behind schedule. I am sorry.
    Mr. Duus. Okay. A second thing--I will try to deal with the 
second one quickly--out on Navajo there are a lot of schools 
that are moving from BIA-operated status to grant school 
status. There are still 49 BIA-operated schools on Navajo and a 
lot of them have already made that decision. They are moving 
forward.
    It brings up two line items that are problems: 
administrative cost grants and what is called employee 
displacement or severance costs. We suspect and we fear that 
the amounts that are in the 1999 budget in these two categories 
are inadequate. The amounts are just about enough to pay for 
what will happen when these schools go grant status on Navajo, 
but what happens then in the rest of the country if a couple of 
schools are going to grant status and the Dakotas are excepted 
and then there is too little money again?
    It is a systemic problem related to where are on a two-year 
budget cycle on the one hand, and we have a very short time 
frame for authorizing and letting contracts and grants on the 
other. And so when they start the process and plug a number 
into the budget, they have no idea; the Bureau can have no idea 
what is going to happen in the ensuing two years before there 
is an appropriation.
    The 1998 budget that was taken care of----
    Mr. Miller. Is this included in your statement here? 
Because of the time, I am sorry to have to bring your testmony 
to a close--we have lots of people waiting, if you don't mind.
    Mr. Duus. I am taking too long. Okay, I will wrap it up.
    Mr. Miller. I feel bad. I wish I could learn more about 
this. Thank you very much.
    [The statement of Verner V. Duus follows:]

[Pages 271 - 274--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

CLARENCE ANTIOQUIA, CHIEF OF BUSINESS OPERATIONS, CENTRAL COUNCIL OF 
    TLINGIT AND HAIDA INDIANS OF ALASKA

    Mr. Miller. We have Mr. Edward Thomas, Central Council of 
Tlingit and Haida Indians of Alaska.
    Mr. Antioquia. Congressman Miller, I am Clarence Antioquia, 
the chief of business operations for the Central Council. I am 
delivering the testimony for our president, Edward Thomas. He 
is sorry that he couldn't be here today but his written 
testimony has been submitted for the record. He has asked that 
I highlight a couple of the items that he has in his testimony.
    First of all, our tribes, we have a membership of about 
23,000 tribal members throughout Southeast Alaska primarily. We 
are one of the early self-governance tribes and as such, have a 
high dependence on the tribal priority allocations that are 
made available through the federal government. We are very 
pleased and thankful for the efforts of this Subcommittee in 
increasing Indian program dollars over the past years and 
particularly we are pleased with the recognition of the small 
and needy tribes allocation that was put in place recently. So 
that is something that is important to us.
    One of the things that the Tribal Reorganization Task Force 
recommended was that a standard assessments methodology be 
developed by the Bureau of Indian Affairs, and that has not 
been done yet. As a result of that, we are concerned about how 
dollars are allocated. Looking at an example inthe 1998 budget, 
there was a surplus left in January. A recommendation was made to 
divide that $23 plus million, one-twelfth to each of the area offices. 
That is, in our opinion, just not a rational way to make division of 
funds.
    With that decision, we hope that this Subcommittee will 
question the Bureau as to that rationale and hopefully overturn 
that and ask them to come back with a more equitable way of 
dealing with that surplus. That is important because as we look 
at the 1999 allocations, again we don't want this to be done on 
just a mathematical basis but the needs need to be identified, 
and we think that that would be much more appropriate, so we 
hope that that is part of your concern as you talk to the 
Bureau.
    We are concerned also about the indirect costs as it 
relates to the Ramah Navajo case that is coming close to 
settlement. We are concerned that that judgment, when it is 
completed, not be funded through the appropriations to the 
Interior Department to make up that judgment fund. It would be 
like taking money out of one hand of the tribes and putting it 
in another hand and, in fact, cause suffering by those who 
aren't part of that settlement. So we think that is very, 
very----
    Mr. Miller. We are very concerned about that, too, by the 
way.
    Mr. Antioquia. I am glad.
    One area we are also concerned about, and I only have two 
left, but one area we are deeply concerned about is 
implementation of welfare reform in Alaska. Welfare reform 
requires a partnership between the federal government, the 
state government and tribes to be effective in implementation.
    In Alaska, our governor has requested about half of the 
dollars that were available to him for welfare reform and onto 
the legislature, the legislature took his figure and cut that 
in half, meaning that the state's participation is very 
minimal.
    Publicity shows that welfare reform is going great guns in 
Alaska. People are going to work, getting off welfare. That may 
be true in the urban areas but in the areas that we are deeply 
concerned about, in villages, welfare reform is a serious, 
serious problem and we have no means as a tribal government 
ourselves to take on that responsibility with not enough 
resources available.
    In this case we are asking that there be consideration for 
a $2 million pilot program for states, not just Alaska but 
other states that may be having state governments that don't 
view this as a serious concern so that pilot programs can be 
done where tribes can, in fact, deal effectively with welfare 
reform and we hope that you seriously consider that.
    Finally, we are supportive of the budget that has been 
prepared for the special trustee. We are very pleased about 
that. However, we also hope that any funding of that not come 
off the top of other Indian programs and that they suffer.
    So, Mr. Chairman, thank you very much for the opportunity 
to testify here today.
    Mr. Miller. Thank you very much for coming here today.
    [The statement of Edward Thomas follows:]

[Pages 277 - 280--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

ROBERT GUENTHARDT, CHAIRMAN, LITTLE RIVER BAND OF OTTAWA INDIANS

    Mr. Regula [presiding]. Okay, our next witness is Little 
River Band of Ottawa Indians.
    Mr. Guenthardt. Thank you, Mr. Chairman and members of the 
Subcommittee. I notice you didn't try to tackle that last name.
    Little River Band is a small tribe in Western Michigan that 
was restored by Congress in 1994.
    Mr. Regula. I remember that. We took you apart and put you 
back together again.
    Mr. Guenthardt. Correct, and we appreciate it very much.
    The first year that we were able to receive funding was 
1996 because of the late time that we were confirmed and there 
was an error made in calculating the tribe's membership for the 
purposes of BIA funding. The tribe submitted a number of 
membership applications that had actually been approved by the 
BIA, which amounted to 650, rather than the projected 
enrollment that we were supposed to have done, which was 
something over 2,000.
    Well, the other tribes that were restored at the same time 
did put in projected enrollments. In fact, the tribe's 
enrollment right now is 2,200.
    Because of the error, which we pointed out to the BIA as 
soon as we realized that it had happened, we now receive far 
less TPA on a per capita basis.
    Mr. Regula. Well, why don't they correct it? Won't the BIA 
correct the error?
    Mr. Guenthardt. They say they can't do it.
    Mr. Regula. Why can't they?
    Mr. Guenthardt. We have asked them. We have worked with the 
local and they----
    Mr. Regula. What count are they actually using?
    Mr. Guenthardt. Right now we have it bumped up last year to 
I believe it is 900.
    Mr. Regula. And you really have 2,200?
    Mr. Guenthardt. Correct. Yes, we do, and it has put us in 
the hole ever since.
    Mr. Regula. I can understand that. We will look into that.
    Mr. Guenthardt. We receive about half of what the other 
tribes receive.
    Mr. Regula. I can understand that. Okay.
    Mr. Guenthardt. Because we had some carry-over money left 
over from the late start that we had, we were able to start up 
some new programs and without an increase that we really do 
need, we are not going to be able to----
    Mr. Regula. What else do you have? We will check that.
    Mr. Guenthardt. We have a community center established for 
our government staff offices. We have a learning lab for the 
children, health clinics.
    Mr. Regula. Are these needs or are you just describing your 
programs?
    Mr. Guenthardt. These are programs we have started with the 
little funding that we do have. Literacy programs, cultural and 
history programs, as well as court and law enforcement 
programs, social service programs and education. So we have 
done a lot with the little bit of money that we have had but 
these programs, most of them will all be eliminated because 
they are almost all on carry-over money right now.
    Mr. Regula. Do most of your people work outside the 
reservation in the local economy?
    Mr. Guenthardt. Yes, they do. About the only thing we would 
have left if we don't get additional funding is about $4,500 
for Johnson O'Malley, and that is for 196 children that we are 
serving right now and about $30,000 for higher ed.
    Mr. Regula. Your children use the public schools?
    Mr. Guenthardt. Correct. Yes, we do. We are in the process 
right now of taking some land into trust for housing and 
economic development. What we are asking for is either to 
correct this with the BIA or an add-on or the Committee's 
assistance in making sure the BIA corrects this funding problem 
so that we can receive our fair share. We are not asking for 
anything more.
    Mr. Regula. I understand.
    Mr. Guenthardt. And that is pretty much what I came here 
today to say, so I am going to get you back on schedule again 
by being brief. I sure do appreciate the time.
    [The statement of Robert Guenthardt follows:]

[Pages 283 - 285--The official Committee record contains additional material here.]


    Mr. Regula. Well, thank you and we will check out the issue 
of your enrollment number, because you should be treated 
fairly. It sounds like it was a mistake that has been 
perpetuated.
    Mr. Guenthardt. It has. It is just a deep hole that we 
climbed into and we have to get out of it.
    Mr. Regula. Okay, thank you.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                               WITNESSES

BENITO F. VALENCIA, CHAIRMAN, PASCUA YAQUI TRIBE OF ARIZONA; FERNANDO 
    ESCALANTE, VICE CHAIRMAN; AND ALMA LESPRON, TRIBAL SECRETARY
    Mr. Regula. The Pascua Yaqui Tribe of Arizona.
    Mr. Valencia. Thank you, Mr. Chairman. My name is Benito 
Valencia and I am the chairman for the Pascua Yaqui Tribe of 
Arizona. Beside me is Vice Chairman Fernando Escalante, Dr. 
Fernando Escalante, and over here is tribal secretary Alma 
Lespron.
    Mr. Regula. How many members do you have?
    Mr. Valencia. Currently we are about 9,700 and we are 
expected to grow to about 14,000 to 15,000.
    Mr. Regula. What is your economy? Mostly agriculture? What 
supports your tribe?
    Mr. Valencia. Basically gaming.
    Mr. Regula. Gaming? Do you have a casino?
    Mr. Valencia. We have a casino on the reservation.
    Mr. Regula. Yes, they do pretty well, I guess.
    Mr. Valencia. They have been doing all right, or it has 
been doing all right.
    Mr. Regula. So you don't need any money; is that right?
    Mr. Valencia. I am here to request additional funding.
    Mr. Regula. Wow.
    Mr. Valencia. Certainly it goes to prove that some of that 
money, the revenues generated by the casino----
    Mr. Regula. Are you near a city to draw an audience?
    Mr. Valencia. We are located southwest of Tucson.
    Mr. Regula. So people come from Tucson and that area to use 
your facilities?
    Mr. Valencia. Yes, they do.
    Mr. Regula. Is your casino on the tribal land?
    Mr. Valencia. It is.
    Mr. Regula. Do you operate it or do you contract it out?
    Mr. Valencia. We contract it out. We contract the manager 
out but it is our casino.
    Mr. Regula. So they don't take a percentage. You hire a 
manager to run it.
    Mr. Valencia. That's right.
    Mr. Regula. Good. Okay, what do you need?
    Mr. Valencia. Basically we are here again to address the 
situation with the HMO, which we addressed last year, and the 
lack of funding to fulfill the mandates by Public Law 103-357.
    Basically in the HMO situation is a constant thing, year 
after year, where we are always running out of money by June 
and always seeking other fundings for it. Thanks to Congressman 
Kolbe, he was able to find some funding last year which carried 
on the HMO towards the end of the fiscal year, but it is a 
constant thing year after year, where we don't have the 
resources to provide adequate services for tribal members.
    Mr. Regula. Okay. We will look into that, and I assume Mr. 
Kolbe will, too. Go ahead.
    Mr. Valencia. The second thing we would like to address, 
and I am sure other tribal leaders here have addressed it is 
the lack of funding for law enforcement.
    Mr. Regula. That seems to be a growing problem.
    Mr. Valencia. It is very hard for us to address this issue 
and the fact that we have no BIA facilities in our reservation. 
Every person----
    Mr. Regula. No jails?
    Mr. Valencia. Jails. Every person that is convicted there 
in our tribal courts has to be sent out of state.
    Mr. Regula. Out of Arizona?
    Mr. Valencia. Out of Arizona. There are no facilities near 
or around where we can contract with.
    Mr. Regula. How about Tucson?
    Mr. Valencia. We have tried that. We have tried Maricopa 
County, Pinal County, areas nearby that we have not had the 
fortune to finding bed space there.
    Mr. Regula. Where do you take them?
    Mr. Valencia. They have gone as far north as Nevada.
    Mr. Regula. I know. I am on the committee that funds the 
Justice Department, Commerce-State-Justice, and the Justice 
Department is requesting money for jails. I don't know if we 
will have enough to do it, but that is pending in another 
committee and I presume you will apply for one.
    Mr. Valencia. Hopefully if it gets funded, we will.
    Mr. Regula. Keep an eye on it.
    Mr. Valencia. Basically the BIA funding that is all over. 
For us, on that area, we have been funded the same level for 
over 20 years, so nothing much has advanced in that area for 
us. We have supplemented where we can out of the revenues from 
the casino to law enforcement, and that is why we are here, to 
seek additional funding for that.
    [The statement of Benito Valencia follows:]

[Pages 288 - 290--The official Committee record contains additional material here.]


    Mr. Regula. Okay. It is a challenge to do all that needs to 
be done, but we will do the best we can.
    Mr. Valencia. There are a lot of unmet needs that we have 
failed to address here but for the record we will submit----
    Mr. Regula. We have your testimony. Thank you very much.
    Mr. Valencia. Thank you, Chairman Regula.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

STANLEY HERRERA, PRESIDENT, ALAMO-NAVAJO SCHOOL BOARD
    Mr. Regula. We'll go to the Alamo-Navajo Community School.
    Mr. Herrera. Good afternoon, Mr. Chairman. My name is 
Stanley Herrera. I am the Navajo School Board president and I 
have my executive director here in the audience.
    We are located about 250 miles off the main reservation, 
the Big Res.
    Mr. Regula. Are you on a reservation?
    Mr. Herrera. Yes, we are on a small reservation.
    Mr. Regula. It is part of the Navajo Tribe?
    Mr. Herrera. Yes, it is part of the Navajo Tribe but we are 
isolated. The Big Reservation is about 250 miles away.
    Mr. Regula. Is that right? And you serve the students, 
though, in your area?
    Mr. Herrera. Yes, we run about seven different programs.
    Mr. Regula. Are you K through high school?
    Mr. Herrera. Yes, we are K through high school and we 
contracted last year for Head Start.
    So basically we have two issues here that one of the 
gentlemen covered almost, which is facility operation 
maintenance that was funded at $103 million. We have another 
issue, administrative costs, funded at $48 million. We would 
like to have a bill deleted from the Secretary of the Interior. 
We would like to restrict the bill language proposed by the 
Secretary of the Interior.
    So I would like to cover the facilities operations a little 
with 187 BIA schools that are in operation that need this 
budget line item to be maintained, an enormous inventory of 
federally-owned facilities like schools, dorms, office space, 
water towers, fire stations, whatever, that need to be 
maintained.
    The funding for this activity has grown increasingly 
inadequate over the past seven years from 1992 to 1998. In 1992 
it was 95.78 percent and it dramatically dropped to 67 percent 
and even the 67 percent figure is misleadingly low. By the time 
the systemwide off-the-top expenses are deducted, we, at the 
school level, are left with only 30 to 40 percent. We cannot 
maintain these buildings with how much is being cut out.
    Like a homeowner, each and every one of us here is a 
homeowner and we need to have our facilities, our buildings, 
our house maintained with the utilities, water and everything. 
So if we cut down our costs, if we don't pay our utility bills, 
then it is the same thing as the school-wide----
    Mr. Regula. You are saying you need additional help?
    Mr. Herrera. Yes, we need additional help. We need some 
more extra funding that the BIA had allocated. We want part of 
the $103 million, get it back in the system so we can operate 
the school and maintain it because if you don't maintain the 
building, if you don't run the buildingadequately, then it will 
deteriorate faster.
    Mr. Regula. I understand.
    Mr. Herrera. And whatever will go wrong with it, and we 
don't want that to happen because our school is only 12 years 
old and we would like to maintain it.
    Mr. Regula. Okay.
    Mr. Herrera. Then the General Accounting Office had a 
report of 62 percent of the BIA buildings had at least one 
building in need of extensive repair or replacement compared to 
33 percent of schools nationally. The GAO's survey showed that 
the BIA schools fare poorly in comparison to other schools 
nationally. BIA schools are generally in poor condition----
    Mr. Regula. I understand.
    Mr. Herrera. To put it in perspective, at Alamo, reducing 
our facilities O&M allowance by 33 percent means that we lost 
$196,000 in fiscal years 1997 and 1998. And like I said a while 
ago, we need to maintain the building; we need the extra 
$200,000.
    [The statement of Stanley Herrera follows:]

[Pages 293 - 296--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we are out of time but we have your 
statement.
    Mr. Herrera. And covering the administrative costs, it is 
about the same thing and we need--like we lost out on some 
funding----
    Mr. Regula. Are you part of the school system?
    Mr. Herrera. I am presently president of the school board.
    Mr. Regula. Oh, okay.
    Mr. Herrera. We would like your consideration on these 
issues that we have brought out here. Thank you for taking this 
opportunity----
    Mr. Regula. Thanks for coming.
                              ----------                              

                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

DONNE FLEAGLE, BOARD MEMBER, NATIONAL INDIAN CHILD WELFARE ASSOCIATION 
    AND DAVID SIMMONS, STAFF MEMBER
    Mr. Regula. Okay, National Indian Child Welfare 
Association.
    Ms. Fleagle. Good afternoon, Mr. Chairman.
    Mr. Regula. You represent the problems of child welfare 
throughout the nation?
    Ms. Fleagle. Yes. The National Indian Child Welfare 
Association. I am a member. I am on their board. This is David 
Simmons, a staff member. I am from Alaska and my name is Donne 
Fleagle.
    Mr. Regula. Where are your headquarters?
    Ms. Fleagle. Portland, Oregon.
    Mr. Regula. Okay. Tell us your concerns.
    Ms. Fleagle. We are asking the Committee to support the 
President's request to fund the Indian Child Protection and 
Family Violation Prevention Grant Program of $5 million. While 
this funding is small, it is a meaningful step to helping 
protect Indian children from abuse and neglect.
    Mr. Regula. Now, how would that $5 million--that's not much 
money--how would it be used?
    Ms. Fleagle. It would go into tribal child welfare 
programs.
    Mr. Regula. Would it come to you, and you would make grants 
out to the tribes? How does it get actually on the ground?
    Mr. Simmons. It is like other grant programs. It will go 
under TPA and it will be allocated out by formula to the tribal 
governments.
    Mr. Regula. Oh, so it is not necessarily on an application 
that has certain needs. It would go by formula.
    Mr. Simmons. That is my understanding, yes.
    Mr. Regula. Okay. That concerns me because when you spread 
it out over the whole nation on a formula basis, the amount per 
tribe would be minuscule and it probably wouldn't allow them to 
do much.
    Ms. Fleagle. Right, but at this point it is not currently 
being funded so I think that any small amount that tribal 
programs can get, it would certainly be appreciated and it is a 
start to meet some tribal children's needs.
    Mr. Regula. When you say child welfare, are you talking 
about abused children? What kind of problems are you talking 
about?
    Mr. Simmons. You are primarily talking about children who 
are at risk for abuse or neglect and in some cases have been 
removed from homes. In other situations you are talking about 
services given to children who are still in the home but at 
risk for being removed from the home. So there is a whole cadre 
of services--family preservation, reunification, home-based. We 
are talking about foster care and adoption in some limited 
cases.
    Mr. Regula. You are already an organization. How have you 
been financed in the past?
    Mr. Simmons. We are a private nonprofit and what we do is 
help provide assistance to tribal governments who are doing 
child welfare services.
    Mr. Regula. Are you privately financed at this point?
    Mr. Simmons. Correct.
    Mr. Regula. People make donations to you?
    Mr. Simmons. Right. We have a variety of things that we do. 
Some of it is grant funding, foundation funding. We get support 
from tribal governments, too, through fund-raising events and 
activities. We also do fee-for-service for some of the 
technical assistance that we give.
    Mr. Regula. You have a team of specialists that can go out 
and help a tribe with the problems?
    Mr. Simmons. Yes, we do.
    Mr. Regula. So any tribe in the United States could call on 
your services and you would send somebody to spend some time 
helping them or setting up a program or working with the 
children? Is that----
    Ms. Fleagle. Absolutely. You are absolutely correct.
    Mr. Regula. So you are here to support the additional $5 
million that is in the President's budget?
    Ms. Fleagle. Yes, sir.
    Mr. Regula. To support your budget, in effect.
    Mr. Simmons. I don't think the money is going to goto us. 
It is going to----
    Mr. Regula. Well, it is going to go to you to be 
distributed or to be used to get specialists to help tribes, 
right?
    Ms. Fleagle. Well, a lot of tribes do have programs that 
are meeting children's needs, so I really don't see that a 
large part, even a small portion of this, would be accessed by 
NICWA because we have some really well built programs in Indian 
country.
    Mr. Regula. So you see it being distributed--suppose we 
appropriate the $5 million. Do you see it being distributed on 
a per child basis to the tribes?
    Mr. Simmons. I think there was a process, a regulatory 
process and consultation process between tribal governments and 
the Bureau of Indian Affairs and Indian Health Service, and 
that is where they came up with the formula, which is now in 
the regulations for the law that authorized us, which is the 
Indian Child Protection and Family Violence Prevention Act.
    Mr. Regula. So the act has a formula?
    Mr. Simmons. That is correct.
    Mr. Regula. And all we have to do is fund it.
    Mr. Simmons. That is correct. The law passed in 1991 but 
the funds have never been appropriated.
    Mr. Regula. I understand. So you are here to support the 
funding.
    Mr. Simmons. Right. We also have a policy that our 
organization doesn't compete with tribal governments for 
funding, so any services we provide come from our own fund-
raising activities.
    Mr. Regula. Okay, thank you for the information.
    Ms. Fleagle. We have a couple more things. I don't know if 
we are running out of time----
    Mr. Regula. Well, you have a minute or so.
    Ms. Fleagle. Okay. We would like you to consider restoring 
historic funding of the Indian Child Welfare Act Title II, Off-
Reservation Grant Programs of $2 million, which was funded 
through fiscal year 1996 under the special projects and pooled 
overhead portion of the BIA budget. It wasn't identified in the 
fiscal year 1999 budget. It specifically goes to urban child 
welfare programs.
    Mr. Regula. Okay, we will look at that. What else?
    Ms. Fleagle. We have one more thing that we would like you 
to consider, to require the Bureau of Indian Affairs and the 
Indian Health Service to provide more detailed information on 
programs that provide funding and services for children.
    Mr. Regula. In other words, to provide an information 
service?
    Mr. Simmons. Well, one of the things that happens that we 
have witnessed over the years is that the Bureau provides very 
incomplete kind of artificial data. And in terms of your 
purposes, your Committee's purposes, to evaluate what are the 
needs for a program, are the requests they are giving you going 
to meet those needs? We have some information in our testimony 
you might want to look at in regards to that.
    For instance, under IHS's budget you can't tell how much of 
the money under either mental health and social services or 
contract health goes to Indian kids at all. There is no way to 
evaluate that.
    [The statement of Donna Fleagle follows:]

[Pages 300 - 303--The official Committee record contains additional material here.]


    Mr. Regula. You are trying to remedy that. Thank you.
    Ms. Fleagle. Thank you, Mr. Chairman.
    Mr. Simmons. This is a report we did on the status of 
mental health services to Indian children. We want you to have 
a couple of copies.
    Mr. Regula. Okay. Thank you.
                              ----------                              

                                           Thursday, March 5, 1998.

                         INDIAN HEALTH SERVICE

                                WITNESS

PEARL CAPOEMAN-BALLER, NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD; ON 
    BEHALF OF JULIA DAVIS
    Mr. Regula. We have the Northwest Portland Area Indian 
Health Board. I think you have been on before.
    Ms. Capoeman-Baller. I said I didn't get my point across 
this morning so I thought I'd better come back.
    Mr. Regula. So you don't need as much time, right?
    Ms. Capoeman-Baller. Extra time.
    Again good afternoon. My name is Pearl Capoeman-Baller. I 
am actually here this afternoon in place of Julia Davis, who 
was scheduled to testify and her mother was taken ill so she 
had to take a flight back home.
    So this afternoon I am representing the 40 tribes from the 
Northwest Portland Area Indian Health Board. It is their 
responsibility to take the President's budget, analyze it and 
see which recommendations should be made to tribes on how this 
budget is going to impact the tribes.
    Mr. Regula. Have you done that?
    Ms. Capoeman-Baller. Yes, we did.
    Mr. Regula. How is it going to impact?
    Ms. Capoeman-Baller. After listening to the State of the 
Union Address that the President gave, while listening to that 
message we thought it was very exciting and we thought that 
there was going to be a lot of new funding coming down for 
tribes. But after actually getting the budget and analyzing it, 
we get 1.8 percent of those monies for Indian Health Services 
and less than 1 percent of that if newfacility constructions is 
included.
    Mr. Regula. Frankly, we haven't figured out why the 
Administration chose to short-change Indian health. We just 
don't know, and we are going to raise that issue with the 
appropriate people when they testify. It is a mystery to me 
because Indian health should be a high priority, along with 
education. It seems like they made their numbers fit by taking 
it out of Indian health.
    Ms. Capoeman-Baller. It appears that way to us and I think 
that obviously you have the gist of what my testimony is about 
because we feel like we still face all the same problems on 
reservations with respect to health.
    Mr. Regula. I am sympathetic to your point of view. Loretta 
Beaumont mentioned this problem weeks ago. We haven't had an 
opportunity to ask somebody from downtown what the rationale 
was for short-changing you, but we will find out.
    Ms. Capoeman-Baller. You understand obviously and Loretta 
does--she has worked with our budgets before with respect to 
health care and what-not. So I guess if you are asking me what 
my bottom line is here, I would like to read for the record 
what our position is.
    The Northwest Tribes asks this Committee to restore the 
funding that is proposed to be cut in hospitals and clinics, 
sanitation, construction and the maintenance and improvement. 
Additional funds must be found to fund the mandatory costs that 
every program must pay. This is particularly critical for the 
contract health service program.
    The Indian Self-Determination Fund must be restored and at 
a level so that those tribes waiting to take responsibility for 
the health status of their people can do so in a reasonable 
period of time. New ways must be found to address facility 
construction needs. Congress should provide opportunities for 
IHS and tribes to join forces in joint venture construction 
projects. The facility needs of small tribes should be 
addressed through the small grants program and through the 
ability to utilize maintenance and improvement funds.
    So with that, I respectfully submit that and if you would 
like additional information on the Indian Health Service 
budget----
    Mr. Regula. We hear your message.
    Ms. Capoeman-Baller. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of Pearl Capoeman-Baller follows:]

[Pages 306 - 309--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

PRESTON McCABE, PINON COMMUNITY SCHOOL BOARD; AND PHYLLIS TACHINE, 
    SUPERINTENDENT

    Mr. Regula. Pinon Community School Board. You probably have 
the same message we have heard all day.
    Mr. McCabe. Basically, yes, Congressman.
    Mr. Chairman, my name is Preston McCabe and this is Phyllis 
Tachine, the school superintendent. I am the chapter president 
of Pinon Chapter of the Navajo and also the school board 
president for Pinon Community School Board. Today my testimony 
will be mainly focussing on the Indian Health Service and also 
the BIA School Operations programs.
    We would like to urge the Committee here to fully fund the 
Administration's $13.9 million budget request for clinic 
construction, which is number three on the project priority 
list. This will ensure that a much-needed clinic in Pinon would 
get a chance to become a reality.
    Right now we are number four on the IHS priority list.
    Mr. Regula. I think you need to go downtown. They are the 
ones that sent those priorities up but we have your testimony 
and we will take a look at it when we start putting it 
together.
    Mr. McCabe. Basically that is one of the main concerns we 
have, is the clinic, since we operate a boarding facility. We 
have a new high school there. Also, we are a community that has 
a lot of elderly and our birth rate is----
    Mr. Regula. Going up?
    Mr. McCabe. Yes, pretty much. We are also a host community 
to the people that are moving out of the Hopi partitioned land. 
We are a host community for them.
    There are a lot of promises that we just heard from people 
that we have just never been able to substantiate any of 
those----
    Mr. Regula. You can see this is just part of the stack. We 
have a lot of challenges here. We do the best we can with what 
we have.
    Would you like to comment before we run out of time?
    Ms. Tachine. Only that the IHS clinic has been sitting idle 
for several years. It was partially funded in the design phase. 
They have only done the schematics and conceptuals. We are 
still waiting for the construction documents to be developed. 
So we are just wondering why----
    Mr. Regula. The health clinic?
    Ms. Tachine. This is the clinic funding. It has just been 
sitting there on the shelf for several years and we don't know 
why it hasn't been funded fully the rest of the year.
    And then the other thing is the transportation. We are 
really hurting in the area of transportation. In Pinon we only 
have one road coming in from the east from Chinle and all our 
bus routes are dirt routes so our funding is----
    Mr. Regula. Are you talking about transportation to get----
    Ms. Tachine. Schools. School transportation, right.
    Mr. Regula. Probably just access for tribal members.
    Mr. McCabe. Like I said, we have a couple of issues that 
concern the Pinon community which is in reference to the clinic 
but everybody uses the clinic, so that is one of our main 
issues. The other one is the BIA School Operations programs, 
which is what she is alluding to on transportation.
    Ms. Tachine. Our maintenance council vehicle is eating up 
our transportation money so we really need help in that area.
    Mr. Regula. Okay, thank you for coming.
    Ms. Tachine. Thank you.
    Mr. McCabe. Appreciate it.
    [The statement of Preston McCabe follows:]

[Pages 312 - 315--The official Committee record contains additional material here.]


                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

MARTHA GARCIA, PRESIDENT, RAMAH NAVAJO CHAPTER AND ANNA MAE PINO, STAFF
HON. BILL REDMOND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    MEXICO

    Mr. Regula. Ramah Navajo Chapter.
    Are these your constituents, Bill?
    Mr. Redmond. Yes.
    Ms. Garcia. Thank you, Mr. Chairman. My name is Martha 
Garcia. I am the president of the Ramah Navajo Chapter and 
Congressman Bill Redmond is our congressman from our district 
and we certainly appreciate his support and all the efforts he 
has put into his district and--
    Mr. Regula. He has talked to me about it.
    Ms. Garcia. On a very short time base. We are very, very 
impressed and appreciate that.
    And I also have with me Anna Mae Pino, staff and a long-
time advocate for the efforts of our Ramah Navajo Community.
    My testimony today will focus on four issues.
    Mr. Regula. Just summarize. It will be in the record 
because we are short of time, as you can understand.
    Ms. Garcia. I am aware of that.
    The first one is on providing resource funding to purchase 
a section of ranch land that has been offered to the Ramah 
Navajo Community. It is deeded land from non-native ranchers in 
the area.
    Mr. Regula. You would use this to support your economy.
    Ms. Garcia. Right.
    Mr. Regula. I assume you are an agricultural economy.
    Ms. Garcia. We are.
    Mr. Redmond. We have 72 percent unemployment in this area. 
The purchase of this land would greatly increase the 
possibility for jobs in the area.
    Mr. Regula. Your tribal members depend on agriculture for 
employment.
    Ms. Garcia. That is right. We are going to look at tribal 
ranches, sheep, which is our heritage, and we are going to go 
into the new management of that, livestock, and we are looking 
at building a greenhouse. We already have some commitment from 
the Defense Department that are within the area that have 
assured us that if we put that up, that they would be buying 
from us. So we know that we are already doing the long work.
    So this ranch would also consolidate our land. It is right 
in the middle of our community, as you can see.
    Mr. Regula. How much are you talking about?
    Ms. Garcia. 19 sections, which is about 1,200 acres plus.
    Mr. Regula. How much money do they want?
    Ms. Garcia. They want $1.4 million and we are asking for 
$1.7 million.
    Mr. Regula. I am surprised that ranch land is that 
expensive.
    Mr. Redmond. Very expensive in New Mexico.
    Ms. Garcia. It's $150 an acre.
    Mr. Regula. That's not bad. $150 an acre? What does it take 
for a sheep to live down there? How many acres?
    Ms. Garcia. It is like five sheep to ten acres, I think.
    Mr. Regula. Pretty dry?
    Ms. Garcia. It is very, very dry. But this is prime land 
that we are looking at.
    Mr. Regula. I am getting interested and we are going to run 
out of time here, so let's speed along.
    Ms. Garcia. Okay. So that is what we are looking at.
    The second issue that we have is we would like to ask the 
Subcommittee to support the Administration's request for $52 
million for construction and renovation of detention 
facilities.
    Mr. Regula. The overall amount?
    Ms. Garcia. The overall amount. And we will be trying to 
tap into that to renovate our own jail facilities.
    We are separate from the Navajo Nation geographically.
    Mr. Regula. I see that you would have to be.
    Ms. Garcia. Right. So for that reason we have to----
    Mr. Regula. But you are still part of the Navajo Nation?
    Ms. Garcia. Part of the Navajo Nation but we get our 
funding through Albuquerque area and not Navajo area.
    The third issue that we have is the way the TPA is 
distributed out in Indian country. We have our own base fora 
number of years, since 1920, starting with $5, and that has gone up to 
a little bit over a million to provide services to 3,000 tribal 
members. Our land base currently right now is about 154,000 acres of 
land and it is in a checkerboard area down here. And for that reason we 
feel like the equal funding that happened recently did not address the 
needs that we have looked at. And I heard the testimonies previously 
and I concur with a lot of them that we need to look at that funding so 
that it is on a need basis and that would help us.
    The last one is in regard to the settlement that we are 
about to conclude here. We had filed a lawsuit in 1992 and 
sadly, that is the only way we have been able to resolve our 
contract dispute issue with the Bureau of Indian Affairs on 
indirect costs. We had filed this in 1992. We lost in the 
District Court and in the Tenth Circuit Court we were able to 
get that in our favor. And right now what has happened, that 
portion has been remanded back to the District Court for them 
to settle that particular issue.
    And we are now closing the settlement. The last two days, 
Monday and Tuesday, we were in Albuquerque working on that 
again with the Bureau and also Department of Justice and OIG.
    And one of the difficult issues that has come before us, 
that is the judgment fund. We would have to dip into the 
judgment fund to pay the settlement. This is a class action 
suit and based on that, we are asking to have supplemental 
appropriation. Otherwise the Interior Department would have to 
look for funds within its own agency and more likely within the 
Bureau of Indian Affairs. It is already underfunded and to take 
that out of the TPA would be just like taking it out of one 
Indian's pocket and putting it back into the other or taking it 
from both pockets. That is what is going to happen and we don't 
want to see that happen. We respectfully request that you look 
at the issue and see if additional supplemental appropriations 
would be helpful because we don't want to pay for our own 
judgment costs after we have won that.
    [The statement of Marcia Garcia follows:]

[Pages 319 - 322--The official Committee record contains additional material here.]


    Mr. Regula. I understand.
    Ms. Garcia. I just want to say thank you and you have our 
full testimony.
    Mr. Regula. It will be part of the record.
    Ms. Garcia. I also have additional information and also 
testimony from the Ramah Navajo School Board, which I will 
submit for the record.
    [The statement of the Ramah Navajo School Board follows:]

[Pages 324 - 327--The official Committee record contains additional material here.]


    Mr. Regula. Thank you and thank you, Bill, for coming down.
    Mr. Redmond. Thank you, Mr. Chairman.
                              ----------                              

                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

DAVID GIPP, PRESIDENT, UNITED TRIBES TECHNICAL COLLEGE

    Mr. Regula. United Tribes Technical College.
    Do you serve more than one tribe?
    Mr. Gipp. Yes, we do, Mr. Chairman. We serve a range of 
tribes, right now currently 36 tribes and sometimes up to 45.
    Mr. Regula. Are you a residential unit?
    Mr. Gipp. We are residential. We are campus-based.
    Mr. Regula. Where are you located?
    Mr. Gipp. Up in Bismarck, North Dakota, Mr. Chairman.
    Mr. Regula. But you draw from a wide area?
    Mr. Gipp. That is right. We have about 17 states 
represented in our student population at the current time.
    Mr. Regula. Do you have two years or four years?
    Mr. Gipp. We do actually one- and two-year programs, 
certificate and two-year technical degree programs.
    Mr. Regula. So people who leave your school have a skill 
that they can market?
    Mr. Gipp. That is correct, yes. And we deal directly with 
the job market and I think this past year our placement rate 
was right about 96 percent.
    Mr. Regula. That is great. What is your enrollment?
    Mr. Gipp. We are about 310 and looking at an expansion of 
370 for adults, and then about 225 children, so a total 
population of roughly 525.
    Mr. Regula. Do you get support through BIA?
    Mr. Gipp. Yes, we do, through the Interior appropriation.
    Mr. Regula. And you need a little more?
    Mr. Gipp. That is correct, Mr. Chairman. Our request, and I 
would ask that our record statement be submitted for the 
record----
    Mr. Regula. It will be part of the record.
    Mr. Gipp. Our current level is about $2.3 million for 
fiscal year 1998 and our official request is for $186,000 above 
that level. So that is what our basic request is.
    With these dollars we do basic things such as provide the 
operational dollars for the campus-based program that we have 
at United Tribes, and that includes all of the vocational and 
the other adult programs that are enabled through there--the 
counseling and placement services, transportation. It also 
offsets our cost for housing that we have right on campus. We 
have two day cares, as well, that these funds provide for.
    Mr. Regula. Do you have some married students?
    Mr. Gipp. Yes, we do. Our focus is on the American Indian 
family, in fact, and that is why we do quite a bit of work with 
the children, ranging from eight weeks on up to grade eight, 
right on campus there. And then, in the meantime, the adults 
are pursuing their education through 20 different programs that 
we have.
    Mr. Regula. So you could have students in your school who 
have children that would be in a school you operate?
    Mr. Gipp. That is correct, operated right on campus.
    Mr. Regula. You have really two tracks. You have the 
younger students and then the technical program for the older 
ones.
    Mr. Gipp. That is right, early childhood and elementary, as 
well as the upper division for the collegiate level, Mr. 
Chairman. And we are owned and operated by the five tribes of 
North and South Dakota. And, as I mentioned, we have roughly 
anywhere from the low side of 23 up to 45 different tribes that 
are in our student body at any one time.
    So we would certainly appreciate the consideration of the 
Subcommittee and the Committee.
    [The statement of David Gipp follows:]

[Pages 330 - 333--The official Committee record contains additional material here.]


    Mr. Regula. Today people need skills to get jobs.
    Mr. Gipp. Yes. We are working very closely with welfare 
reform and with the 10F programs and with the State of North 
Dakota.
    Mr. Regula. Do you do anything in computers?
    Mr. Gipp. Yes, we are doing beginning computer technology 
and entrepreneurship types of programs.
    Mr. Regula. There is tremendous demand for people with 
computer skills.
    Mr. Gipp. There surely is and I think we are also trying to 
work more closely, of course, with some of the private 
enterprise that are involved with that kind of development in 
our area.
    Mr. Regula. Okay, thank you very much.
    Mr. Gipp. We thank you very much, Mr. Chairman.
                              ----------                              

                                           Thursday, March 5, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

JAMES M. TUTT, PRESIDENT, CROWNPOINT INSTITUTE OF TECHNOLOGY AND ANNA 
    MAE PINO
    Mr. Regula. Crownpoint Institute of Technology.
    Is your message somewhat similar?
    Mr. Tutt. A little bit different.
    Mr. Regula. Okay.
    Mr. Tutt. Mr. Chairman, here is the chairman of the board 
of the Crownpoint Institute of Technology and Anna Mae Pino.
    Mr. Regula. You are a technical school?
    Mr. Tutt. Yes.
    Mr. Regula. And how many students do you have?
    Mr. Tutt. We have 426 students.
    Mr. Regula. Do you serve several tribes?
    Mr. Tutt. We serve tribes in New Mexico and Arizona and 
some of the Pueblos near the western end of the Navajo Nation.
    Mr. Regula. Are many of your students residential? They 
come and live there?
    Mr. Tutt. We have approximately 120 spaces available and we 
have a dorm facility and so forth, yes.
    Mr. Regula. You offer a one- or two-year program?
    Mr. Tutt. One- and two-year program, one- and two-year 
programs.
    Mr. Regula. What is your placement rate?
    Mr. Tutt. We have 86 percent for the last eight years and 
retention rate of 95 percent, so we have really been working 
with our students.
    Mr. Regula. Now, you get some support from BIA for your 
budget?
    Mr. Tutt. No. That is specifically why we are here, because 
Crownpoint Institute of Technology is the only tribal colleges 
that doesn't receive any Bureau of Indian Affairs funding for 
the past----
    Mr. Regula. Do you have any idea why you don't get some? 
You heard the previous witness.
    Mr. Tutt. Basically we receive some under the Labor-HHS, 
under the Carl Perkins. Basically that appropriation is not 
enough, so for the past 20 years or so that the college exists, 
we never receive anything. Maybe on an earmarked appropriation 
but we never receive a dime, a penny from the Bureau of Indian 
Affairs.
    Mr. Regula. So you are here to say you would like to have 
some?
    Mr. Tutt. Yes.
    [The statement of James M. Tutt follows:]

[Pages 336 - 339--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we will check that out. Is BIA saying 
since you are getting funding under HHS or the Carl Perkins 
that you therefore don't need any from them?
    Mr. Tutt. I think it is basically the way the law, the 
Tribally Controlled Community College Act, is written because 
the tribe can have only one college per tribe. Since we have 
Navajo Community College that receives funding under Title II, 
because this is a tribal vocational school, so we are not 
eligible to receive any funding from the----
    Mr. Regula. So you are a tribal vocational school.
    Mr. Tutt. Yes.
    Mr. Regula. You are not classified as a technical school, 
then?
    Mr. Tutt. Well, we are basically into that technical 
school.
    Mr. Regula. Maybe you should reclassify your school.
    Mr. Tutt. That is what we are doing.
    Mr. Regula. Make it a technical school. You could call it 
the Institute of Technology.
    Mr. Tutt. Yes.
    Mr. Regula. Okay, thank you for your time and we will try 
to find out the answer, why you are not getting support.
                              ----------                              

                                           Thursday, March 5, 1998.

             BUREAU OF INDIAN AFFAIRS/INDIAN HEALTH SERVICE

                                WITNESS

EUGENE A. BEGAY, SR., LAC COURTE OREILLES
    Mr. Regula. Okay, the last one today, at least on my list, 
is Lac Courte Oreilles. You are Mr. Begay?
    Mr. Begay. Yes, sir.
    Mr. Regula. What is this? Tell me what this is. What is 
Lac----
    Mr. Begay. It is Lac Courte Oreilles. It comes from the 
French people who came into my area 500, 600 years ago. It 
means the Lake of the Short Ears.
    Mr. Regula. Lake of Short Ears?
    Mr. Begay. Short ears, yes. I don't speak French but that 
is what they told me it means.
    Mr. Regula. Why is it a lake of short ears?
    Mr. Begay. When you fly over it with an airplane and you 
look down, it looks like a lot of short ears.
    Mr. Regula. Where is this located? What state?
    Mr. Begay. Northern Wisconsin, about 60 miles south of the 
southern shore of Lake Superior, near Duluth and Superior, 
Wisconsin.
    Mr. Regula. How many members do you have?
    Mr. Begay. 6,000.
    Mr. Regula. Where do they work on the outside? Is there a 
major source of employment outside the tribal boundaries?
    Mr. Begay. The major source of employment is our casino and 
we have tribal commercial business enterprises.
    Mr. Regula. Okay.
    Mr. Begay. I would say that our unemployment runs about 60 
percent.
    Mr. Regula. Okay. What do you need?
    Mr. Begay. Mr. Chairman, we have a brand new school 
building sitting on the reservation that is one-third 
completed. The 358 children in our K through 12 school are 
currently going to school in locker rooms, in the gymnasium, in 
hallways.
    Mr. Regula. Is that the old building or the new building?
    Mr. Begay. This is the building I am talking about now.
    Mr. Regula. The new building is partly completed?
    Mr. Begay. Partly, one-third completed. Two years ago the 
Bureau of Indian Affairs condemned 13 portable modules. They 
gave us $2.1 million of what they call facilities improvement 
and repair money out of the existing budget at the time.
    The program of requirements report, which is standard 
report to the Bureau, requires us to have 42,000 square feet to 
accommodate the number of children we have. The replaced square 
footage that was required was 17,000.
    So the tribe went ahead and at the encouragement of the 
Bureau of Indian Affairs, to raise the additional dollars, the 
$4.5 million that is required now over and above the $2.1 
million to complete construction of the school. The Bureauled 
us to believe that they could guarantee a bond issue in an initial 
letter from the director of Indian programs. We went ahead and did that 
and then, about six months later, she sent us another letter saying 
that in consultation with the solicitor, that they could not do that. 
So we had to drop back on issuing the bonds to raise the $4.5 million.
    What I am recommending to the Committee, if possible, is 
that the FI&R funds in this year's budget requested by the 
President is about $46 million. I would request that the $4.5 
million that I am requesting here for Lac Courte Oreilles come 
out of that amount that is being requested.
    Mr. Regula. Can you use some of your gaming money?
    Mr. Begay. We have no gaming money, Mr. Chairman.
    Mr. Regula. But you have a casino.
    Mr. Begay. Yes, we have a casino.
    Mr. Regula. Don't you make a profit?
    Mr. Begay. Not yet. We are still paying back the amount of 
money we borrowed to build the building and to buy the machines 
and all that. I would suspect that in a year or so we would be 
generating some profit, but we are employing about 350 of our 
people in the casino.
    Mr. Regula. How long has your casino been open?
    Mr. Begay. Four years, and we just completed compacting 
with the governor of the State of Wisconsin, so we are looking 
forward to that.
    Mr. Regula. Is your casino on the reservation?
    Mr. Begay. Yes, it is.
    Mr. Regula. Do you operate it with your own people?
    Mr. Begay. We operate it ourselves. We have no other 
outside interests, yes.
    So the money that I am requesting, $4.5 million, I think 
would be taken out of the $46 million that is being requested 
by the President. There is a total of $86,000, as I understand 
it, for new school construction. $37 million is earmarked for 
three new schools. This is not a new school construction issue. 
This is a replacement school caused by the condemnation of the 
13 school modules that we were using two years ago.
    That is a top priority of my tribal council and we want 
very much to move ahead with this. We seek your favorable 
response on this.
    Mr. Regula. We will look at it.
    Mr. Begay. The other issues we have, Mr. Chairman, is law 
enforcement--it is in my testimony here--and the Indian Health 
Service contract support funds and also housing.
    [The statement of Eugene Begay follows:]

[Pages 343 - 346--The official Committee record contains additional material here.]


    Mr. Regula. Okay. Thank you very much.
    Mr. Begay. Thank you.
    Mr. Regula. Is there anyone that we have missed in the 
room? You have all had an opportunity.
    Okay, thank you all for coming. The Committee is adjourned.

[Pages 348 - 363--The official Committee record contains additional material here.]







                           W I T N E S S E S

                              ----------                              
                                                                   Page
Allen, W.R.......................................................    31
Anderson, Marge..................................................   545
Antioquia, Clarence..............................................   275
Apesanahkwat.....................................................   534
Armstrong, B.J...................................................    25
Bad Moccasin, Richard............................................   615
Bahe, L.Z........................................................   201
Begay, E.A., Sr..................................................   340
Belone, Phillip..................................................   324
Blueeyes, Faye...................................................   208
Bourland, G.J..................................................589, 618
Bowman, Diana....................................................   144
Brown, Robert....................................................   218
Brown-Schwalenberg, Patty........................................   194
Bulfer, J.E......................................................   218
Cackuse, Maria...................................................    91
Cagey, Henry.....................................................    37
Capoeman-Baller, Pearl..........................................10, 304
Chavez, Ervin....................................................   377
Cheek, John......................................................   229
Chicks, Robert...................................................   248
Clark, Robert....................................................   502
Cordova, Gregg...................................................   427
Cordova, Sherry..................................................   353
Cyress, Billy....................................................   384
Darrow, Ruey.....................................................   622
DAvis, J.A.......................................................   478
Demientieff, S.R.................................................   357
Denomie, Terri...................................................   530
Doyle, R.M.......................................................   356
Duus, Verner.....................................................   268
Edmo, Larraine...................................................   229
Escalante, Fernando..............................................   286
Evans, L.E.......................................................   363
Fleagle, Donne...................................................   297
Forquera, Ralph..................................................   459
Fox, Mike........................................................     1
Frank, Billy, Jr.................................................   187
Fryberg, Karen...................................................    91
Garcia, Martha...................................................   316
Garcia, Michael..................................................   218
George, Merv, Jr.................................................   401
Gilmartin, T.E...................................................   491
Gipp, David......................................................   328
Gover, Marshall..................................................   559
Guenthardt, Robert...............................................   281
Hansinger, Scott.................................................   208
Harrison, Kathryn................................................    63
Herrera, Stanley.................................................   291
Hill, James......................................................   218
Hopson, Eben, Jr.................................................   483
Horejsi, Rick....................................................   452
Hort, Bruce......................................................   156
Jim, R.L.........................................................   650
Jones, G.J.......................................................   181
Jones, S.G.......................................................    93
Jordan, Gary.....................................................   144
Joseph, Jason....................................................   470
Knight, Bradford.................................................   352
LeClair, A.L.....................................................   358
LeRoy, Fred......................................................   607
Lespron, Alma....................................................   286
Locke, M.E.......................................................   397
Lujan, F.R.......................................................   642
Mallory, Kenny...................................................   242
Martin, David....................................................    10
Martineua, Ferdinand.............................................   114
Mason, R.D., Sr..................................................   555
Maulson, Tom.....................................................   106
McArthur, Eugene ``Bugger''......................................   369
McCabe, Preston..................................................   310
McCloskey, Ruben.................................................   611
McConnell, J.F...................................................   444
McGruther, Faith.................................................   550
Mejia, Margie....................................................   409
Meza, Kenneth....................................................   218
Milanovich, R.M..................................................   349
Miller, Tom......................................................    68
Minthorn, A.C....................................................    79
Miyasato, Frank..................................................   484
Moore, Donald, Sr................................................   156
Moses, Joe.......................................................    57
Murphy, C.W....................................................121, 330
Newago, G.P......................................................   517
Newbreast, Ira...................................................    85
Niger, Robert....................................................   138
Norman, Patrick, Jr..............................................   194
Pablo, M.T.......................................................   561
Pakootas, Joe....................................................   129
Pasqual, R.T.....................................................   629
Pavel, Mary.....................................................50, 114
Penney, S.N......................................................   236
Pickett, Joseph..................................................   565
Pinkham, Jaime...................................................    72
Pino, A.M........................................................   334
Platero, Lorenzo.................................................   163
Platero, Margaret................................................   163
Poynter, Ken.....................................................   573
Preston, V.R.....................................................    16
Purser, Diane....................................................   181
Queton, H.G......................................................   359
Rainwater, Stephanie.............................................   506
Redmond, Hon. Bill...............................................   316
Sanchez, Merlene.................................................   395
Saulque, Joseph..................................................   433
Schlender, J.H...................................................   151
Scott, S.J.......................................................   441
Shields, Caleb...................................................   163
Silva, Anita.....................................................   423
Simmons, David...................................................   297
Simone, J.J......................................................   419
Sterud, Bill.....................................................   462
Strong, Ted......................................................   474
Sydes, Dr. M.D...................................................    43
Tachine, Phyllis.................................................   310
Thomas, E.K......................................................   277
Thomas, Matthew..................................................   387
Tiepelman, Dennis................................................   410
Toya, Vincent....................................................   212
Tripp, Maria.....................................................   419
Tso, Roy.........................................................   208
Turner, Dennis.................................................218, 431
Tutt, J.M........................................................   334
Two Bears, Sharon................................................   121
Valencia, B.F....................................................   286
Wagner, M.R......................................................   355
Wawronowicz, L.J.................................................   106
Whitefeather, Bobby..............................................    97
Whitener, Bob....................................................   175
Wopsock, R.J.....................................................   591
Wright, Mervin, Jr...............................................   261
Wynne, Bruce.....................................................   255
Zunigha, Curtis..................................................   603









                               I N D E X

                              ----------                              
                                                                   Page
Advisory Council on California Indian Policy.....................   433
Agua Caliente Band of Cahuilla Indians...........................   349
Alamo Navajo Community School....................................   291
Alaska Native Health Board.......................................   494
Alaska Native Tribal Health Consortium...........................   498
American Dental Association......................................    43
American Indian Graduate Center..................................   359
American Indian Higher Education Consortium......................   364
American Psychiatric Association.................................   373
Arctic Slope Native Association Limited..........................   483
Assiniboine and Sioux Tribes of the Fort Peck Reservation........   168
Association of Navajo Community Controlled School Boards.........   650
Bad River Band of Lake Superior Chippewa Indians.................   156
Bering Sea Fishermen's Association...............................   487
Berry Creek/Morretown Tribal Health Organization.................   416
Blackfeet Indian Reservation.....................................    85
Bristol Bay Area Health Corporation..............................   502
California Rural Indian Health Board, Inc........................   412
Canoncito Band of Navajos........................................   163
Cheyenne River Sioux Tribe.......................................   618
Chippewa/Ottawa Treaty Fishery Management Authority..............   550
Chugach Regional Resources Commission............................   194
Columbia River Inter-Tribal Fish Commission......................   474
Confederated Tribes of the Colville Reservations.................   129
Confederated Tribes of the Warm Springs Reservation..............    57
Council Annettee Islands Reserve.................................   491
Crow Tribal Council..............................................   565
Crownpoint Institute of Technology...............................   334
Delaware Tribe of Indians........................................   603
Douglas Indian Association.......................................   484
Dr. L. Edward Evans..............................................   363
Enewetak/Ujelang Local Government Council........................   662
Dry Creek Rancheria..............................................   427
Fond du Lac Band of Lake Superior Chippewa Indians...............   114
Fort Belknap Community Council...................................   444
Fort Defiance Hospital Steering Committee........................   639
Greasewood Springs Community School, Inc.........................   201
Great Lakes Indian Fish and Wildlife Commission..................   151
Great Lakes Inter-Tribal Council.................................   520
Guidiville Indian Rancheria......................................   395
Ho-Chunk Nation..................................................   538
Hoh Tribe........................................................   452
Holy Cross Tribal Council........................................   357
Hoopa Valley Tribal Council......................................   401
Hoopa Valley Tribe...............................................   599
Intertribal Agriculture Council..................................   569
InterTribal Bison Cooperative....................................     1
Intertribal Monitoring Association on Indian Trust Funds.........   657
Jamestown S'Klallam Tribe........................................    31
Kaw Nation of Oklahoma...........................................   595
Ketchikan Indian Corporation.....................................   506
Keweenaw Bay Indian Community....................................   530
Lac Courte Oreilles Band of Lake Superior Chippewa Indians.......   340
Lac du Flambeau Band of Lake Superior Chippewa Indians...........   106
Lawton Service Unit Intertribal Health Board.....................   622
Little River Band of Ottawa Indians of Michigan..................   281
Lower Elwha Tribal Council.......................................   480
Lummi Indian Business Council....................................    37
Lytton Rancheria/Lytton Band of Pomo Indians.....................   409
Maniilaq Association.............................................   510
Manzeanita Band of Mission Indians...............................   431
Menominee Indian Tribe of Wisconsin..............................   534
Miccosukee Tribe of Indians of Florida...........................   384
Middletown Rancheria.............................................   352
Mille Lacs Band of Ojibwe Indians................................   545
Minneapolis Area Community Tribal Schools, Inc...................    68
Mni-Sose Intertribal Water Rights Coalition, Inc.................   615
Narragansett Indian Tribe........................................   387
National Congress of American Indians............................   466
National Indian Child Welfare Association........................   297
National Indian Education Association............................   229
Native American Fish & Wildlife Society..........................   573
Native American Rights Fund......................................   577
Native Village of Port Lions.....................................   355
Navajo Area School Board Association, Inc........................   269
Nez Perce Tribal Executive Committee.............................   236
Nisqually Indian Tribe...........................................   441
Northwest Indian Fisheries Commission............................   187
Northwest Intertribal Court System...............................    50
Northwest Portland Area Indian Health Board......................   304
Northwest Portland Area Indian Health Board......................   478
Norton Sound Health Corporation..................................   512
Oneida Tribe of Indians of Wisconsin.............................   144
Oneida Tribe of Indians of Wisconsin--Health Care................   526
Owens Valley Indian Water Commission.............................   436
Pascua Yaqui Tribe of Arizona....................................   286
Pascua Yaqui Tribe of Arizona....................................   636
Pawnee Tribe of Oklahoma.........................................   559
Pinon Community School Board.....................................   310
Pleasant Point Reservation.......................................   356
Ponca Tribe of Nebraska..........................................   607
Ponca Tribe of Oklahoma..........................................   358
Port Gamble S'Klallam Tribe......................................   181
Pueblo of Acoma..................................................   629
Pueblo of Isleta.................................................   642
Pueblo of Jemez..................................................   212
Pueblo of Pojoaque...............................................   350
Puyallup Tribe of Indians........................................   462
Pyramid Lake Paiute Tribe........................................   261
Quinault Indian Nation...........................................    10
Ramah Navajo Chapter.............................................   316
Ramah Navajo School Board........................................   334
Red Cliff Band of Lake Superior Chippewa Tribal Chairmans........   516
Red Lake Nation..................................................    97
Rock Point Community School......................................   654
Rosebud Sioux Tribe..............................................   585
Sac and Fox Nation...............................................   599
Sauk-Suiattle Indian Tribe of Washington State...................   470
Sault Ste. Marie Tribe of Chippewa Indians.......................   138
Seattle Indian Health Board......................................   459
Seminole Tribe of Florida........................................   391
Shiprock Alternative Schools, Inc................................   208
Shoshone-Bannock Tribes..........................................   448
Sonoma County Indian Health Project, Inc.........................   423
Southern Indian Health Council, Inc..............................   218
Spokane Tribe of Indians.........................................   255
Squaxin Island Tribe.............................................   175
Standing Rock Sioux Tribe........................................   121
Stockbridge-Munsee Community Band of Mohican Indians.............   248
Susanville Indian Rancheria......................................    16
The Cocopah Indian Tribe.........................................   353
The Confederated Salish and Kootenai Tribes of the Flathead 
  Nation.........................................................   561
The Confederated Tribes of the Grand Ronde Community of Oregon...    63
The Confederated Tribes of the Umatilla Indian Reservation.......    79
The Coquille Indian Tribe of Oregon..............................   456
The Intertribal Timber Council...................................    72
The Suquamish Tribe..............................................    25
The Tulalip Tribes...............................................    91
Three Affiliated Tribes of the Fort Berthold Reservation of North 
  Dakota.........................................................   555
Timber Counties School Coalition.................................   397
Tlingit and Haida Indians of Alaska..............................   275
Tribal Representatives of the IHS Facilities Appropriations 
  Advisory Board.................................................   377
United Indian Health Services, Inc...............................   419
United Sioux Tribes of South Dakota..............................   611
United Tribes Technical College..................................   328
Ute Indian Tribe.................................................   591
Walker River Paiute Tribe........................................   626
Wampanoag Tribe of Gay Head (Aquinnah)...........................   381
Washoe Tribe of Nevada and California............................   405
White Earth Band of Chippewa Indians.............................   369
Winnebago Tribe of Nebraska......................................   242
Yakama Nation....................................................   542

                              <all>
</pre></body></html>
